Ofﬁce of Inspector General
Department of Veterans Affairs



  Semiannual Report to Congress
  October 1, 2004 - March 31, 2005
                                                     FOREWORD




I am pleased to submit the semiannual report on the activities of the Department of Veterans
Affairs (VA), Ofﬁce of Inspector General (OIG) for the period ended March 31, 2005. This
report is issued in accordance with the provisions of the Inspector General Act of 1978, as
amended. OIG is dedicated to helping ensure that veterans and their families receive the care,
support, and recognition they have earned through service to our country.

A total of 125 reports on VA programs and operations resulted in systemic improvements and
increased efﬁciencies in areas of medical care, beneﬁts administration, procurement, ﬁnancial
management, information technology, and facilities management. Audits, investigations, and
other reviews identiﬁed nearly $1.71 billion in monetary beneﬁts, for an OIG return of $50 for
every dollar expended.

Our criminal investigators closed 502 investigations involving a wide variety of criminal
activity directed at VA personnel, patients, programs, or operations. During the semiannual
period, special agents conducted investigations that led to 645 arrests, indictments, convictions,
and pretrial diversions. They also produced nearly $146.5 million in monetary beneﬁts to VA
(recoveries and savings). Additionally, the efforts of our agents and support staff led to the
apprehension of 252 fugitive felons nationwide.

One of our more signiﬁcant cases involved a former Veterans Health Administration (VHA)
medical research coordinator who, after an exhaustive investigation, pled guilty to criminally
negligent homicide, mail fraud, and false statements. The indictment charged that the researcher
intentionally submitted false and forged medical records to pharmaceutical companies, allowing
otherwise ineligible patients to be included in oncology studies being conducted at a VA medical
center (VAMC). At least one patient died as a result.

An OIG team conducted a proactive beneﬁts review at the VA Regional Ofﬁce (VARO) in
San Juan, Puerto Rico. The review recommended termination from VA beneﬁt rolls of almost
1,400 payees who were not entitled to beneﬁts. Overpayments for these beneﬁciaries totaled
approximately $29 million and represent a projected 5-year cost avoidance of over $45 million.
Over 1,700 referrals were made to the San Juan VARO regarding possible increases in beneﬁts,
aid and attendance, changes of address, corrected dates of birth, and various other changes.
Additionally, 82 applications were sent to the National Personnel Records Center and the Bureau
of Naval Personnel on behalf of veterans who had never received their service medals.

Audit oversight focused on improving VA services to veterans and their families. Our evaluation
of the Workers’ Compensation Program (WCP) found that movement of claimants to a retirement
beneﬁt plan at age 65 could reduce VA’s future annual WCP costs by an estimated $44.5 million,
and potential avoidable lifetime WCP claimant costs could total $487.8 million. Also, preaward
and postaward contract reviews identiﬁed monetary beneﬁts of over $1.03 billion resulting from
actual or potential contractor overcharges to VA. Contract review recoveries have resulted in
signiﬁcant returns to VA’s revolving supply fund.

Our health care inspectors focused on quality of care issues in VA. Inspectors visited a number
of facilities to respond to congressional and other special requests concerning health care
related matters. Our inspectors completed 18 Hotline cases and reviewed 54 patient care and
services issues brought to our attention. Inspectors found instances where clinicians had not
met the standards of care, patients were not treated satisfactorily, safety procedures designed to
protect patients were not followed, and resident physicians were not properly supervised. Our
inspectors also oversaw VHA medical facility directors’ efforts to address allegations of poor
care and services and provided clinical consultative support to investigators on criminal cases.
In addition, inspectors provided oversight of the work conducted by VHA’s Ofﬁce of the Medical
Inspector and of VHA’s quality improvement efforts.

OIG’s ongoing Combined Assessment Program (CAP) reviews the quality, efﬁciency, and
effectiveness of VA facilities. Through this program auditors, investigators, and health care
inspectors collaborate to assess key operations and programs at VAMCs and VAROs on a
cyclical basis. The 35 CAP reviews and 2 CAP summary reports completed during this reporting
period highlighted numerous opportunities for improvement in quality of care, management
controls, and fraud prevention. These reviews also documented monetary beneﬁts of $17.6
million.

I look forward to continued partnership with the Secretary and Congress in pursuit of world-class
service for our Nation’s veterans.




RICHARD J. GRIFFIN
Inspector General
                                  TABLE OF CONTENTS


HIGHLIGHTS OF OIG OPERATIONS ............................................................
 i
VA AND OIG MISSION, ORGANIZATION, AND RESOURCES......................... 1

COMBINED ASSESSMENT PROGRAM .......................................................... 7

OFFICE OF INVESTIGATIONS

     Mission Statement............................................................................ 17 

     Resources ....................................................................................... 17 

     Criminal Investigations Division .......................................................... 17 

                Veterans Health Administration ........................................... 18 

                Veterans Beneﬁts Administration ......................................... 22 

                Fugitive Felon Program ...................................................... 25 

                OIG Forensic Document Laboratory...................................... 27 

                OIG Computer Crimes and Forensic Laboratory ..................... 28 

     Administrative Investigations Division ................................................. 29 

                Veterans Health Administration ........................................... 29

                National Cemetery Administration........................................ 30

     Analysis and Oversight Division .......................................................... 30 

OFFICE OF AUDIT
     Mission Statement............................................................................ 31 

     Resources ....................................................................................... 31 

     Overall Performance ......................................................................... 31 

                Veterans Health Administration ........................................... 31 

                Veterans Beneﬁts Administration ......................................... 35 

                Ofﬁce of Management ........................................................ 35 

                Multiple Ofﬁces Action ........................................................ 41

                Human Resources ............................................................. 41

OFFICE OF HEALTHCARE INSPECTIONS

     Mission Statement............................................................................ 43 

     Resources ....................................................................................... 43 

     Overall Performance ......................................................................... 43 

                Veterans Health Administration ........................................... 44 

OFFICE OF MANAGEMENT AND ADMINISTRATION

     Mission Statement ........................................................................... 49 

     Resources ....................................................................................... 49 

     Hotline Division................................................................................ 50 

                Veterans Health Administration ........................................... 50 

                Veterans Beneﬁts Administration ......................................... 52 

                VA Management ................................................................ 53 

     Operational Support Division.............................................................. 53 

     Information Technology and Data Analysis Division ............................... 55 

     Financial and Administrative Support Division....................................... 57 

     Human Resources Management Division .............................................. 58 

OTHER SIGNIFICANT OIG ACTIVITIES
     President’s Council on Integrity and Efﬁciency ......................................                61 

     OIG Management Presentations .........................................................               61 

     Awards ...........................................................................................   62

     Special Thanks.................................................................................      63 

APPENDIX A - REVIEWS BY OIG STAFF ....................................................                    65

APPENDIX B - OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR ...........                                        77

     Veterans Beneﬁts Administration ........................................................             78 

     Veterans Health Administration ..........................................................            78 

APPENDIX C - INSPECTOR GENERAL ACT REPORTING REQUIREMENTS....                                             87

APPENDIX D - OIG OPERATIONS PHONE LIST .........................................                          93

APPENDIX E - GLOSSARY.........................................................................            95

               HIGHLIGHTS OF OIG OPERATIONS


This semiannual report highlights the activities and accomplishments of the Department of
Veterans Affairs (VA), Ofﬁce of Inspector General (OIG) for the period ended March 31, 2005.
The following statistical data highlights OIG activities and accomplishments during the entire
ﬁscal year (FY).

DOLLAR IMPACT (Dollars in Millions)
        Better Use of Funds ........................................................................................... $1,560.2

        Fines, Penalties, Restitutions, and Civil Judgments ....................................................... $7.2

        Fugitive Felon Program ........................................................................................... $51.8

        Dollar Recoveries ................................................................................................... $32.2

        Savings and Cost Avoidance ................................................................................... $54.8

        Questioned Costs ..................................................................................................... $2.4


RETURN ON INVESTMENT
        Dollar Impact ($1,709) / Cost of OIG Operations ($34) ................................................. 50:1


OTHER IMPACT
        Arrests ................................................................................................................... 266

        Indictments ............................................................................................................. 181

        Convictions .............................................................................................................. 178

        Pretrial Diversions ....................................................................................................... 20

        Fugitive Felon Apprehensions ..................................................................................... 252

        Administrative Sanctions ......................................................................................... 1,574


ACTIVITIES
   Reports Issued

       Combined Assessment Program (CAP) Reviews ............................................................... 35

       CAP Summary Reviews ..................................................................................................2

       Joint Review .................................................................................................................1

       Audits ..................................................................................................................... 29

       Contract Reviews ........................................................................................................ 38

       Healthcare Inspections ................................................................................................ 15

       Administrative Investigations..........................................................................................5

   Investigative Cases
       Opened ................................................................................................................... 526
       Closed ................................................................................................................... 502
   Healthcare Inspections Activities
       Clinical Consultations ................................................................................................... 6
   Hotline Activities
       Contacts ............................................................................................................... 6,781
       Cases Opened .......................................................................................................... 452
       Cases Closed ............................................................................................................ 507



                                                                  i

OFFICE OF INVESTIGATIONS

During this semiannual period, the Criminal Investigations Division closed 502 investigations
resulting in 379 judicial actions (indictments, convictions, and pretrial diversions) and nearly
$94.7 million was recovered or saved. Investigative activities resulted in the arrest of 266
individuals who had committed crimes on VA property or directed at VA programs and
operations. Information developed by our Fugitive Felon Program and provided to other law
enforcement agencies resulted in 252 additional arrests of fugitive felons. Criminal investigators
also referred 1,540 cases to facility directors for action. The Administrative Investigations
Division closed 16 cases, issuing 5 reports and 3 advisory memoranda. These investigations
resulted in management agreeing to take 14 administrative sanctions — including personnel
actions against 8 ofﬁcials — and corrective actions in 6 situations that will improve VA
operations.

Veterans Health Administration (VHA)

A former VHA medical research coordinator pled guilty to criminally negligent homicide, mail
fraud, and false statements after an extensive investigation revealed that he falsiﬁed medical data
that “qualiﬁed” veterans to participate in an experimental drug study at a VAMC. As a result
of the criminal scheme, at least one veteran died, and the health of countless others was put at
substantial risk.

Two men pled guilty to demanding a bribe from a company in connection with a Government
contract administered by a VA consolidated mail outpatient pharmacy (CMOP). The indictment
charged that the CMOP director approached the owners of a company and demanded
approximately one-third of the company’s ownership and cash receipts derived from a CMOP
contract for over $50 million, and threatened to cancel the contract if his demands were refused.
The second man charged in this scheme worked at the CMOP on an independent contract basis
and, in a series of telephone conversations with company owners, requested paperwork that
would enable him to obtain a share in the company.

     The Tennessean, Nashville, TN                                            October 21, 2004




                                                 ii

Veterans Beneﬁts Administration (VBA)

OIG conducted a proactive beneﬁts review at the VARO in San Juan. An interdisciplinary
team of OIG employees conducted the review that resulted in the proposed termination from
VA beneﬁts rolls of almost 1,400 payees. To date, the cost savings to VA is over $29 million
in overpayments with a projected 5-year cost savings of over $45 million by terminating VA
payments of those individuals who are not entitled to the beneﬁts.

The wife of a quadriplegic veteran was sentenced to 30 years’ imprisonment for murdering him
and attempting to conceal the crime by setting their house on ﬁre. A review of VA insurance
ﬁles revealed that she also forged two life insurance forms naming her and her son beneﬁciaries,
removing the names of the beneﬁciaries designated by the veteran. The wife has also been
indicted for tampering with Government records regarding the arson and forgeries of the two
documents. OIG worked this case jointly with the Bureau of Alcohol, Tobacco, Firearms, and
Explosives (ATF) and a county sheriff’s ofﬁce.

Fugitive Felon Program

Since 2002, OIG has received approximately 6.5 million felony warrant ﬁles from participating
law enforcement agencies. Matching these warrant ﬁles to more than 11 million VA beneﬁt
system records identiﬁed over 42,000 matched records and resulted in over 16,000 referrals of
information from VA ﬁles about fugitive felons to various law enforcement agencies throughout
the country. This information has led directly to the apprehension of 757 fugitive felons. OIG
agents took part in 368 of these arrests. Over 12,000 fugitive felons identiﬁed in these matches
have been referred to VA for beneﬁt suspension, resulting in the identiﬁcation of $72.4 million in
overpayments and a cost avoidance of over $155 million.

During this semiannual period, there were 252 fugitives apprehended as a result of OIG agents
directly assisting law enforcement or by sharing VA information with law enforcement. OIG
also referred 2,945 administrative actions to the Department for beneﬁt suspension, identifying
overpayments estimated at $15.3 million and a cost avoidance of $36.5 million.

OFFICE OF AUDIT
Audit Saved or Identiﬁed Improved Uses for $1.5 Billion

Audits and evaluations focused on operations and performance results to improve service to
veterans. Contract preaward and postaward reviews were conducted to assist contracting ofﬁcers
in price negotiations and to ensure reasonableness of contract prices. During this reporting
period, 103 audits, evaluations, CAP reviews, and contract preaward and postaward reviews were
conducted.

The evaluation of the Department’s WCP found that movement of claimants to a retirement
beneﬁt plan at age 65 could reduce VA’s future annual WCP costs by an estimated $44.5 million.
Potential avoidable lifetime WCP claimant costs could total $487.8 million.

                                                iii

OIG’s review of VA’s efforts to implement an E-Travel service nationwide determined that
the Department could save approximately $7.4 million over the next 10 years by migrating to
a General Services Administration (GSA) service, since the average prices available on GSA
contracts are less expensive.

Preaward and postaward contract reviews identiﬁed monetary beneﬁts of about $1.03 billion
resulting from actual or potential contractor overcharges to VA. In addition, CAP reviews
identiﬁed monetary beneﬁts of $17.6 million.

Veterans Health Administration

OIG’s summary evaluation of VHA sole-source contracts with medical schools and other
afﬁliated institutions contains our collective recommendations for improvement in the
procurement of health care resources in order to ensure quality health care is provided to veteran
patients and to protect the interests of the Government. Our results and recommendations are
presented in three sections: general contracting issues, contract pricing, and conﬂict of interest
and other legal issues. With respect to general contracting issues, OIG concluded acquisition
planning and justiﬁcation for contracting out for services was inadequate, and some contracts
were awarded to meet the needs of the afﬁliate, rather than VA.

Ofﬁce of Management

The audit of VA’s Consolidated Financial Statements for FYs 2004 and 2003 resulted in
an unqualiﬁed (“clean”) opinion. The report on internal control discussed two material
weaknesses involving inadequate information technology security controls and a lack of an
integrated ﬁnancial management system. The report also discusses two reportable conditions —
operational oversight, and judgment fund payment for medical malpractice claims — that, while
not considered material weaknesses, are signiﬁcant system or control weaknesses that could
adversely affect the recording and reporting of the Department’s ﬁnancial information.

OIG also issued 10 management letters addressing ﬁnancial reporting and control issues as
part of the annual consolidated ﬁnancial statements audit. The management letters provided
VA additional automated data processing security observations and advice that will enable the
Department to improve accounting operations and internal controls. None of the conditions
noted had a material effect on the FY 2004 consolidated ﬁnancial statements, but correction of
the conditions was considered necessary for ensuring effective operations.

OFFICE OF HEALTHCARE INSPECTIONS

The Ofﬁce of Healthcare Inspections (OHI) participated with the Ofﬁces of Audit and
Investigations on 24 CAP reviews and reported on speciﬁc clinical issues warranting the
attention of VA managers. OHI inspectors reviewed health care issues and made 147
recommendations to improve operations, activities, and the care and services provided to
patients.


                                                iv

In responding to congressional and other special requests and reviewing patient allegations
pertaining to quality of care issues received by the OIG Hotline, OHI completed 18 Hotline
cases, reviewed 54 issues, and made 18 recommendations. These recommendations resulted in
managers issuing new and revised procedures, improving services, improving quality of patient
care and access to care, and making environmental and safety improvements. OHI assisted the
Ofﬁce of Investigations on six criminal cases that required review of medical records and quality
assurance documents and monitored the work of VHA’s Ofﬁce of the Medical Inspector.

A review found that a medical center did not have a current decontamination program, and its
initial request for decontamination equipment was not ﬁlled by VA Central Ofﬁce (VACO).
A delay had been needed to complete certiﬁcation. OIG recommended submitting a revised
equipment request and conducting decontamination training and exercises after the equipment is
received.

An inspection to determine the validity of allegations regarding a delay in diagnosis and
treatment of a veteran’s lung cancer substantiated a delay in treatment, communication problems
between providers and the patient’s family, and inappropriate management of the patient’s acute
episode of pain by caregivers. OIG did not conclude earlier treatment would have led to the
patient’s survival.

OFFICE OF MANAGEMENT AND ADMINISTRATION
Hotline

Our Hotline provides an opportunity for employees, veterans, and other concerned citizens to
report criminal activity, waste, abuse, and mismanagement. During the reporting period, the
Hotline received 6,781 contacts and opened 452 cases. Analysts closed 507 cases, of which
182 (36 percent) contained substantiated allegations. The monetary impact resulting from these
cases totaled almost $571,000. The Hotline staff wrote 50 responses to inquiries received from
members of the Senate and House of Representatives. The closed cases led to 20 administrative
sanctions against employees and 125 corrective actions taken by management to improve VA
operations and activities. Issues addressed by the Hotline included: quality of care, beneﬁts,
ethical improprieties, employee misconduct, and abuse of authority.

Follow-Up on OIG Reports

The Operational Support Division continually tracks VA staff actions to implement
recommendations made in OIG audits, inspections, and reviews. As of March 31, 2005, there
were 141 open OIG reports containing 627 unimplemented recommendations with over $1.9
billion of actual or potential monetary beneﬁts. During this reporting period, we closed 74
reports and 699 recommendations, with a monetary beneﬁt of $3.3 billion, after obtaining
information that VA ofﬁcials had fully implemented corrective actions.




                                                v

Status of OIG Reports Unimplemented for Over 1 Year

The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management
decisions and implementation of OIG recommendations. It states a Federal agency shall
complete ﬁnal action on each recommendation in an OIG report within 12 months after the report
is ﬁnalized. If the agency fails to complete ﬁnal action within this period, the OIG will identify
the matter in their semiannual report to Congress. There are nine OIG reports issued over 1 year
ago (March 31, 2004, and earlier) with unimplemented recommendations. Eight of these are
VHA reports, and one is a VBA report. The OIG is particularly concerned with one report on
VBA operations (issued in July 2000) and three reports on VHA operations (issued in March,
October, and December 2002) with recommendations that still remain open. Details about these
reports can be found in Appendix B.




                                               vi

VA AND OIG MISSION, ORGANIZATION,
AND RESOURCES

The Department of
Veterans Affairs
Background

In one form or another, American governments
have provided veterans beneﬁts since
before the Revolutionary War. VA’s historic
predecessor agencies demonstrate our Nation’s
long commitment to veterans. The Veterans                     VA Central Ofﬁce
Administration was founded in 1930, when                 810 Vermont Avenue, NW
Public Law 71-536 consolidated the Veterans’                  Washington, DC
Bureau, the Bureau of Pensions, and the National
Home for Disabled Volunteer Soldiers. The Organization
Department of Veterans Affairs was established
on March 15, 1989, by Public Law 100-527, Three Under Secretaries head these
which elevated the Veterans Administration, an administrations that serve veterans:
independent agency, to Cabinet-level status.     •	 Veterans Health Administration (VHA)
                                                    provides health care.
Mission
                                                         •	 Veterans Beneﬁts Administration (VBA)
VA’s motto comes from Abraham Lincoln’s                     provides income and readjustment
second inaugural address, given March 4, 1865,              beneﬁts.
“to care for him who shall have borne the battle      •	 National Cemetery Administration (NCA)
and for his widow and his orphan.” These words           provides interment and memorial services.
are inscribed on large plaques on the front of the
VA Central Ofﬁce building on Vermont Avenue To support these services and beneﬁts, there are
in Washington, DC.                                 six Assistant Secretaries:
The Department’s mission is to serve America’s           •	 Management (Budget, Finance, and
veterans and their families with dignity and                Acquisition and Materiel Management).
compassion and to be their principal advocate in         •	 Ofﬁce of Information and Technology.
ensuring that they receive the care, support, and
recognition earned in service to our Nation.             •	 Policy, Planning, and Preparedness
                                                            (Policy, Planning, and Security and Law
                                                            Enforcement).


                                                    1
                                                    1

VA and OIG Mission, Organization, and Resources


  •	 Human Resources and Administration               funded at over $698 million for capital projects
     (Diversity Management and Equal                  and the state extended care grant program.
     Employment      Opportunity,      Human
     Resources Management and Labor                   Veterans beneﬁts are funded at $38.3 billion
     Relations, Administration, and Resolution        in FY 2005, about 55 percent of VA’s budget.
     Management).                                     Approximately 12,700 VBA employees at 57
                                                      VAROs provide beneﬁts to veterans and their
  •	 Public and Intergovernmental Affairs.
                                                      families. Almost 3 million veterans and their
  •	 Congressional and Legislative Affairs.           beneﬁciaries receive compensation beneﬁts
                                                      valued at $29 billion. Also, $3.4 billion in
In addition to VA’s OIG, other staff ofﬁces           pension beneﬁts are provided to approximately
providing support to the Secretary include            546,000 veterans and survivors. VA life insurance
the Board of Contract Appeals, the Board              programs insure 7.3 million lives, with policies
of Veterans’ Appeals, the Ofﬁce of General            totaling $756 billion. Approximately 300,000
Counsel, the Ofﬁce of Small and Disadvantaged         home loans will be guaranteed in FY 2005, with
Business Utilization, the Center for Minority         a value of approximately $43.8 billion.
Veterans, the Center for Women Veterans,
the Ofﬁce of Employment Discrimination The NCA operates and maintains 120 national
Complaint Adjudication, and the Ofﬁce of cemeteries and 33 related installations and
Regulation Policy and Management.                 employs over 1,500 staff in FY 2005. NCA
                                                  operations and capital funding and all of VA’s
Resources                                         burial beneﬁts account for approximately $429
                                                  million of VA’s budget. Interments in VA
While most Americans recognize VA as a cemeteries continue to increase each year, with
Government agency, few realize that it is the 95,900 for FY 2005. Approximately 358,000
second largest Federal employer. For FY 2005, headstones and markers will be provided for
VA has approximately 222,000 employees and a veterans and their eligible dependents in VA
$69 billion budget. There are an estimated 24.8 and other Federal cemeteries, state veterans’
million living veterans. To serve our Nation’s cemeteries, and private cemeteries.
veterans, VA maintains facilities in every state,
the District of Columbia, the Commonwealth of VA Ofﬁce of Inspector
Puerto Rico, Guam, and the Philippines.           General

Approximately 203,000 of VA’s employees work          Background
in VHA. Health care is funded at over $30.8
billion in FY 2005, approximately 45 percent of       VA’s OIG was administratively established
VA’s budget. VHA provides care to an average          on January 1, 1978, to consolidate audits and
of 60,000 inpatients daily. During FY 2005,           investigations into a cohesive, independent
there will be over 58 million episodes of care for    organization. In October 1978, the Inspector
outpatients. There are 157 health care systems,       General Act (Public Law 95-452) was enacted,
134 nursing home units, 206 veterans centers,         establishing a statutory Inspector General (IG)
42 VA domiciliary residential rehabilitation          in VA.
treatment programs, and 916 outpatient clinics
(including hospital clinics). In addition, VHA is



                                                     2

                                   VA and OIG Mission, Organization, and Resources


Role and Authority

The Inspector General Act of 1978 states            In addition, 25 FTE are reimbursed for a
that the IG is responsible for: (i) conducting      Department contract review function.
and supervising audits and investigations; (ii)
recommending policies designed to promote           The FY 2005 funding of OIG operations is $74.0
economy and efﬁciency in the administration         million, with $69.1 million from appropriations,
of, and to prevent and detect criminal activity,    $1.7 million from FY 2004 carryover, and
waste, abuse, and mismanagement in VA               $3.2 million through reimbursable agreement.
programs and operations; and (iii) keeping the      Approximately, 73 percent of the total funding
Secretary and Congress fully informed about
                                                    is for salaries and beneﬁts, 4 percent for ofﬁcial
problems and deﬁciencies in VA programs and
                                                    travel, and the remaining 23 percent for all other
operations and the need for corrective action.
                                                    operating expenses such as contractual services,
                                                    rent, supplies, and equipment.
The Inspector General Act Amendments of 1988
provided the IG with a separate appropriation
account and revised and expanded procedures OIG resource allocation, by VA organizational
for reporting semiannual workload to Congress. element, in this reporting period, is as follows.
The IG has authority to inquire into all VA
programs and activities as well as the related
activities of persons or parties performing
                                                                  IT
under grants, contracts, or other agreements.                    5%             VBA
The inquiries may be in the form of audits,                                    17%

investigations, inspections, or other special      Management
                                                      11%
reviews.

Organization
                                                                                              A&MM
Allocated full-time equivalent (FTE) employees                                                 11%

from appropriations for the FY 2005 stafﬁng
plan are as follows.

         OFFICE               ALLOCATED                      VHA
                                                             56%
                                 FTE
Inspector General                  4
Counselor                               4
Investigations                      155
Audit                               197
Management and                        64
Administration
Healthcare                            61
Inspections
TOTAL                               485


                                                   3

VA and OIG Mission, Organization, and Resources


OIG resource allocation applied to mandated,            issues that are important to them and the
reactive, and proactive work is:                        veterans served.

                                                    In performing its mandated oversight function,
                                                    OIG conducts investigations, audits, and health
                             Reactive
                              35%                   care inspections to promote economy, efﬁciency,
                                                    and effectiveness in VA activities, and to detect
                                                    and deter criminal activity, waste, abuse, and
                                                    mismanagement. Inherent in every OIG effort
                                    Mandated
                                                    are the principles of quality management and
                                      9%            a desire to improve the way VA operates by
      Proactive                                     helping it become more customer driven and
        56%                                         results oriented.

                                                    OIG keeps the Secretary and Congress fully
Mandated work is required by statute or             and currently informed about issues affecting
regulation. Examples include our audits of VA’s     VA programs and the opportunities for
consolidated ﬁnancial statements, oversight of      improvement. In doing so, OIG staff strives
VHA’s quality management programs and Ofﬁce         to be leaders and innovators, and to perform
of the Medical Inspector, follow-up activities      their duties fairly, honestly, and with the highest
on OIG reports, and releases of Freedom of          professional integrity.
Information Act (FOIA) information.

Reactive work is generated in response to
requests for assistance received from external
sources concerning allegations of criminal
activity, waste, abuse, and mismanagement.
Most of the Ofﬁce of Investigations’ work is
reactive.

Proactive work is self-initiated, focusing on
areas where OIG staff determines there are
signiﬁcant issues.

OIG Mission Statement

   The OIG is dedicated to helping VA ensure
   that veterans and their families receive the
   care, support, and recognition they have
   earned through service to their country.
   The OIG strives to help VA achieve its vision
   of becoming the best-managed service
   delivery organization in Government. The
   OIG continues to be responsive to the needs
   of its customers by working with the VA
   management team to identify and address

                                                   4

                                                                                Inspector General
                                              Executive Assistant                                                       Counselor to the
                                                                                                                       Inspector General
                                                                                          Deputy




     Assistant Inspector General                     Assistant Inspector General                     Assistant Inspector General              Assistant Inspector General

    Management and Administration                           Investigations                                       Audit                          Healthcare Inspections 


                     Deputy                                     Deputy                                             Deputy                                Deputy



                                                                                                     Contract                              Medical Advisor          Program

     Operational 
                             Administrative               Criminal                 Review                     Audit            to               Administration
      Support                   Hotline        Investigations            Investigations                and                    Planning       Inspector             and Special
                                                                                                    Evaluation                                General               Projects




      Financial                 Human                                                                                                                Regional Offices
         and                   Resources         Analysis and                 Benefits             Operational                Financial                  Atlanta
    Administrative            Management          Oversight                    Fraud                Support                     Audit                   Bay Pines
      Support                                                                                                                                            Bedford




5
                                                                                                                                                         Chicago
                                                                                                                                                          Dallas
                                                                             Computer                                                                  Kansas City
                                                                              Crimes                                                                   Los Angeles
     Information                                Field Offices                   and                                                                    Washington
     Technology                                   Bay Pines                  Forensics             Information                Veterans
      and Data                                     Chicago                                         Technology                  Health
       Analysis                                     Dallas                                                                    Benefits
                                                Los Angeles                    Health
                                                  New York                      Care
                                                                               Fraud

    Field Office                                                                                         Operations Divisions
       Austin                             Resident Agencies                                          Atlanta       Bay Pines
                                    Atlanta        Bedford                    Fugitive               Bedford       Chicago
                                    Cleveland      Columbia                    Felon                 Dallas        Kansas City
                                    Denver         Houston                    Program                Los Angeles   Seattle
                                    Kansas City    Nashville                                         Washington
                                    New Orleans Newark
                                    Phoenix        Pittsburgh
                                    San Diego      San Francisco              Forensic
                                    Seattle        Washington                Document                            Sub Office
                                    West Palm Beach                          Laboratory                            Austin
                                                                                                                                                                                   VA and OIG Mission, Organization, and Resources
VA and OIG Mission, Organization, and Resources




                                   Blank Page




                                    6
COMBINED ASSESSMENT PROGRAM

Reports Issued                                      Integrated Service Network (VISN), and
                                                    VAMC databases and management information.
During the period October 1, 2004, through          Areas generally covered include procurement
March 31, 2005, OIG issued 35 CAP reports           practices, ﬁnancial management, accountability
with monetary savings of $17.6 million. Of          for controlled substances, and information
the 35 CAP reports, OIG reported on 24 VA           security.
health care systems (HCS) and VAMCs, and
11 VAROs. We also issued two CAP summary Special agents conduct fraud and integrity
reviews.                                           awareness brieﬁngs to provide VA employees
                                                   with insight into the types of fraudulent and
Combined Assessment                                other criminal activities that can occur in VA
Program Overview - Medical programs and operations. The brieﬁngs include
                                                   an overview and case-speciﬁc examples of fraud
                                                   and other criminal activities. Special agents
CAP reviews are part of OIG’s efforts to ensure
                                                   may also investigate matters that VA employees,
that quality health care services are provided
                                                   members of Congress, veterans, and others refer
to our Nation’s veterans.          CAP reviews
                                                   to OIG.
provide cyclical oversight of HCS and VAMC
operations, focusing on the quality, efﬁciency,
and effectiveness of services provided to During this period, OIG issued 24 health care
veterans by combining the skills and abilities facility CAP reports. Appendix A contains the
of representatives from the OIG Ofﬁces of full titles, report numbers, and dates of the CAP
Healthcare Inspections, Investigations, and reports issued this period. These reports relate
Audit to provide collaborative assessments of to the following VA medical facilities:
VA medical facilities.                                •	 VA Central California Healthcare System,
                                                         Fresno, California
Health care inspectors conduct proactive
                                                      •	 VA Long Beach Healthcare System, Long
reviews to evaluate care provided in VA medical
                                                         Beach, California
facilities, and assess the procedures for ensuring
the appropriateness of patient care and the           •	 VA Palo Alto Health Care System, Palo
safety of patients and staff. The facilities are         Alto, California
evaluated to determine the extent to which they
                                                      •	 VA Eastern Colorado Health Care System,
are contributing to VHA’s ability to accomplish
                                                         Denver, Colorado
its mission of providing high quality health
care, improved patient access to care, and high       •	 Carl Vinson VA Medical Center, Dublin,
patient satisfaction. Their effort includes the          Georgia
use of standardized survey instruments.
                                                      •	 Edward Hines VA Hospital, Hines, Illinois
Auditors conduct reviews to ensure management           •	 VA Northern Indiana Healthcare System,
controls are in place and operating effectively.           Fort Wayne and Marion, Indiana
Auditors assess key areas of management
concern, which are derived from a concentrated          •	 Richard L. RoudebushVAMC, Indianapolis,
and continuing analysis of VHA, Veterans                   Indiana

                                                   7
                                                   7

Combined Assessment Program


  •	 Eastern Kansas Health Care System, Quality Management
     Leavenworth, Kansas                    • VHA program ofﬁcials issued clariﬁcations
  •	 Minneapolis VAMC, Minnesota            and initiated corrective actions that addressed
                                            most of the recommendations OIG made in its FY
  •	 VA Montana Health Care System, Fort 2002 and FY 2003 Quality Management (QM)
     Harrison, Montana                      evaluation reports. CAP reviews found that the
  •	 VA Nebraska Western Iowa Health Care   facilities included in this summary had active
     System, Omaha, Nebraska                QM   programs.   OIG noted improvement in data
                                            management and also in the implementation
  •	 Canandaigua VAMC, New York             and evaluation of corrective actions when
  •	 VA Medical Center, Fargo, North Dakota problems were identiﬁed. Mortality analyses
                                            also improved.
  •	 Louis Stokes VAMC, Cleveland, Ohio
  •	 VAMC, Dayton, Ohio
  •	 Philadelphia VAMC, Pennsylvania
  •	 Ralph H. Johnson VAMC, Charleston,
     South Carolina
  •	 VA North Texas Health Care System,
     Dallas, Texas
  •	 West Texas VA Health Care System, Big
     Spring, Texas
  •	 South Texas Veterans Health Care System,
     San Antonio, Texas
  •	 Hunter Holmes McGuire           VAMC,           VA Central California Healthcare System
     Richmond, Virginia                                             Fresno, CA

  •	 VAMC, White River Junction, Vermont         • A repeat ﬁnding is that utilization
  •	 VAMC, Martinsburg, West Virginia            management programs were inconsistent and
                                                 needed improvement. In response to the FY
Summary of Findings                              2003 report, VHA released a new directive
                                                 in March 2005 that will provide improved
Deﬁciencies identiﬁed during prior CAP           consistency. Also, facility managers did not
reviews relating to management of veterans       consistently benchmark their results or identify
health care programs were discussed in OIG’s     speciﬁc corrective actions when problems were
Summary Report of CAP Reviews at VHA             identiﬁed. OIG found that some signiﬁcant QM
Medical Facilities October 2003 through          actions did not succeed because existing tracking
September 2004, issued March 7, 2005. During     systems did not assure full implementation.
this reporting period, OIG identiﬁed similar
                                             Procurement
problems at the medical facilities.
                                                 OIG identiﬁed the need to improve VA
                                                 procurement practices as one of the Department’s


                                                8

                                                             Combined Assessment Program


most serious management challenges. OIG             tested. Equipment inventories and spot checks
continued to identify control weaknesses in         were improperly performed, inaccurate, and not
this area during CAP reviews. Controls need         timely.
to be strengthened to effectively administer the
Government purchase card program, improve           Information Technology
contract award and administration controls,
and strengthen inventory management.                OIG identiﬁed a wide range of automated
                                                    information system vulnerabilities that could
• Government purchase card controls were            lead to misuse or destruction of critical sensitive
deﬁcient at 10 of 24 facilities where OIG tested    information. VA had established comprehensive
for these issues. Policies and procedures were      information security policies, procedures,
not followed governing the administration of        and guidelines. However, CAP reviews found
the purchase card program, use of purchase          facility policy development, implementation,
cards, purchasing limits, and accounting for        and compliance were inconsistent. In addition,
purchases.                                          there was a need to improve access controls,
• Auditors identiﬁed contract award and             contingency planning, risk assessments, and
administration deﬁciencies at 16 of 24 facilities   security training.
tested. Controls needed to be strengthened to • OIG found inadequate management oversight
ensure that:                                      contributed to inefﬁcient practices, inadequate
     1. Acquisition and Materiel Management information security, and problems with physical
        Service staff follow preaward and security of assets. CAP ﬁndings complement
        postaward contract policies and the results of our FY 2003 Federal Information
        procedures.                               Security Management Act audit, which
                                                  identiﬁed information security vulnerabilities
     2. Contracting ofﬁcials properly monitor that place VA at risk of disruption and denial
        contract performance and payment for of service attacks on mission critical systems,
        services.                                 unauthorized access to and improper disclosure
     3. Contract ﬁles include all required of data subject to Privacy Act protection and
        documentation, and the documentation sensitive ﬁnancial data, and fraudulent receipt
        is accurate.                              of health care beneﬁts.

     4. Contracting     Ofﬁcer’s      Technical • OIG found information technology (IT)
        Representatives are provided training, security deﬁciencies at 19 of 23 facilities tested.
        as required.                              OIG found that:

• Management of supply inventories was                 1. Security and contingency plans were not
deﬁcient at 22 of 24 facilities tested. Supply            prepared or not kept current and lacked
inventories were either not performed or                  key elements.
inaccurate. Automated controls were either not         2. Personnel 	access privileging to
fully implemented or not effectively utilized.            automated information systems was not
Inventory levels exceeded current requirements            performed quarterly.
resulting in funds being tied up unnecessarily
in excess inventories. Ordering, receiving,            3. Access to VHA’s Veterans Health
and distributing functions were not properly              Information Systems and Technology
segregated. Also, management of equipment                 Architecture and the Internet was not
inventories was deﬁcient at 10 of 12 facilities           effectively monitored.


                                                   9

Combined Assessment Program


     4. Background investigations were not collections. However, OIG found deﬁciencies
        conducted for designated key hospital at 19 of 21 facilities tested. Deﬁciencies
        staff or contract personnel with access included:
        to sensitive areas.
                                                     1. Not obtaining insurance information
     5. Annual security awareness training was          from veterans at the time of treatment.
        not conducted.
                                                     2. Inadequate and untimely documentation
     6. Risk assessments were not always                of services provided.
        conducted or in accordance with National
                                                     3. Billable care not identiﬁed, fee-basis
        Institute of Standards and Technology
                                                        care not forwarded to veterans’ health
        guidelines.
                                                        insurers for payment.
     7. IT	     physical     security      needed
                                                     4. Billing backlogs being processed in
        improvement.
                                                        alphabetical order instead of by date of
Controlled Substances                                   treatment resulting in longer waiting
                                                        times.
• VA has established policies, procedures,
and guidelines for accountability of controlled Facility management needs to strengthen billing
substances and other drugs. However, controlled procedures to avoid missed billing opportunities,
substance inspection procedures were inadequate improve timeliness of billings, improve
to ensure compliance with VHA policy and accuracy of diagnostic and procedure coding,
U.S. Drug Enforcement Administration and aggressively pursue accounts receivable.
(DEA) regulations at 16 of 24 facilities tested.
Facilities did not receive and post controlled
substances into inventory witnessed by
accountable ofﬁcers designated by Acquisition
and Materiel Management Service as required
by VHA policy. They did not conduct or did
not document required 72-hour inventories.
Controlled substances awaiting return to the
prime vendor were not entered into inventory
and were not stored in secure locations. Facilities
did not conduct unannounced inspections and
inventories, or did not account for or dispose
of unusable drugs properly. Discrepancies
between inventory results and recorded balances
were not reconciled in a timely manner. They
did not report suspected thefts, diversions, or
suspicious losses of controlled substances to the
OIG Ofﬁce of Investigations. Also, they did not
properly segregate the placing and receiving of
orders functions.

Medical Care Collections Fund
•	 VA health care facilities continue to increase         Canandaigua Medical Center
Medical Care Collection Fund (MCCF)                            Canandaigua, NY


                                                10
                                                              Combined Assessment Program


Pharmacy Security                                            accounts receivable actions timely and
• VA health care facilities need to improve                  accurately.
physical security in pharmacy areas to meet               2. Reconcile 	accounts receivable with
VA standards. OIG found physical security                    individual accounts monthly.
deﬁciencies in pharmacy areas at 5 of 11 facilities
tested. The pharmacy walls and dispensing                 3. Properly 	write     off    uncollectible
window were not constructed of materials                     receivables.
meeting minimum security requirements as              • Facilities needed to improve their ﬁnancial
required by VA policy. Pharmacy doors were            controls to prevent duplicate payments, which
mounted with removable external hinges. One           occurred at 2 of 2 facilities tested. Duplicate
pharmacy did not have a motion intrusion              payments were processed by VA’s Austin
detection system, did not limit controlled            Automation Center Financial Management
substances vault access to 10 or fewer within a       System when batch payments for contract
24-hour period, and allowed separated pharmacy        nursing homes were processed that should have
employees keypad access to the pharmacy.              been canceled. Fiscal service used the wrong
                                                      code when attempting to cancel the payments.
Part-Time Physician Time and
Attendance                                            • VA facilities needed to comply with VA
                                                      policy regarding unliquidated obligations at
• VAMC managers did not have effective
                                                      3 of 9 facilities tested. Deﬁciencies included
controls in place to ensure that part-time
                                                      delinquent or no longer needed services which
physicians time and attendance records were
                                                      should have been canceled for undelivered
accurate at 3 of 16 facilities tested. Physicians
                                                      orders or accrued services payable. Facility
did not complete appropriate time and attendance
                                                      personnel should analyze unliquidated
records, and timecards were not posted based on
                                                      obligations monthly, follow up with requesting
the timekeepers’ actual knowledge of physicians’
                                                      services to ensure continued need, and promptly
attendance. Additionally, timekeepers did not
                                                      cancel unneeded obligations when identiﬁed.
receive annual refresher training, and desk
audits were not conducted as required by VA
policy.                                               Survey Results

Financial Controls                                    Inpatient Surveys
• Controls over the agent cashier function            OIG completed 347 inpatient interviews in 24
needed improvement at 2 of 5 facilities tested.       VHA facilities to ascertain their satisfaction
OIG identiﬁed instances where unannounced             with mental health, medical, surgical, long-
audits were not conducted properly or timely          term, and intensive care. OIG discussed the
and one instance the agent cashier’s cash box         results with local management ofﬁcials before
was not counted because the box was not               leaving the sites.
accessible to the auditor.
                                                 • Overall, 97 percent of the inpatients rated the
• Controls over accounts receivable needed quality of care they received in VHA facilities
improvement at 7 of 12 facilities tested. Fiscal as good to excellent. Ninety-six percent of the
service needed to:                               respondents would recommend care at a VHA
     1. Aggressively       p	 ursue     accounts facility to an eligible family member or friend,
        receivable for collection, and document and 95 percent said their care needs were being
                                                 addressed to their satisfaction.


                                                  11

Combined Assessment Program


• Ninety-two percent of the inpatients told us     • Eighty percent of the outpatients told us
that staff members explained their care plans      that they received counseling by a pharmacist
to them, 95 percent felt that they were included   when they received new prescriptions and 92
in clinicians’ decisions about their treatment.    percent said that they received their reﬁlls in the
Eighty-six percent said that they received         mail before they ran out of their medications.
education from clinicians on prescribed            Only 62 percent of the outpatients told us they
medications and procedures.                        received their prescriptions within 30 minutes.
• Twenty-one percent of the inpatients told us     Employee Surveys
that they did not have one primary care provider
who was responsible for their overall treatment.   OIG obtained employee feedback from
Thirteen percent had concerns about the            responses to a web-based survey implemented
adequacy of discharge planning for continuity      at 24 CAP reviews. All employees of each
of care following discharge from the hospital.     facility were notiﬁed by e-mail about the survey
                                                   and were provided with the Web address. OIG
Outpatient Surveys                                 received 5,218 responses. Since the earliest
                                                   CAP reviews, OIG has systematically elicited
OIG surveyed 373 VA outpatients at 24 facilities   employees’ perceptions on a wide range of
to ascertain their satisfaction with primary care, issues. The resulting data can provide an
mental health, or specialty care clinics. OIG      independent, objective indicator of employee
also surveyed outpatients who were in waiting      satisfaction for facility management to use in
areas of the various supportive services such as   decision-making.
pharmacy, radiology, and laboratory.               • Employees generally felt patients received
• Overall, 94 percent of the outpatients rated the quality care. However, additional emphasis is
quality of care as good, very good, or excellent. needed to ensure positive employee morale.
Ninety-three percent of the outpatients would
                                                   • Eighty percent of the employees who
recommend medical care to eligible family
                                                   responded felt that quality patient care was the
members or friends, 92 percent told us that
                                                   ﬁrst priority at their medical center. Ninety-two
their treatment needs were being addressed to
                                                   percent believed the quality of care provided to
their satisfaction, and 91 percent said they felt
                                                   patients at their respective facilities was either
involved in decisions about their care.
                                                   good or excellent. Over 78 percent felt that
• Eighty-eight percent of the outpatients their medical center was clean, and 68 percent
reported that a health care provider discussed would recommend their facility to an eligible
the results of tests and procedures with them. family member or friend.
Ninety-ﬁve percent said their primary care
                                                   • More than 88 percent of the respondents
provider discussed the reasons for medications
                                                   believed they received proper orientation,
with them, and 93 percent were told the reasons
                                                   education, and training to do their jobs. In
for referrals to specialists and why diagnostic
                                                   addition, 62 percent of these employees felt
tests were ordered.
                                                   that management provided them opportunities
• Only 76 percent of the outpatients said to fulﬁll their continuing education needs or
that they were generally able to schedule requirements. Seventy-ﬁve percent asserted
appointments with their primary care providers that adequate supplies were available for them
within 7 days of their request. Only 71 percent to do their jobs.
were given appointments and were assessed by
the specialist within 30 days of the referrals.


                                                12

                                                             Combined Assessment Program


• OIG noted the following deﬁciencies that Combined Assessment
were common to most facilities:               Program Overview - Beneﬁts
    1. Fifty-one percent of the responding
       employees believed they had not During this period, OIG issued 11 CAP reports
       been offered opportunities for career on the delivery of beneﬁts, listed in Appendix
       advancement.                           A with their exact titles, report numbers, and
                                              dates. These 11 reports relate to the following
    2. More than 34 percent of respondents beneﬁt facilities:
       asserted that work orders for needed
       repairs were not addressed promptly at   •	 VA Regional Ofﬁce, Little Rock,
       their facilities.                           Arkansas
     3. Only 40 percent of responding employees        •	 VA    Regional       Ofﬁce,      Hartford,
        felt stafﬁng levels were usually sufﬁcient        Connecticut
        to provide safe patient care.                  •	 VA Regional Ofﬁce, Indianapolis, Indiana
Physical Plant Environment                             •	 VA Regional Ofﬁce, Louisville, Kentucky

OIG conducted environment of care inspections          •	 VA Regional Ofﬁce, Togus, Maine
in 24 facilities evaluating primary care and           •	 VA Regional Ofﬁce, Fort Harrison,
specialty outpatient clinics, inpatient wards,            Montana
emergency rooms, intensive care/coronary care
units, nursing home care units, domiciliary units,     •	 VA Regional Ofﬁce, Reno, Nevada
psychiatry units, surgery, and rehabilitation          •	 VA Regional Ofﬁce, Fargo, North Dakota
areas, as well as in some kitchens, canteens, or
supply processing and distribution areas.              •	 VA    Regional      Ofﬁce,     Pittsburgh,
                                                          Pennsylvania
• Twelve of the 24 facilities were generally
clean and well maintained with minor issues            •	 VA Regional Ofﬁce, Providence, Rhode
management corrected immediately during                   Island
our inspections, and 12 facilities received            •	 VA Regional Ofﬁce, Sioux Falls, South
recommendations to correct deﬁciencies in the             Dakota
environment of care. Two of these 12 facilities
had pervasive unacceptable levels of cleanliness,    Summary of Findings
and safety and infection control deﬁciencies.
One of the two facilities had to divert admissions   Deﬁciencies identiﬁed during prior CAP
of immune suppressed patients because                reviews in the management of veterans beneﬁts
of aspergillosis exposure risks to patients.         programs were discussed in OIG’s December
Managers needed to improve procedures to             2004 summary report of CAP reviews at VAROs
ensure unobstructed hallways, secure chemical        conducted October 2003 through September
storage areas and medications, ensure patient        2004. During this reporting period, OIG
privacy and safety, and strengthen cleaning and      identiﬁed similar problems at all 11 facilities.
sanitation procedures. OIG discussed surveys
with managers during site visits.                    Compensation and Pension
                                                     Claims Processing
                                                     • Compensation and pension (C&P) beneﬁts
                                                     for veterans hospitalized for extended periods

                                                 13

Combined Assessment Program


of time at Government expense were not             electronic ﬁle security were not performed as
reduced as required at any of the 11 facilities.   required, access to ﬁle cabinets containing
Veterans Service Centers did not always            employee-veteran claims folders and other
identify hospitalized veterans whose beneﬁts       sensitive records were not properly controlled,
required adjusting. Management should ensure       sensitive ﬁles were not secured in locked ﬁles,
that payments to certain veterans be reduced as    claims folders were not maintained at the
appropriate, consult with medical center staff     designated regional ofﬁces of jurisdiction, and
to improve compliance with requirements for        sensitive electronic records were not secured
notiﬁcation when veterans are hospitalized for     through the common security user manager
extended periods, and provide refresher claims     application.
processing training for Veteran Service Center
staff.                                             Other VBA Programs
                                                   • VBA’s processing and timeliness over
Information Technology                             vocational rehabilitation and employment claims
• IT security was deﬁcient at 5 of 7 facilities    continue to need improvement. Data entry,
tested. The CAP review coverage of VBA             claims processing, timeliness of services, needs
facilities in FY 2005 identiﬁed a wide range of    assessments, and case monitoring errors were
vulnerabilities in VBA systems similar to those    noted at 7 of 9 facilities tested. Management
identiﬁed during VHA CAP reviews. These            and control deﬁciencies included:
deﬁciencies could lead to misuse or loss of
                                                        1. Inadequate rehabilitation plans.
sensitive automated information and data. The
CAP review ﬁndings show a need to improve               2. Missing counseling, evaluation, and
access controls and contingency planning.                  rehabilitation folders.
                                                        3. Inadequate control of cases.
                                                        4. Insufﬁcient documentation.
                                                        5. Unsigned education awards.

                                                   Appropriate actions are needed to promptly place
                                                   veterans who are not pursuing their approved
                                                   training programs in the discontinued status.
                                                   Veterans who have completed the program must
                                                   be placed in the rehabilitated status.
                                                 • OIG found that improvements were needed
                                                 in ﬁduciary and ﬁeld examination controls and
                                                 procedures at 7 of 9 facilities tested. Fiduciary
                                                 and ﬁeld examination accountings were not
             VA Regional Ofﬁce
                 Togus, ME
                                                 always submitted accurately or on time.
                                                 Management needed to improve the oversight of
Sensitive Records Security                       incompetent veterans by ensuring accountings
                                                 and ﬁeld examinations were conducted when
• Physical security controls over sensitive needed, and that appropriate corrective actions
records needed improvement at 7 of 11 facilities were taken. In some cases, ﬁduciaries were not
tested. Semiannual reviews of hardcopy and sufﬁciently bonded or considered for bonding.


                                               14

                                                           Combined Assessment Program


• Government purchase card program                 • Regional ofﬁce management needed to
deﬁciencies existed at 6 of 9 facilities tested.   improve the timeliness of ﬁduciary activities and
Supporting documentation for purchases was         rating decisions at 3 of 3 facilities tested. The
insufﬁcient, reconciliations and certiﬁcations     pending inventory of rating decisions was above
were not timely or not properly documented,        the timeliness goal for the national “Balanced
and single purchase limits were not enforced.      Scorecard” performance and average timeliness
Unauthorized individuals used purchase cards,      of rating decisions and ﬁduciary appointments
purchases were split, national contracts were      exceeded performance goals. Improvements
not utilized, and cardholders and approving        were needed in rating accuracy, ﬁduciary
ofﬁcials needed appropriate training. Adequate     accuracy, and days to complete notices of
separation of duties between the billing           disagreement. Also, the VR&E rehabilitation,
ofﬁcer and purchase card coordinator was not       ﬁscal accuracy, education, planning, and
maintained. Management needs to ensure that        services accuracy rates needed improvement.
cardholders are properly trained and warranted,
                                                • Deﬁciencies       procedures    for     future
prevent warranted cardholders from exceeding
                                                examinations appeared at 2 of 2 facilities
their $2,500 micro-purchase limit, and
                                                tested. Staff did not establish proper controls
require adequately documenting transactions.
                                                and procedures to ensure that required future
Management should use VA’s national contracts
                                                medical examinations were scheduled and
when feasible, and must oversee expensive
                                                conducted, nor were award reductions processed
or unusual Vocational Rehabilitation and
                                                when found appropriate. Refresher training
Employment (VR&E) procurements made on
                                                for rating specialists was needed to ensure
behalf of individual veterans.
                                                disabilities subject to reduction were reduced
• Beneﬁts delivery network system-generated when appropriate.
messages were not processed timely or properly
                                                • Instances of improper compensation
at 2 of 4 facilities tested. This resulted in
                                                to veterans with dependent school-aged
our identiﬁcation of both overpayments and
                                                children were noted at 2 of 3 facilities tested.
underpayments of veterans’ beneﬁts.
                                                Compensation to veterans with dependent
• There were processing deﬁciencies in children was not reduced for Chapter 35
retroactive payments of beneﬁts at 2 of 11 (Dependents’ Education Assistance) beneﬁts
facilities tested. Third reviews by supervisors as required. Improvement was needed in
and directors for veriﬁcation of retroactive communicating and tracking VBA regional
payments of $25,000 or more were not on processing ofﬁces’ education division awards
time, not performed, not documented, or were of Chapter 35 beneﬁts to veterans’ dependent
signed by an employee without third-signature children and the VARO having jurisdiction over
authority. This resulted in our identiﬁcation the veterans’ claim ﬁles. Annual staff refresher
of both overpayments and underpayments of training, recoupment of excess payments, and
veterans’ beneﬁts.                              beneﬁt award reductions were needed.
• There were processing deﬁciencies in
incarcerated veterans’ payments of beneﬁts
at 3 of 9 facilities tested. Because reviews of
incarcerated veterans’ information were not
timely, overpayments were made to incarcerated
veterans.



                                               15

Combined Assessment Program




                              Blank Page




                               16
OFFICE OF INVESTIGATIONS

Mission Statement                                state or local ofﬁcials for prosecution. The
                                                 Division is also responsible for operation of
   Conduct investigations of criminal activities both the Forensic Document Laboratory and the
   and administrative matters relating to Computer Crimes Forensic Laboratory.
   the programs and operations of VA in an
   independent and objective manner and Resources
   seek prosecution, administrative action,
   and/or monetary recoveries in promoting The Criminal Investigations Division has 139
   integrity, efﬁciency, and accountability FTE allocated for its headquarters and 22 ﬁeld
   within the Department.                        locations. These individuals are deployed in the
                                                 following VA program areas:
Resources

Overall, the Ofﬁce of Investigations has 155 FTE                      E-Crimes
allocated to senior management and its three                   A&MM
                                                                        1%
divisions: Criminal Investigations Division,                    6%
Administrative Investigations Division, and the
Analysis and Oversight Division.

                                                       VHA
                                                       33%


    Criminal
                                                                                      VBA
     90%                        Administrative                                        60%
                                    5%


                                   Analysis
                                     5%
                                                   Overall Performance
                                                   Output

                                                   OIG closed 502 investigations during the
I. CRIMINAL                                        reporting period.

INVESTIGATIONS                                     Outcomes
DIVISION                                           Arrests – 266
                                                   Indictments – 181
                                                   Convictions – 178
This Division is primarily responsible for         Pretrial Diversion – 20
conducting investigations into allegations of      Fugitive Felon Apprehensions – 252*
criminal activities related to the programs        Administrative Sanctions/Program Referrals
and operations of VA. Criminal violations          – 1,540
are referred to the Department of Justice or

                                                 17
Ofﬁce of Investigations


Monetary beneﬁts – $146.5 million ($7.2             intensive investigation. He admitted that he
million – ﬁnes, penalties, restitutions, and        intentionally submitted false and forged medical
civil judgments; $515,000 – efﬁciencies/funds       records to pharmaceutical companies, allowing
put to better use; $32.2 million – recoveries;      otherwise ineligible patients to be included in
$51.8 million related to the Fugitive Felon         oncology studies being conducted at a VAMC.
Program; and $54.8 million in savings and cost      At least one patient died as a result.
avoidance).
                                                           New York Times, New York, NY
*Includes the apprehension of 74 fugitive                        February 6, 2005
felons by OIG, and 178 apprehensions made
by other law enforcement entities as a result
of information provided by the OIG Fugitive
Felon Program.

Customer Satisfaction

Customer satisfaction during this reporting
period was 4.9 on a scale of 5.0, where 5.0 is
high.

Veterans Health 

Administration

The      Criminal     Investigations     Division
investigates those instances of criminal activity
against VHA that have the greatest impact
and deterrent value, including crimes such as
patient abuse, theft of Government property,
drug diversion, bribery/kickback activities by
employees and contractors, false billings, and      OIG conducted an investigation jointly with
inferior products. Working closely with VA police   VA police and a local police department after
services, the Division has placed an increased      a veteran was shot at a VA domiciliary. The
emphasis on crimes occurring at VA facilities       veteran subsequently died from complications
throughout the nation to help ensure safety and     from the gunshot wound. The suspect was
security for those working in or visiting VAMCs.    convicted and sentenced to life in prison without
During this semiannual period, OIG special          parole for ﬁrst-degree murder and 30 years in
agents have participated in, or provided support    prison for armed criminal action. The sentences
to, VA police in the arrest of 37 individuals who   will be served concurrently.
committed crimes on VHA properties.                 Sexual Assault
Homicide
                                               A VAMC employee pled guilty to three counts
A former VHA medical research coordinator of sexually abusing minors. The employee
pled guilty to criminally negligent homicide, admitted to performing unlicensed physical
mail fraud, and false statements, following an exams and nude bone density scans on a minor


                                                18

                                                                     Ofﬁce of Investigations


in the guise of conducting cancer research. This   seizure of ﬁve ﬁrearms — including an assault
is an ongoing investigation involving OIG, the     riﬂe — and numerous rounds of ammunition.
Department of Health and Human Services
(HHS) OIG, Secret Service, VA police, and the      A veteran with a long history of violence and
local police.                                      employing intimidating tactics was charged
                                                   with threatening a physician at a VAMC after
  Richmond Times-Dispatch, Richmond, VA            the veteran, who had been denied a claim for
            January 15, 2005                       safety goggles, displayed photographs of himself
                                                   with assault riﬂes and made fear-provoking
                                                   statements.

                                                   A former VA employee who threatened to
                                                   shoot his supervisor and co-workers following
                                                   an altercation at work pled guilty to making
                                                   criminal threats. He subsequently entered into
                                                   a 12-month pre-trial diversion program that
                                                   required completing an anger management
                                                   course, not possessing a ﬁrearm, and staying
                                                   away from his former VAMC workplace. He
                                                   was also terminated from employment with the
                                                   VAMC.
A joint investigation conducted with the Federal
Bureau of Investigation (FBI) resulted in a       A veteran pled guilty to making threats against
former Veterans Industries employee at a local    a VAMC director and stating that he “was going
VAMC being charged with sexually assaulting a     to shoot up anybody he came in contact with
VAMC employee at the facility. The defendant      from VA within the next 10 days.” He was
pled guilty to forcible sexual abuse.             sentenced to 1 year in prison but was released on
                                                  probation after serving 38 days. A stipulation of
Assault                                           the veteran’s probation is that he is to have no
                                                  contact with the VAMC. If this stipulation is
An OIG investigation determined that a man violated, the veteran will be incarcerated for the
attempting to steal a vehicle at a VAMC tried to full 1-year term.
run over two VA police ofﬁcers while ﬂeeing.
The defendant pled guilty to a charge of felon Identity Theft
in possession of a ﬁrearm that included the
original charge of assaulting a Federal law An OIG investigation determined a veteran who
enforcement ofﬁcer. He was sentenced to 64 was discharged from military service under less
months’ incarceration and 3 years’ supervised than honorable conditions used the identity
probation.                                        of an honorably discharged veteran with the
                                                  same name in order to fraudulently obtain VA
Threats                                           medical beneﬁts. The suspect was sentenced to
                                                  serve 10 months’ incarceration, followed by 3
OIG agents and local police arrested a veteran years’ probation, and ordered to pay $132,494
at his residence pursuant to a Federal warrant in restitution.
for threatening to shoot a VA police ofﬁcer. A
search of the subject’s residence resulted in the

                                               19

Ofﬁce of Investigations


During a veteran’s stay at a VAMC, staff          VAMC for personal use over a 3-year period.
obtained information that led them to discover    She resigned from her position in lieu of
that he had admitted himself using another        termination. The nurse had been sentenced to
veteran’s identity. OIG investigators found       6 months’ house arrest and 3 years’ probation
that the veteran had an outstanding warrant for   after pleading guilty to obtaining a controlled
parole violation, with an underlying charge of    substance by fraud/misrepresentation.
robbery, under his true identity. The veteran
was arrested by VA police and OIG upon his        A former VAMC pharmacist was sentenced to
discharge from the VAMC.                          2 years’ probation and ordered to pay a $2,000
                                                  ﬁne after pleading guilty to possession of a
Drug Diversion                                    controlled substance. An OIG investigation
                                                  disclosed that the pharmacist stole Methadone
A grand jury returned indictments charging and Oxycodone tablets from the prescriptions
three nurses from the same VAMC with of VAMC patients.
unrelated instances of possession of a controlled
substance by misrepresentation fraud. An OIG Health Care Fraud
investigation disclosed that one nurse diverted
approximately 6,500 milligrams of Oxycodone An OIG investigation determined that the
from the VAMC’s transitional care unit for managing partner of an oxygen and medical
personal use for 30 months. She resigned her equipment company engaged in a scheme to
position after confessing her guilt. The second, defraud VA through the unauthorized use of a
who had worked at the VAMC as a contract Government credit card obtained while doing
nurse, diverted Demerol from the hospital’s business with a VAMC, and submitted $88,000
acute care ward. The third diverted morphine in false charges. He pled guilty to wire and
sulfate and methadone pills from the VAMC’s bank fraud, and was sentenced to 3 years’
transitional care unit for personal use. VA incarceration and 6 months’ home conﬁnement,
terminated the third nurse’s employment as a to be followed by 3 years’ probation.
result of this investigation.
                                                  Embezzlement
      Reno Gazette-Journal, Reno, NV
            October 26, 2004                      An OIG investigation resulted in a former
                                                  VAMC employee, the local union treasurer,
                                                  being sentenced to 6 months’ house arrest, 3
                                                  years’ supervised release, and ordered to make
                                                  restitution of $46,408 for embezzling union
                                                  funds.

                                                  Operation Clean-Up

                                                  The area ringleader of a local drug distribution
                                                  gang operating in and around a VAMC was
                                                  sentenced to 50 years’ imprisonment following
                                                  his conviction on charges of conspiracy to
An OIG investigation determined that a licensed 
 distribute cocaine and possessing a ﬁrearm
VA vocational nurse diverted approximately 
 during a drug trafﬁcking crime. The ringleader’s
5,600 doses of Vicadin and Tylenol 3 from a 
 sentence was the result of a joint investigation


                                               20

                                                                      Ofﬁce of Investigations


Daily Press, Hampton Roads, VA                                                     March 4, 2005





into allegations of the sale and distribution of    administered the stolen vaccine by injection in
illegal drugs by VA employees, veterans, and        a McDonald’s parking lot to people who were
local citizens that OIG conducted with VA police,   not entitled to receive it. Following a joint
DEA, ATF, and a local police department.            investigation between OIG, VA police, and
                                                    HHS OIG, the nurse was indicted for theft from
Employee Theft                                      a health care beneﬁt program.
A joint OIG, VA police, and HHS OIG                 Employee Misconduct
investigation determined that a former VAMC
dental resident stole VA dental equipment and  A former VAMC chief of police, who was the
sold it on eBay. As part of the plea agreement,contracting ofﬁcer’s technical representative
the dentist was required to surrender his      for a VA contract with a company providing
DEA controlled substance privilege. He was     security guards to the VAMC, was charged with
convicted of health care fraud, sentenced to 5 receiving funds from this security company to
years’ probation, and ﬁned $13,117.            pay for a vehicle that the defendant used for his
                                               personal beneﬁt. He was sentenced to 3 years’
In October 2004, a VAMC nurse supervisor probation and ﬁned $10,000 after pleading
took 20 doses of the VA’s ﬂu vaccine from the guilty to supplementing his salary from a source
community-based outpatient clinic (CBOC) other than the Government.
where she worked, during a nationwide shortage
of those medical supplies. A co-conspirator


                                                21

Ofﬁce of Investigations


OIG investigators determined a VAMC nurse          skimmers dupe veterans out of their homes,
provided Fentanyl (synthetic morphine) to a        and claimants obtain educational beneﬁts
co-worker who subsequently died from a lethal      under false representations. The Ofﬁce of
dose of the drug. The nurse was sentenced to 1     Investigations spends considerable resources in
year’s incarceration and 3 years’ probation.       investigating and arresting those who defraud
                                                   VBA operations.
Following an OIG investigation, a former
VAMC employee was convicted on charges             Death Match Project
of access device fraud for using his Citibank-
issued Government travel card for personal         The Ofﬁce of Investigations conducts an ongoing
and non-travel related expenditures. He was        proactive project in coordination with OIG’s
sentenced to time served and placed on 24          Information Technology and Data Analysis
months’ probation.                                 Division. The death match project is conducted
                                                   to identify individuals who may be defrauding
Procurement Fraud                                  VA by receiving beneﬁts intended for veterans
                                                   who have died. When indicators of fraud are
An OIG investigation disclosed that the            discovered, the matching results are transmitted
corporate president of a construction company,     to OIG investigative ﬁeld ofﬁces for appropriate
a VA contractor, knowingly used foreign steel in   action. To date, the match has identiﬁed
an expansion project at a VAMC in violation of     in excess of 9,650 possible investigative
the “Buy American” requirement. The speciﬁc        leads. Over 8,149 leads have been reviewed,
charges rose from the false documentation he       resulting in the development of 860 criminal
provided to VA, removing the foreign markings,     and administrative cases. Investigations have
and knowingly submitting false bills to VA as if   resulted in the actual recovery of $14.6 million,
in compliance with the contract requirements.      with an additional $7.3 million in anticipated
Indicted for conspiracy, false statements, and     recoveries. In addition to these recoveries,
false claims, he entered a guilty plea on behalf   the 5-year projected cost avoidance to VA is
of his company.                                    estimated at $32.6 million. To date, there have
                                                   been 131 arrests in these cases with several
                                                   additional cases awaiting judicial actions.
Veterans Beneﬁts
Administration                                     Compensation Beneﬁts Fraud

                                                   An interdisciplinary OIG team conducted a
VBA provides wide-reaching beneﬁts to veterans     proactive beneﬁts review at the VARO in San
and their dependents, including compensation       Juan, Puerto Rico. The review recommended
and pension payments, home loan guaranty           termination from VA beneﬁt rolls of almost
services, and educational opportunities. Each      1,400 payees who were not entitled to beneﬁts.
of these beneﬁts programs is subject to fraud      Overpayments for these beneﬁciaries totaled
by those who wish to take advantage of the         approximately $29 million and represent a
system. For example, individuals submit false      projected 5-year cost avoidance of over $45
claims for service-connected disability, third     million. Over 1,700 referrals were made to the
parties steal pension payments issued after        San Juan VARO regarding possible increases
the unreported death of the veteran, people        in beneﬁts, aid and attendance, changes of
provide false information so veterans qualify      address, corrected dates of birth, and various
for VA guaranteed property loans, equity           other changes. Additionally, 82 applications


                                               22

                                                                     Ofﬁce of Investigations


were sent to the National Personnel Records        that after remarrying, she falsely certiﬁed that
Center and the Bureau of Naval Personnel on        her marital status was a widow. On three
behalf of veterans who had never received their    separate occasions, she used false statements to
service medals.                                    obtain more than $86,000 in DIC beneﬁts from
                                                   VA.
A joint investigation with Social Security
Administration (SSA) OIG revealed that a 100       OIG investigated the remarried widow of a
percent service-connected veteran and his wife     veteran and determined that she did not notify
conspired to increase the veteran’s compensation   VA of her remarriage in 1980 and received
beneﬁts by providing false information to          $201,902 in VA beneﬁts to which she was not
receive payment for aid and attendance             entitled. She was indicted for mail and wire
allegedly provided by his wife. The wife also      fraud.
provided statements to SSA to increase her
disability beneﬁt payments, claiming she could   The daughter of a deceased widow beneﬁciary
not walk and was in need of aid and attendance   was arrested for theft of Government funds after
for services allegedly provided by the veteran.  a joint investigation with Ofﬁce of Personnel
The veteran and his wife were sentenced to 60    Management (OPM). OIG disclosed that the
months’ incarceration, 36 months’ supervised     daughter continued to receive her mother’s VA
release, and ordered to make restitution of      DIC beneﬁt checks and OPM annuitant checks
$145,851 to VA and $39,264 to SSA.               after her mother’s death. The total loss to the
                                                 Government was $345,936, of which VA’s loss
An OIG investigation disclosed a veteran feigned was $221,055.
blindness, beginning in 1973, when he applied
for and received disability compensation from Pension Beneﬁts Fraud
VA for a visual disability. The veteran’s scheme
continued until May 2001, when OIG discovered During the course of a ﬁnancial crimes
information leading to VBA terminating beneﬁts. investigation, OIG and local police determined
The veteran had received overpayments totaling that a veteran fraudulently applied for and
$641,283. He was sentenced to a minimum received approximately $30,000 in VA pension
period of incarceration of 30 months, placed on beneﬁts. Investigation also revealed that the
probation for 36 months, and ordered to make veteran had defrauded an elderly woman of
restitution of $237,104.                         more than $400,000 during the same time
                                                 period. As a result of a plea agreement in this
Dependency and Indemnity                         case, the veteran pled guilty to ﬁnancial elder
Compensation (DIC) Beneﬁts                       abuse.
Fraud
                                                 Education Beneﬁts Fraud
An OIG investigation revealed that for more
than 17 years the son of a deceased widow stole A joint investigation with the Naval Criminal
VA funds that were deposited into his deceased Investigative Service determined that a former
mother’s bank account. He was sentenced to 10 active duty Navy personnel clerk had developed
months’ incarceration, 3 years’ probation, and a scheme to defraud VA by fraudulently
ordered to make restitution of $112,890.         obtaining educational beneﬁts under VA’s tuition
                                                 assistance program for active duty military. The
A veteran’s widow was arrested and charged subject conspired with other service personnel
with fraud after an OIG investigation revealed to defraud VA by purporting that these members

                                               23

Ofﬁce of Investigations


were furthering their education by attending        5 years’ probation, and ordered to make
classes. In addition, he used information he        restitution of $1.3 million.
obtained from the personnel ﬁles of innocent
servicemen to fraudulently apply for additional     Mortgage Loan Fraud
beneﬁts in their names. After being found guilty
of conspiracy to commit theft of Government         A private real estate attorney entered a guilty
property, he was sentenced to 30 months’            plea to charges of theft of Government funds
incarceration, 36 months’ supervised release,       and mail fraud. The plea resulted from a
and ordered to pay $348,653 in restitution.         joint investigation with a state bureau of
                                                    investigation that determined the attorney, who
An OIG investigation determined that 400            was responsible for disbursing the proceeds
veterans received educational beneﬁt payments       of real estate closings to sellers such as VA,
while falsely claiming they attended college        prior lenders, and lien holders, did not make
classes. They paid kickbacks to instructors         proper disbursement of closing proceeds. The
and their assistants to ensure that the required    investigation disclosed the attorney stole funds
monthly certiﬁcations of attendance would be        in excess of $2 million from his attorney trust
signed and they would receive passing grades.       account.
A civil court imposed judgments against 11
                                                    Embezzlement
veterans for False Claims Act violations. Most
of the judgments ordered the veterans to pay        A paralegal employed by a private law ﬁrm was
double damages. The liability established           sentenced to 1 year and 1 day in prison, 3 years’
against the 11 veterans was $285,000. These         supervised release, and was ordered to make
recent settlements bring the amount recovered       full restitution for embezzling $103,534 while
in this case, through civil and criminal actions,   acting as a conservator or representative payee
to almost $5.7 million.                             for numerous veterans and Social Security
                                                    beneﬁciaries. This was a joint investigation
Home Loan Fraud
                                                    with SSA OIG.
A joint investigation with the Department
                                                    Workers’ Compensation Fraud
of Housing and Urban Development (HUD)
OIG, the Postal Inspection Service, and the         A joint OIG and Department of Labor (DOL)
Internal Revenue Service (IRS) found that a         OIG investigation determined that a former
man defrauded private ﬁnancial institutions,        VAMC nursing assistant, who received workers’
VA, and HUD through the operation of corrupt        compensation beneﬁts from 1980 to 2004, had
home remodeling businesses. As part of the          been working since at least Fall 2000 and failed
scheme, the defendant and a co-conspirator          to report her employment to DOL. The loss to
directed veterans to make false statements to       the Government is $57,472. She was indicted
VA about the satisfactory completion of work        for fraud to obtain compensation.
so that VA would release payment of VA home
improvements and structural alterations funds       Identity Theft
directly to the defendants. The defendant
was sentenced to 27 months’ incarceration           OIG agents arrested a veteran who assumed
and 5 years’ probation, and ordered to make         another veteran’s identity to initiate a VA
restitution of $702,813. His co-conspirator         pension claim. The defendant illegally received
was sentenced to 23 months’ incarceration and       both VA medical and pension beneﬁts for more
                                                    than 5 years. Two others who conspired to share

                                                24

                                                                     Ofﬁce of Investigations


in the proceeds of this fraud were also arrested Threats
at the same time because of outstanding felony
warrants.                                         OIG agents arrested a veteran for using a
                                                  telephone to make bomb threats to a VARO. An
Procurement Fraud                                 OIG investigation disclosed he made numerous
                                                  calls to the VARO threatening to blow up the
An OIG investigation revealed a funeral facility and kill the employees if he was not
director fraudulently charged VA credit cards declared competent to handle his VA beneﬁts.
for indigent veterans’ burial services that had
been provided by other mortuary companies. A veteran who had made two prior threats
The funeral director fraudulently collected against a VAMC and VARO attempted to crash
funds for the burials of 723 veterans for a total his van, loaded with full gasoline cans, into the
of $361,500. The funeral director pled guilty to main entrance of the VARO. His attempt to
fraudulent transactions with access devices.      reach the building was thwarted by ﬂowerpot
                                                 barricades. OIG charged him with destruction
Bribery
                                                 of Government property. Domestic terrorism
A former VARO employee pled guilty to charges are being considered by the U.S.
conspiracy to commit bribery and defrauding Attorney’s Ofﬁce. This investigation is being
VA, admitting he criminally manipulated over worked jointly with the FBI.
$4 million in Government contract awards
and payments to beneﬁt speciﬁc contractors. Fugitive Felon
In exchange, one VA contractor made cash
payments of over $100,000 to the employee. Program
In addition, four VA contractors performed
extensive renovations, free of charge, to the The Ofﬁce of Investigations’ Fugitive Felon
residences of the VA employee and a relative.    Program identiﬁes VA beneﬁts recipients who
                                                 are fugitives from justice. The program evolved
Fiduciary Fraud                                  after Congress enacted Public Law 107-103,
                                                 Veterans Education and Expansion Act of 2001,
A joint investigation with state police revealed
                                                 prohibiting veterans who are fugitive felons
that a ﬁduciary had misappropriated over
                                                 or their dependents from receiving speciﬁed
$106,000 in VA beneﬁts from his veteran father’s
                                                 beneﬁts. The program matches fugitive felon
bank account by obtaining a guardianship order
                                                 ﬁles of law enforcement organizations against
and then illegally withdrawing the funds. He
                                                 more than 11 million records contained in
pled guilty to misapplication of ﬁduciary
                                                 VA beneﬁt system ﬁles. Once a veteran is
property, was sentenced to serve 2 years’
                                                 identiﬁed as a fugitive, information on the
probation and 120 hours of community service,
                                                 individual is provided to the law enforcement
and was ordered to pay $15,000 in restitution.
                                                 organization responsible for serving the warrant
Recovery of Funds                                to assist in the apprehension, and given to the
                                                 Department so that beneﬁts may be suspended
The bank account of a widow receiving DIC and overpayments recovered.
pension beneﬁts continued to receive direct
deposit beneﬁts after her death in January 1987. To date, Memoranda of Understanding/
Working with a bank investigator, an OIG agent Agreements have been completed with the U.S.
recovered $149,066 of VA funds.                  Marshals Service (USMS) and the National


                                               25

Ofﬁce of Investigations


Crime Information Center (NCIC), as well          OIG agents and members of a USMS violent
as with the States of California, New York,       crimes fugitive task force arrested a fugitive
Tennessee, Washington, Pennsylvania, Ohio,        wanted for aggravated assault, possession of a
Massachusetts, Alabama, and Arizona. OIG is       ﬁrearm, possession of a ﬁrearm for an unlawful
negotiating additional agreements with other      purpose, and questioning regarding a homicide.
states. The program has led to additional         The fugitive was found with 42 vials of crack
cooperative efforts between OIG, VBA, and         cocaine, a handgun, and a fraudulent VAMC
VHA in an attempt to implement this initiative.   identity card. Subsequent investigation revealed
                                                  that the defendant assumed the identity of the
Investigative leads provided to law enforcement   veteran in order to elude law enforcement.
agencies since the inception of the program       Investigation is continuing to determine what
have led to the arrest of fugitives wanted for    VA beneﬁts were illegally received by the
murder, manslaughter, sexual assault, robbery,    defendant.
drug offenses, and other serious felonies. The
apprehension of these subjects has made VA State parole agents requested OIG assistance
facilities safer for our veterans, employees, and to locate a veteran identiﬁed as a high risk sex
the general public.                               offender and parolee-at-large convicted of child
                                                  molestation and wanted for failure to register
The following table identiﬁes the statistics as a sex offender and a drug violation. OIG
relating to the Fugitive Felon Program during agents arrested the fugitive after developing
this reporting period, as well as from the information the fugitive was living at a VA-
inception of the program.                         funded residence.

                                                                 This              Total
              Fugitive Felon Program                           Reporting           Since
                                                                Period           Beginning

  Felony Warrants Received from Participating                         3.0M               6.5M
  Agencies

  Matched Records                                                    3,949             42,635

  Referred to Law Enforcement Agency Which
  Holds the Warrant                                                  3,980             16,281

  Arrests Made by Law Enforcement Agency                                178                389
  Which Holds the Warrant

  Arrests Made by OIG                                                     74               368

  Referrals to VA for Beneﬁts Suspension                             2,945             12,146

  Estimated Identiﬁed Overpayments                                 $15.3M             $72.4M

  Estimated Cost Avoidance                                         $36.5M            $155.5M


                                               26

                                                                    Ofﬁce of Investigations


The Fugitive Felon Program identiﬁed a VA There were 24 completed laboratory cases 

employee who was wanted for a parole violation during this semiannual period. 

for a 2nd degree murder conviction. He was 

arrested without incident at a VAMC by OIG
agents, local law enforcement, and VA police.      Laboratory Cases this Period

A veteran was arrested pursuant to a warrant for                                   Cases
                                                          Requester
the sexual assault of a juvenile. The veteran had                                Completed
been wanted for 19 years and was located by
law enforcement ofﬁcers as a direct result of the     OIG Ofﬁce of
                                                                                        7
OIG Fugitive Felon Program.                           Investigations

OIG, VA police, and local and state ofﬁcers           VA Top
                                                                                        9
arrested a VA employee at a VAMC who had              Management
previously been convicted for the rape of a child
and failed to register as a sex offender.             VA Regional
                                                                                        8
                                                      Ofﬁces
OIG and local police apprehended a fugitive
veteran on parole for the sexual assault of a         TOTAL                           24
child after the veteran had left the country in
violation of his parole. As speciﬁed in the law,
the veteran’s beneﬁts were suspended due to The Board of Veterans’ Appeals requested
his fugitive status, and, with no income, he was laboratory analysis of medical records
forced to return to the U.S.                       submitted to VA by a veteran who used them
                                                   to obtain VA disability compensation. The
Local law enforcement ofﬁcers located and Forensic Document Laboratory examined the
arrested a veteran wanted for 4 years for a sexual records submitted by the veteran and compared
assault charge as a direct result of information them with military records, resulting in the
provided by the OIG Fugitive Felon Program.        identiﬁcation of alterations the veteran had
                                                   made to his medical documents.
Pursuant to a felony probation violation warrant
for theft, OIG and the USMS arrested a fugitive OIG, ATF, and a local sheriff’s department
veteran at a VAMC. The veteran was one of the conducted a criminal investigation which
area’s ten most wanted fugitives.                  resulted in the conviction of the wife of a
                                                   quadriplegic veteran for his murder. The wife
OIG Forensic Document                              attempted to conceal the crime by setting their
Laboratory                                         house on ﬁre. OIG investigators focused on
                                                   determining possible fraud by the veteran’s
The Ofﬁce of Investigations operates a wife with regard to his VA life insurance policy.
questioned document forensic laboratory for Laboratory examinations determined that the
fraud detection that can be used by all elements veteran had not signed the last designation of
of VA. The types of requests routinely submitted beneﬁciary for his VA life insurance valued at
to the laboratory include handwriting analysis, $10,000, but rather, that his wife had completed
analysis of photocopied documents, and and forged the veteran’s signature before signing
suspected alterations of ofﬁcial documents.        her own name as a witness on the document.


                                                27

Ofﬁce of Investigations


The wife was found guilty of the homicide and Computer Crimes and Forensics Laboratory
sentenced to 30 years’ conﬁnement.              conducted four on-site crime scene support
                                                operations. Additionally, it took an active role
OIG Computer Crimes and                         in the implementation of global positioning
Forensic Laboratory                             satellite tracking capability deployment. It is
                                                currently engaged in the deployment of NCIC
The Ofﬁce of Investigation operates a Computer access terminals at ﬁve OIG ﬁeld ofﬁces.
Crimes and Forensic Laboratory in Washington,
DC. The laboratory offers forensic support
in the examination of computers, removable          Laboratory Cases this Period
storage media, personal digital assistants and
other digital storage devices. The Computer       Child/Adult Pornography                4
Crimes and Forensic Laboratory provides
support to OIG special agents nationwide          Fraud                                  3
in the investigations of fraud, misuse of
Government equipment, identity theft, and child   Misuse of Government                   1
pornography.                                      Systems

There were a total of eight completed laboratory    TOTAL                                8
cases during this semiannual period. The
Houston Chronicle, Houston, TX                                               March 23, 2005




                                               28
                                                                      Ofﬁce of Investigations


II. ADMINISTRATIVE                                 ofﬁcial’s absences and reassessing his need to
                                                   travel outside his geographic area of supervision,
INVESTIGATIONS                                     charging a full-time physician annual leave
DIVISION                                           (or absence without leave) for unauthorized
                                                   absences, and modifying employees’ improper
                                                   work agreements and work schedules.
This Division is responsible for investigating
allegations against senior VA ofﬁcials and other Samples of the Administrative Investigations
high-proﬁle matters of interest to the Congress Division reports issued during this period are
and the Department.                              provided below. These reports address serious
                                                 allegations of misconduct by high-ranking
Resources                                        ofﬁcials and other high-proﬁle matters of
                                                 interest.
The Administrative Investigations Division has
seven FTE allocated. The following chart shows
the percentage of resources used in reviewing Veterans Health 

allegations by program area.                     Administration

                                                   Misuse of Time by Physicians
                                   VBA
                                   15%    Two administrative investigations substantiated
                                          misuse of ofﬁcial VA time by physicians. In one
                                          case, a full-time physician worked for another
                                          employer during part of his VA tour of duty on
      VHA                                 174 days over a period of nearly 3 years. In
     75%
                                  VACO
                                          the second case, a full-time physician, who has
                                  10%     since left VA, performed professional services
                                          and generated income for a VA-afﬁliated
                                          medical school during his VA duty hours. In
                                          both instances, the physician’s supervisor did
                                          not ensure the physician followed time and
                                          attendance policies. VHA ofﬁcials agreed to
Overall Performance                       take appropriate administrative action against
                                          the physician still employed by VA, and
Output                                    against both supervisors. They also agreed to
                                          take corrective action regarding the currently
The Division closed 16 cases and issued 5 employed physician’s unauthorized absences.
reports and 3 advisory memoranda.

Outcomes

VA managers agreed to take 14 administrative
sanctions, including personnel actions against 8
ofﬁcials, and corrective actions in 6 instances
to improve operations and activities. The
corrective actions included monitoring a senior

                                               29

Ofﬁce of Investigations


National Cemetery                                   the Financial Crimes Criminal Enforcement
                                                    Network, and other law enforcement professional
Administration                                      organizations.

                                                    Resources
Inappropriate Absences and
Purchase Card Use                                   The Analysis and Oversight Division has seven
                                                    FTE allocated.
An administrative investigation substantiated
that a NCA senior ofﬁcial was inappropriately
absent from his duty station, including sometimes
                                                    Overall Performance
being absent without leave. The ofﬁcial took        Output and Outcomes
frequent and unpredictable increments of leave
and arrived at work several hours late on a         During the reporting period, the Division
regular basis, which interfered with the efﬁcient   accomplished the following:
management of the ofﬁce. OIG also questioned
whether his frequent ofﬁcial travel for purposes      • Scheduled and/or facilitated 179 instances
other than that related to the primary purpose          of training involving 107 different
of his position was in the NCA’s best interest.         employees for such courses as Criminal
The investigation further substantiated that he         Investigator Training Program, IG
repeatedly allowed a Government purchase                Transitional Training Program, Continuing
card to be misused to purchase personal items.          Legal Education, Interviewing Techniques,
NCA ofﬁcials agreed to take appropriate                 Firearms Instructor Program, Defensive
administrative action against the ofﬁcial, to           Tactics Training Program, and OPM
approve and closely monitor his leave and               Management Training.
travel, and to ensure he makes full restitution       • Conducted 253 record checks in support of
for his absences without leave.                         criminal investigations.
                                                      • Completed an inspection of a regional ﬁeld
III. ANALYSIS AND                                       ofﬁce.
OVERSIGHT DIVISION                                    • Issued two revised policy directives.
                                                      • Conducted       one     regional    periodic
This Division has oversight responsibilities            refresher training seminar for all criminal
for all operations conducted by the Ofﬁce of            investigators that included ﬁrearms
Investigations through a detailed inspection            qualiﬁcation, scenario-based exercises,
program to ensure the agency is in full                 use of force policy discussions, report
compliance with the quality standards for               writing, defensive tactics and related
investigations published by the President’s             practical drills, legal update, and physical
Council on Integrity and Efﬁciency (PCIE).              conditioning assessments.
The Division is also responsible for scheduling
and facilitating operational and management
training for all employees within the Ofﬁce of
Investigations. Additionally, the Division is the
primary point of contact for law enforcement
communications through the NCIC, the National
Law Enforcement Telecommunications System,


                                                30

OFFICE OF AUDIT

Mission Statement                                Management. This division conducts preaward
                                                 and postaward reviews of certain categories of
   Improve the management of VA programs         VA contracts.
   and activities by providing our customers
   with timely, balanced, credible, and          Overall Performance
   independent ﬁnancial and performance
   audits and evaluations that address the       Outputs
   economy, efﬁciency, and effectiveness         • Issued 29 audit reports and 38 contract
   of VA operations; and that identify           reviews. In addition, took part in a major joint
   constructive solutions and opportunities      review.
   for improvement; and to conduct preaward
   and postaward reviews to assist contractingOutcomes
   ofﬁcers in price negotiations and to ensure• Recommendations to enhance operations and
   reasonableness of contract prices.         correct operating deﬁciencies have associated
                                              monetary beneﬁts totaling approximately $536
Resources                                     million. In addition, contract reviews identiﬁed
                                              monetary beneﬁts of $1.03 billion associated
The Ofﬁce of Audit has 17 FTE allocated for with the results of preaward and postaward
headquarters and 180 FTE in 11 operating contract reviews.
divisions located throughout the country.
The following chart shows the allocation of Customer Satisfaction
resources used in auditing each of VA’s major
program areas.                                • Customer satisfaction with performance and
                                              ﬁnancial audits and evaluations average 4.5 on a
                                              scale of 5.0. The average customer satisfaction
                 IT
                5%            VBA             rating achieved for contract reviews was 4.7 out
                              17%
                                              of a possible 5.0.
    Management
       11%
                                                 Veterans Health 

                                      A&MM
                                                 Administration

                                       11%

                                                 Resource Utilization
                                                 Issue: VHA sole-source contracts
        VHA                                        with medical schools and other
        56%                                        afﬁliated institutions.
                                                 Conclusion: VA needed to
In addition, the Ofﬁce ofAudit’s Contract Review   strengthen controls over sole-
and Evaluation Division has 25 FTE authorized      source contracts.
for reimbursement under an agreement with
the VA Ofﬁce of Acquisition and Materiel Impact: Better use of funds.

                                             31
Ofﬁce of Audit


OIG has been conducting preaward reviews of             •	 The Government’s liability for acts or
proposals for contracts to be awarded on a sole-           omissions of contract employees under the
source basis to VA afﬁliates. These reviews,               Federal Tort Claims Act, even though VA
combined with postaward reviews, CAP                       was paying for their medical malpractice
reviews, and interactions with VA personnel,               insurance under these contracts.
have identiﬁed numerous issues that needed to
be addressed. This summary report contains our        The Acting Under Secretary for Health agreed
collective recommendations for improvement            with the recommendations and provided
in the procurement of health care resources in        acceptable implementation plans. (Evaluation
order to ensure quality health care is provided       of VHA Sole-Source Contracts with Medical
to veteran patients and to protect the interests of   Schools and Other Afﬁliated Institutions,
the Government.                                       05-01318-85, 2/16/05)

Our results and recommendations are presented Issue: Management of VHA
in three sections:                              major construction contracts.
  •	 General contracting issues.                  Conclusion: VHA needed to
                                                      improve the award and
   • 	Contract pricing.
                                                      administration process to
   •	 Conﬂict of interest and other legal issues.     ensure price reasonableness
                                                      and prevent fraud, waste,
With respect to general contracting issues, OIG       abuse, and mismanagement.
concluded acquisition planning and justiﬁcation
                                                  Impact: Better use of $960,000.
for contracting out for services was inadequate
and some contracts were awarded to meet the
                                                  The audit found contract awards, administration,
needs of the afﬁliate, not VA.
                                                  and project management needed to be enhanced
                                                  to ensure VA does not pay excessive prices
With respect to contract pricing, the sole-source
                                                  for construction work. The audit pointed out
solicitations OIG reviewed were divided into
                                                  a risk for excessive prices involving major
services provided at the afﬁliate and services
                                                  construction projects valued at $133.6 million.
provided at VA. When the services were provided
                                                  It also identiﬁed about $960,000 in unused
at the afﬁliate, all the proposals were procedure
                                                  funds that should be returned to the construction
based. OIG concluded VA was overpaying the
                                                  reserve fund if no longer needed. Additionally,
afﬁliates for services provided under both of
                                                  the Ofﬁce of Audit referred potential fraud
these pricing structures. For services provided
                                                  involving certain contract award actions to
at VA, pricing was either full-time equivalent
                                                  OIG’s Ofﬁce of Investigations.
based or procedure based.
                                                 VHA needs to improve the major construction
The legal issues discussed in this report
                                                 contract process to ensure contracts:
include:
                                                   •	 Result in reasonable prices for work
   •	 Violations of conﬂict of interest laws.
                                                      completed.
   •	 Use of personal services contracts.
                                                   •	 Are in the best interests of the
   •	 Contract requirements that were inherently      Government.
      Governmental functions.


                                                  32

                                                                                Ofﬁce of Audit


   •	 Are adequately controlled to prevent fraud, The purpose of the evaluation was to determine
      waste, abuse, and mismanagement.            the appropriateness of MCCF ﬁrst party billings
                                                  and collections for certain veterans receiving
The VHA Ofﬁce of Facilities Management is C&P beneﬁts. OIG found that inappropriate
responsible for managing all major construction billings and collections had occurred and
projects. At the time of the audit, that ofﬁce recommended that the Acting Under Secretary
was administering 31 major contracts valued for Health take the following actions:
at $594.6 million where construction had been        •	 Ensure that Health Eligibility Center
completed within 24 months of the start of our          (HEC) management corrects the database
review or was in process. The audit reviewed            coding problem to recognize the pension
each of these contracts and identiﬁed contract          status of veterans who are also service-
award and administration problems with 24               connected less than 50 percent and not bill
contracts.                                              them for medical care.
OIG made a series of recommendations to              • 	Pending development of VETSNET:
the Acting Under Secretary for Health to help          1. Ensure that medical facility managers
strengthen the major construction contract award          direct Information Resource Manage-
and administration process. The Acting Under              ment staff to distribute HEC MailMan
Secretary generally agreed with the majority              messages to both MCCF eligibility staff
of the audit recommendations. He agreed                   and billing staff.
with qualiﬁcation on four recommendations
and provided alternative wording OIG found             2. Require medical facilities to access
acceptable and which met the intent of our                veterans’ beneﬁts information through
original recommendations. In response to the              VBA to obtain the effective dates for
Acting Under Secretary’s comments, OIG                    veterans awarded service-connection
reduced the monetary beneﬁts estimate to reﬂect           rated 50 percent or higher, or awarded
VHA’s actions to close out contracts where                VA pensions, and verify that ﬁrst party
no additional payments were expected. The                 debts are appropriate before issuing
Acting Under Secretary’s comments provide                 bills or referring debts to the Debt
details on ongoing or planned actions that meet           Management Center for collection.
the intent of the recommendations. (Audit of         •	 Ensure that HEC management timely
VHA Major Construction Contract Award and               follows up on rejected award information
Administration Process, 02-02181-79, 2/8/05)            and uploads the correct information
Issue: Appropriateness of MCCF                          into its database so that veterans’ C&P
  ﬁrst party billings.                                  status changes can be updated in medical
                                                        facilities’ VistA systems.
Conclusion: VHA can reduce
  inappropriate billings and                       The Acting Under Secretary for Health agreed
  collections for medical services                 with the recommendations and provided
  provided to certain veterans                     acceptable implementation plans. (Evaluation
  receiving beneﬁts.                               of Selected MCCF First Party Billings and
                                                   Collections, 03-00940-38, 12/1/04)
Impact: Improved service to
  veterans.



                                               33

Ofﬁce of Audit


Quality of Care                                       were not on duty, approved leave, or authorized
                                                      absence under circumstances similar to those
Issue: Medical sanitation and                         OIG identiﬁed during our follow-up report.
  part-time physicians’ time and
  attendance.                                         The VISN and Medical Center Directors agreed
Conclusion: Management did                            with the ﬁndings and provided acceptable
  not maintain appropriate                            improvement plans. (Review of Environment
  levels of cleanliness and                           of Care and Part-Time Physician Time and
  fully implement time and                            Attendance at the Louis Stokes VAMC,
  attendance controls.                                Cleveland, OH, 04-02145-11, 10/29/04)

Impact: Strengthened controls                         Data Validity
  over quality of care and time
  and attendance.                                     Issue: Compliance with Public
                                                        Law 107-135.
Our purpose was to review alleged deﬁciencies
in the environment of care, quality of patient Conclusion: VA data reported
care, resident supervision, and physician time      on specialized mental health
and attendance as reported during an April 8,       programs for this year, as in
2004, national television broadcast of Primetime.   prior years, remains error-
This report addresses the results of our review     prone and lacking in adequate
of environment of care and time and attendance      support.
issues.                                           Impact: Accurate data.
Our review of the quality of patient care, resident   Our audit showed the data reported in the FY
supervision, and time and attendance practices        2003 Capacity Report relating to spinal cord
speciﬁc to the surgeon who was the subject of the     injury/disorders, blindness, prosthetics and
Primetime broadcast continues, and the ﬁndings        sensory aids, and traumatic brain injury were
will be discussed in a separate report. Although      adequately supported. However, the data for
there were opportunities to improve general           specialized mental health programs (including
housekeeping at both divisions, OIG did not           reported stafﬁng, numbers of programs, and
ﬁnd the conditions to be as egregious as cited        expenditures) were not adequately supported.
in the Primetime broadcast. The hemodialysis          VHA is in the process of implementing a new
unit at the Wade Park Division is scheduled           reporting process in response to the FY 2002
to be moved to a new location early in 2005.          Capacity Report ﬁndings and recommendation.
However, efforts needed to be made to improve         This new reporting process is expected to
conditions in the existing area. Most patients        eliminate the data reporting issues associated
and employees from both divisions indicated           with specialized mental health programs. As a
high levels of satisfaction with the quality of       result, no new recommendation is included in
care and with the facilities’ cleanliness. Medical    this report. OIG will continue to follow up on
center managers had not fully implemented             VHA’s implementation of the prior year report
time and attendance controls recommended in           recommendation. (Audit of VA FY 2003 Special
our February 2004 follow-up report. Although          Disabilities Capacity Report, 04-01972-41,
most part-time physicians were on duty as             11/29/04)
required by their scheduled tours, 4 of the 73 (5
percent) part-time physicians scheduled for duty

                                                  34

                                                                                   Ofﬁce of Audit


Veterans Beneﬁts                                    Ofﬁce of Management

Administration
                                                    VA’s Consolidated Financial
                                                      Statements (CFS)
Issue: Contracting process and
  pricing information.                              Issue: VA’s CFS for FYs 2004 and
                                                      2003.
Conclusion: The existing VR&E
  contracts needed to be                            Conclusion: Audit resulted in
  replaced, and management                            an unqualiﬁed opinion, but
  and oversight strengthened.                         signiﬁcant control weaknesses
                                                      and noncompliance items still
Impact: Better use of $6.8
                                                      remain.
  million.
                                                    Impact: Improved stewardship
OIG conducted the evaluation at the request of        of VA assets and resources.
the VR&E Task Force, which was concerned
about the adequacy of the contracting process and   OIG contracted with the independent public
pricing information. Based on the contracting       accounting ﬁrm Deloitte & Touche LLP to
vulnerabilities identiﬁed, OIG is concerned         perform the audit of VA’s FY 2004 CFS. OIG
about the reasonableness of contract prices.        deﬁned the requirements of the audit, approved
This concern is supported by the fact that prices   the audit plans, monitored the audit, and reviewed
for similar services included in VR&E contracts     the draft reports. The independent auditors’
provided by some of the same contractors on the     report provided an unqualiﬁed opinion on VA’s
prior contracts reviewed varied signiﬁcantly, and   FY 2004 and FY 2003 CFS. OIG agrees with
price increases in the base year ranged from 23     the auditors’ opinion and with the conclusions
to 314 percent. Also, voluntary price reductions    in the related report on VA’s internal control
have been received from at least 25 contractors     over ﬁnancial reporting and compliance with
nationally, with price reductions expected from     laws and regulation.
additional contractors. Based on the price
reductions VA has received, contracting costs       The auditor’s report on internal control
could be reduced by as much as 15 percent.          identiﬁes four reportable conditions, of which
This could reduce VA’s estimated $45 million        two are material weaknesses. The two material
in expenditures expected over the potential 5-      weaknesses are information technology security
year term of the existing VR&E contracts by an      controls and the integrated ﬁnancial management
estimated $6.8 million.                             system. The third reportable condition is
                                                    operational oversight and the fourth is judgment
OIG made recommendations to the Under               fund payment for medical malpractice claims.
Secretary for Beneﬁts to replace the existing       During FY 2004, VA management took corrective
VR&E contracts and strengthen regional ofﬁce        action to eliminate the medical malpractice and
contract management and oversight. The Under        claims data reportable condition reported in the
Secretary provided responsive comments and          FY 2003 audit report. The report on compliance
acceptable implementation plans. (Evaluation        continues to state that VA is not in substantial
of VBA VR&E Contracts, 04-01271-74, 2/1/05)         compliance with the ﬁnancial management
                                                    system requirements of the Federal Financial


                                                35

Ofﬁce of Audit


Management Improvement of 1996 (FFMIA).              two applications provided the initial ﬁndings
The internal control issues concerning an            over security administration. The management
integrated ﬁnancial management system and            letters for the general controls provided the status
information technology security controls indicate    of prior year ﬁndings and recommendations
noncompliance with the requirements of Ofﬁce         and provided additional ﬁndings in the areas
of Management and Budget (OMB) Circular A-           of an entity-wide security program, access
127, “Financial Management Systems,” which           controls, application software development and
incorporates by reference OMB Circulars A-123,       change control, service continuity, and system
“Management Accountability and Control,” and         software.
A-130, “Management of Federal Information
Resources.”                                    The ten management letters related to
                                               management of the VA data centers and
The Acting Assistant Secretary for Management applications systems are:
reviewed the report and concurs with the         •	 Management Letter, Audit of VA’s FYs
reported ﬁndings and recommendations. OIG           2004 and 2003 CFS Financial Statements
will follow up and evaluate the implementation      Financial Management System Application
actions during our audit of the VA’s FY 2005        Follow-up     Review,       04-00986-25,
CFS. (Report of Audit of VA CFS for FYs 2004        11/23/04.
and 2003, 04-00986-14, 11/15/04)
                                                 •	 Management Letter, Audit of VA’s FYs 2004
Issue: Financial management                         and 2003 CFS Personnel and Accounting
    and information technology                      Integrated Data Application Follow-up
    security.                                       Review, 04-00986-26, 11/23/04.
Conclusion: Ten management                             •	 Management Letter, Audit of VA’s FYs
  letters issued to improve                               2004 and 2003 CFS Loan Guaranty
  controls.                                               System Application Follow-up Review,
                                                          04-00986-27, 11/23/04.
Impact: Improved controls over
  access to ﬁnancial systems.                          •	 Management Letter, Audit of VA’s FYs
                                                          2004 and 2003 CFS Integrated Funds
The independent public accounting ﬁrm                     Distribution, Control Point Activity,
Deloitte & Touche LLP, under contract to OIG,             Accounting and Procurement Application
performed the audit of VA’s CFS. As part of               Follow-up     Review,    04-00986-28,
the audit, OIG issued six management letters              11/23/04.
addressing application controls over access to
                                                       •	 Management Letter, Audit of VA’s FYs
speciﬁc ﬁnancial systems and four management
                                                          2004 and 2003 CFS Financial Statements
letters addressing general controls over
                                                          Automated Engineering Management
access to the data centers, which run ﬁnancial
                                                          System and Medical Equipment Reporting
systems. The management letters for four of the
                                                          System Application Review, 04-00986-29,
applications controls provided the status of prior
                                                          11/23/04.
year ﬁndings and recommendations in the areas
of security administration, application systems        •	 Management Letter, Audit of VA’s FYs
security, application systems implementation              2004 and 2003 CFS Financial Statements
and maintenance, and segregation of duties.               Real Servicing Application Review,
The management letter reports for the remaining           04-00986-30, 11/23/04.


                                                 36

                                                                                 Ofﬁce of Audit


  •	 Management Letter, Audit of VA’s FYs           weakness concerning information technology
     2004 and 2003 CFS Financial Statements         security controls. This ﬁnding and related
     General Computer Controls Review at            recommendation were included in the
     the Philadelphia Information Technology        Department’s FYs 2004 and 2003 CFS audit
     Center, 04-00986-31, 11/23/04.                 reports.
  •	 Management Letter, Audit of VA’s FYs 2004
                                               The report on compliance with laws and
     and 2003 CFS General Computer Controls
                                               regulations discloses that VA, as a whole, is
     Review at the Philadelphia Insurance
                                               not in substantial compliance with the ﬁnancial
     Center, 04-00986-32, 11/23/04.
                                               management systems requirements of FFMIA.
  •	 Management Letter, Audit of VA’s FYs The Franchise Fund uses VA’s ﬁnancial
     2004 and 2003 CFS General Computer management systems to prepare its ﬁnancial
     Controls Review at the Hines Information statements. The auditors’ tests of compliance
     Technology     Center,      04-00986-50, disclosed no instances of noncompliance with
     12/17/04.                                 other laws and regulations. (Report of the Audit
                                               of VA Franchise Fund CFS for FYs 2004 and
  •	 Management Letter, Audit of VA’s FYs
                                               2003, 04-01265-52, 12/20/04)
     2004 and 2003 CFS General Computer
     Controls Review at the Austin Automation Issue: Attestation of VA’s
     Center, 04-00986-51, 12/17/04.                accounting for expenditures on
                                                   National Drug Control Program
Issue: Financial management.                       activities.
Conclusion: VA’s Franchise Fund Conclusion: Accurate reporting in
   ﬁnancial statements present                     accordance with requirements.
   their position fairly.
                                               Impact: Financial reporting and
Impact: Financial reporting and                    control.
   control.
                                                    This report contains an attestation on the
Our report contains the audit opinion, the report   VA Detailed Accounting Submission for FY
on internal control over ﬁnancial reporting,        2004 to the Ofﬁce of National Drug Control
and the report on compliance with laws and          Policy (ONDCP). VA’s management prepared
regulations. The Franchise Fund management          the Table of Drug Control Obligations and
contracted with the independent public              related disclosures in accordance with the
accounting ﬁrm Brown & Company CPAs,                requirements of the ONDCP Circular, “Drug
PPLC to perform the audit of VA’s Franchise         Control Accounting,” dated April 18, 2003.
Fund FY 2004 and 2003 CFS. The independent          Based upon our review, nothing came to our
auditor’s report provided an unqualiﬁed opinion     attention that caused us to believe that the
on VA’s Franchise Fund FY 2004 CFS. The             table and related disclosures are not presented
Franchise Fund management deﬁned the                in all material aspects in conformity with the
requirements of the audit. OIG reviewed the         Circular’s requirements. (Attestation of VA
audit plans, monitored the audit, and reviewed      Detailed Accounting Submission, 05-01199-92,
the draft reports.                                  2/23/05)
The auditor’s report on internal control over
ﬁnancial reporting identiﬁes one material

                                                37

Ofﬁce of Audit


Preaward Contract Reviews                         Impact: Recovery of $2.3
                                                    million.
Issue: Federal Supply Schedule
  (FSS) vendors’ best prices.                     OIG completed four reviews of vendors’
                                                  contractual compliance with the speciﬁc pricing
Conclusion: Vendors can offer                     provisions of their FSS contracts, resulting in
  better prices to VA.                            recoveries of $1.7 million. Three OIG drug
Impact: Potential better use of                   pricing Public Law 102-585 compliance reviews
  $1.016 billion.                                 at pharmaceutical vendors resulted in recoveries
                                                  of about $632,000.
Preaward reviews of 15 FSS and cost-per-test
offers made recommendations for potential         OIG efforts to maintain an aggressive
better use of $1.016 billion. OIG recommended     postaward contract review program resulted
negotiating lower contract prices because the     in numerous voluntary disclosures and refund
vendors were not offering the most favored        offers from companies’ relating to overcharges
customer prices to FSS customers when those       on their contracts with VA. Postaward contract
same prices were extended to commercial           reviews are a major source of recoveries to VA’s
customers purchasing under similar terms and      Revolving Supply Fund. These recoveries are a
conditions as the FSS.                            result of OIG’s work as a team with the Ofﬁce of
                                                  Acquisition and Materiel Management, Ofﬁce
Issue: Health care resource                       of General Counsel, and VHA to ensure VA’s
  contracts.                                      contracts are fairly priced.
Conclusion: VA can negotiate                      Issue: Zegato E-Travel service.
  reduced contract costs.
                                                  Conclusion: VA’s implementation
Impact: Potential better use of                     of Zegato duplicates
  $10 million.                                      GSA’s E-Travel service,
                                                    and lapses in project and
OIG completed reviews of 16 proposals from          contract management led to
VA afﬁliated medical schools involving the          implementation problems
acquisition of scarce medical specialists’          and a high level of user
services. The review concluded that contracting     dissatisfaction.
ofﬁcers should negotiate reductions of $10
million to the proposed contract costs because Impact: Better use of $7.4
of differences between the proposed costs for        million.
the services solicited and the costs the afﬁliate
could justify.                                    This review was conducted to determine whether
                                                  VA’s efforts to implement an E-Travel service
Postaward Contract Reviews nationwide would meet the Department’s
                                                  requirements and user needs, and to review
Issue: Contractor overcharges                     whether acquisition regulations were followed
    for pharmaceuticals and                       appropriately. OIG determined that the project
    medical supplies.                             was not meeting all of VA’s requirements and user
                                                  needs effectively and that VA contracting actions
Conclusion: Overcharges were                      were not adequately protecting the interests
    identiﬁed.

                                               38

                                                                                 Ofﬁce of Audit


of the Department. VA’s E-Travel initiative Issue: Energy management.
duplicates the General Services Administration’s
(GSA) efforts to provide E-Travel services that Conclusion: VA needs to
all Federal Agencies must use. VA proceeded       strengthen compliance with
with nationwide implementation efforts without    Federal energy management
reasonable assurance that the Zegato E-Travel     policies and improve the
service could meet all requirements, and without  reliability of data used.
resolving signiﬁcant problems identiﬁed during Impact: Improved energy
testing. Project managers were not effectively    efﬁciency and reduced energy
managing implementation of the Zegato E-          costs, and better use of $12.9
Travel service and key project monitoring and     million.
reporting controls were never established.
                                                     OIG conducted an evaluation to determine
OIG made several recommendations to the prior        whether VA complied with Federal energy
Acting Assistant Secretary for Management and        management policies and to assess VA’s
to VA to initiate timely actions to migrate to one   effectiveness in reducing energy consumption
of GSA’s approved E-Travel service options.          and costs. The evaluation was conducted in
The Department’s Chief Management Ofﬁcer             accordance with the Energy Policy Act of 1992,
concurred with the report recommendations            which encourages OIGs to conduct periodic
and VA initiated actions needed to strengthen        reviews of their agencies’ compliance with
the current contract, reduce contract costs,         the National Energy Conservation Policy
and implemented actions to effect a timely           Act of 1978 and other laws relating to energy
migration to one of GSA’s services. VA also          consumption.
initiated technical and legal reviews of the
existing contracts to better protect its ﬁnancial,   OIG concluded VA did not comply with
performance, and contractual interests. These        Federal energy management policies or give
actions helped ensure the price reasonableness       sufﬁcient priority to its energy management
of current service levels until migration can be     program. Speciﬁcally, VA did not designate
completed.                                           energy supervisors at all facilities, ensure
                                                     facility energy supervisors received energy
OIG estimated that the Department could save         management training, perform energy audits
approximately $7.4 million over the next 10 years    for 10 percent of VA facilities each year, and
by migrating to one of the GSA services, since       purchase energy-efﬁcient products when life-
the average prices available on GSA contracts        cycle cost-effective.
were less expensive. Actions to effect a timely
migration have potential to save the Department      As a result, VA did not maximize opportunities
the funds identiﬁed. OIG considers the report        to improve energy efﬁciency and reduce energy
recommendations resolved and will follow up          costs. We estimated VA could better use $12.9
on the planned actions until they are completed.     million annually if it achieved the FY 2000
(Review of VA Implementation of the Zegato E-        goal. Evaluation results also showed data
Travel Service, 04-00904-124, 3/31/05)               used to measure VA’s energy efﬁciency were
                                                     not reliable. Errors were made in reporting
                                                     facility size and energy consumption and in
                                                     preparing annual energy reports. More reliable
                                                     energy consumption and cost data would


                                                 39

Ofﬁce of Audit


enable managers to accurately assess progress        of sensitive information and data. VA web
in achieving energy conservation goals. The          sites need to be better secured. Managers need
Assistant Secretary for Management agreed            to implement Health Insurance Portability
with the ﬁndings and provided acceptable             and Accountability Act requirements. The
improvement plans. This report focused on the        Department has not been able to effectively
results of efforts made prior to the establishment   address its signiﬁcant information security
of VA’s Department-wide energy conservation          vulnerabilities and reverse the impact of
program in July 2003. (Evaluation of VA              its historically decentralized management
Compliance with Federal Energy Management            approach. VA’s security remediation efforts
Policies, 04-00986-101, 3/9/05)                      continue to be ineffective with inadequate
                                                     facility compliance with established security
Ofﬁce of Information and                             policies, procedures, and guidelines. As a result,
Technology                                           signiﬁcant information security vulnerabilities
                                                     continue to place the Department at risk of:
Security Controls                                      • 	Denial of service attacks on mission critical
Issue: VA’s information security                          systems.
  program.                                             •	 Disruption of mission critical systems.
Conclusion: VA’s programs                              •	 Unauthorized access to and improper
  and sensitive data continue                             disclosure of data subject to Privacy Act
  to be vulnerable to                                     protection and sensitive ﬁnancial data.
  destruction, manipulation, and
  inappropriate disclosure.                            •	 Fraudulent payments of beneﬁts.
                                                       •	 Fraudulent receipt of health care beneﬁts.
Impact: Improved automated
  data processing security.
                                                     Based on the audit results, VA information
OIG evaluated VA’s information security              security should continue to be identiﬁed as a
controls and security management. Although           Department material weakness area under the
OIG concluded VA established an information          Federal Managers’ Financial Integrity Act. OIG
technology security plan and the required            recommended a number of operational changes
policies, procedures, and guidelines mandated by     that will help improve VA’s information security
the Federal Information Security Management          posture, ensure effective control over sensitive
Act of 2002 (FISMA), the review determined           information, ensure continuity of operations,
more needs to be done. As reported in our FY         and support the Department’s missions of
2001, 2002, and 2003 audits, VA still needs a        providing health care and delivering beneﬁts to
coordinated and focused security program to          the Nation’s veterans. The Assistant Secretary
address many of its security vulnerabilities.        for Information and Technology partially
The Chief Information Ofﬁcer also needs to           agreed with the recommendations and provided
fully implement a patch management program.          acceptable implementation plans. (Audit of VA
OIG’s last four audits (FYs 2001, 2002, 2003,        Information Security Program, 04-00772-122,
and this one) continue to show signiﬁcant            dated 3/31/05)
security vulnerabilities.

OIG continues to ﬁnd VA systems remain
vulnerable to unauthorized access and misuse

                                                 40

                                                                                    Ofﬁce of Audit


Multiple Ofﬁces Action 
 During the audit, OIG issued an advisory letter
                         to Department program ofﬁcials detailing its
                                                     ﬁndings and recommended actions concerning
Issue: VA procurement of                             the acquisition and use of modems. In response,
  desktop computers.                                 the Department is taking various actions to better
Conclusion: VA can enhance its                       control the acquisition and use of modems.
  computer network security                          (Audit of VA Procurement of Desktop Computers
  and reduce procurement costs                       with Modems, 04-03100-66, 1/11/05)
  by eliminating the unneeded
  acquisition of desktop                             Human Resources 

  computers with modems.
Impact: Better use of funds.                         Issue: VA WCP.
                                                 Conclusion: Implementing
OIG conducted an audit of VA purchases
                                                   changes would enhance the
of desktop computers (workstations) from
                                                   detection of fraud and improve
procurement of computer hardware and software-
                                                   effectiveness in VA and other
2 (PCHS-2) contract. The audit was completed
                                                   Federal agencies.
as part of a project initiative to determine the
effectiveness and efﬁciency of selected VA Impact: Reduction in program
information technology (IT) contracts.             costs by $487.8 million.

The audit found that VA’s acquisition of             OIG reviewed WCP operating polices to identify
workstations should not include modems unless        opportunities to improve program management
the need is justiﬁed. Workstations procured for      and better control costs. Key operating changes
use as part of VA’s computer network do not          were identiﬁed to enhance fraud detection
generally require modems, unless needed for          and improve the effectiveness and efﬁciency
remote access or used for required maintenance       of program operations but which require
of medical equipment.            The unnecessary     legislative changes to the Federal Employees
presence of modems in workstations connected         Compensation Act.
to VA’s computer network increases its network
IT security vulnerability and procurement            The following WCP operating changes need to
costs. OIG found that VA activities are not          be implemented:
required to justify the need for modems
                                                       • 	Authority to compare WCP and SSA
included in workstations purchased from the
                                                          records.
PCHS-2 contract. Since VA began purchasing
workstations from this contract in April 2002,         • 	WCP retirement at a pre-determined age.
at least 3,396 included modems. Including
modems in these workstations added $84,900 to          •	 A 3-day waiting period before WCP
VA’s procurement costs ($25 per workstation).             beneﬁts can start.
Since OIG could not identify complete vendor
sales information on modems purchased, OIG is        These WCP operating changes could help
unable to project the extent of future procurement   identify potential fraud, reduce the incentive
savings to VA by avoiding unneeded acquisition       for beneﬁciaries to enter and remain on
of modems.                                           the disability rolls long after they reach an


                                                 41

Ofﬁce of Audit


appropriate retirement age, and discourage           detailed guidance on monitoring payments to
the ﬁling of frivolous claims. Movement of           fee appointees and on documenting how fee
claimants to a retirement beneﬁt plan at age 65      payment rates were established. The Deputy
could reduce VA’s future annual WCP costs by         Assistant Secretary agreed with the ﬁndings
an estimated $44.5 million. Potential avoidable      and provided acceptable improvement plans.
lifetime WCP claimant costs could total $487.8       (Evaluation of VAMC Use of On-Station Fee
million. The Assistant Secretary for Human           Basis Appointments, 04-02344-97, 3/4/05)
Resources and Administration agreed with the
recommendations and the estimated monetary
beneﬁts. WCP Operating Changes, 05-00949-
89, 2/24/05)
Issue: On-station fee basis
  appointments.
Conclusion: VAMCs used fee
  appointments effectively.
Impact: Strengthen controls over
  the program.

OIG evaluated VAMC use of on-station fee
basis appointments to provide health services
when these services are not available by
normal methods such as hiring, and when fee
appointments are cost-effective.

In recent years, on-station fee basis expenditures
have increased substantially, from about $177
million for 129 VAMCs in FY 2002 to $213
million for 126 VAMCs in FY 2003. Our review
of 200 fee appointments at two representative
VAMCs found they properly managed
appointments and generally complied with VA
policy. The VAMCs used fee appointments
effectively to provide services when it was not
practical to hire full-time or part-time employees
and in situations where there were signiﬁcant
differences between VA and community salaries
or critical shortages in medical specialties.

However, to correct two minor program
administration deﬁciencies, OIG recommended
the Deputy Assistant Secretary for Human
Resources Management and Labor Relations
ensure VA policy is amended to include


                                                 42

OFFICE OF HEALTHCARE INSPECTIONS

Mission Statement                                  • Completed 18 Hotline cases which consisted
                                                   of reviews of 54 healthcare related issues.
   Promote the principles of continuous            Administratively closed 8 of the 18 cases and
   quality improvement and provide effective       issued reports on the remaining 10 cases. Made
   inspections, oversight, and consultation to     18 recommendations that will improve the
   enhance and strengthen the quality of VA’s      health care and services provided to patients.
   health care programs.                       • Provided clinical consultative support to
                                               investigators on six criminal cases.
Resources
                                               • Oversaw the work of VHA’s Ofﬁce of the
OHI has 61 FTE allocated to staff headquarters Medical Inspector on three projects.
and ﬁeld operations. The following chart • Completed 23 technical reviews on
shows the allocation of resources utilized to recommended legislation, new and revised
conduct evaluations, inspections, CAP reviews, policies, new program initiatives, and external
oversight, technical reviews, and clinical draft reports.
consultations in support of criminal cases.
                                               • Reviewed the responses to 92 Hotline cases
                                               consisting of 179 issues that were referred to
                                               VHA managers for review.
                       Hotline
                     Inspections
          Consults      30%                        Outcomes
            5%                     Oversights
                                      5%           Overall OHI made or monitored the
   Evaluations
                                                   implementation of 165 recommendations to
      10%                                          improve the quality of care and services provided
                                                   to patients and their families. VHA managers
                                                   agreed with all of our recommendations and
                                                   provided acceptable implementation plans.
                                                   VHA implementation actions will improve
                                                   clinical care delivery, management efﬁciency,
                       CAPs
                       50%                         and patient safety, and will hold employees
                                                   accountable for their actions.

                                                   Customer Satisfaction
Overall Performance                                • Customer satisfaction with performance and
                                                   ﬁnancial audits and evaluations average 4.75 on
Output                                             a scale of 5.0.

During this reporting period, OHI:
• Participated in 24 CAP reviews to evaluate
health care issues and made 147 recommenda-
tions that will improve operations and activities,
and the care and services provided to patients.
                                                 43
                                                 43

Ofﬁce of Healthcare Inspections



Veterans Health 
                                     •	 Systems managers obtain a peer review
                                                         of this case and discuss the results of the
Administration
                                          peer review with the PAs and managing
                                                         physicians involved in this case.
Healthcare Inspections                                •	 System managers ensure that all PAs and
                                                         supervising physicians follow Medical
Issue: Delay in diagnosis and                            Center Policy Memorandum 11-002,
  treatment.                                             and that PAs are being appropriately
Conclusion: Clinicians did not                           supervised.
  provide appropriate care for                        •	 System managers address the patient’s
  the patient’s serious back                             concerns regarding his treatment and
  lesion.                                                perceived staff indifference with the
                                                         patient.
Impact: Corrective actions
  should reduce the possibility                       •	 The VISN and VAMC directors agreed
  of reoccurrence.                                       with the recommendations and provided
                                                         acceptable     implementation   plans.
OIG conducted an inspection to determine the             (Healthcare Inspection, Alleged Delay
validity of allegations regarding the diagnosis          in Diagnosis and Treatment, Michael E.
and treatment of a back lesion at the VA medical         DeBakey VAMC, Houston, TX Report 04-
center. The complainant alleged:                         00036-42, 11/30/04)
  •	 That he went to the VAMC with a complaint
     of a back lesion and was provided prescribed
     antibiotics without examining his back.
  •	 That the next day he return to the VAMC
     complaining the lesion had gotten bigger
     and was told the antibiotics needed time to
     work.
  •	 That there were instances of staff inatten-
     tiveness and indifference to his needs.

While the inspection did not substantiate the
complainant’s back was not examined, OIG
did conclude that, overall, the complainant       Michael E. DeBakey Medical Center
did not receive appropriate care for a serious               Houston, TX
back lesion. In addition, there was inadequate
documentation of physician supervision of Issue: Allegation of poor care.
several physician assistants (PAs) who saw the
complainant.                                   Conclusion: Patient’s death was
                                                 not attributable to poor care at
As a result, OIG recommended the VISN and        the nursing home.
VAMC directors ensure that:
                                               Impact: Improved monitoring
                                                 practices and controls.


                                                44

                                                              Ofﬁce of Healthcare Inspections


OIG conducted an inspection in response to             In response to a request from Congressman
a complainant’s allegations of deﬁcient care,          Lane Evans, Ranking Member of the House
inadequate stafﬁng, and administrative issues at a     Committee on Veterans’Affairs, OIG conducted
contract nursing home. The complainant alleged         a review of the medical center’s decontamination
that poor care led to her husband’s death. OIG         program.      The review found that while
did not substantiate the complainant’s allegation      the medical center did not have a current
that her husband received poor care in the facility,   decontamination program, its actions complied
which led to his death. The patient developed          with those required in the applicable directives
septicemia and pneumonia while in the nursing          and memorandums. The medical center was
home and was transferred to a hospital and             chosen to have a decontamination program and
received acute care for his condition. Despite         has sent employees for training. The medical
concerns that the evaluation and follow up of          center’s initial equipment request was sent to
clinical ﬁndings (hypotension) were not acted          VACO, but not ﬁlled. OIG recommended a
upon aggressively enough or such actions were          revised decontamination equipment request
not adequately documented, OIG nonetheless             be submitted to VACO and decontamination
concluded that the patient’s death almost two          training and exercises be conducted and
months later was not likely attributable to poor       reported to VACO after decontamination
care provided at the facility.                         equipment is received. The VISN and HCS
                                                       directors concurred with the recommendations
OIG determined that although VA clinicians             and submitted an action plan, which included
monitored individual patients’ care in                 the revised decontamination equipment request
accordance with established policy, the                list. The action plan adequately responded to
facility program managers did not establish a          the recommendations. (Healthcare Inspection,
performance improvement plan as required by            Emergency Decontamination Preparedness,
medical center policy or give adequate attention       VA Salt Lake City HCS, Salt Lake City, UT,
to nursing home performance improvement                05-00290-78, 2/8/05)
evaluation. OIG made two recommendations.
The VISN and VAMC directors concurred and Issue: Allegations of
provided responsive implementation plans.        inappropriate care and poor
(Healthcare Inspection, Contract Nursing Home    documentation.
Issues, James H. Quillen VAMC, Houston, TX, Conclusion: Patient care met
04-01150-47, 12/9/04)                            community standards.
Issue: Adequacy of emergency                           Impact: Substantiated
decontamination preparedness.                            appropriate treatment and
                                                         medical record documentation.
Conclusion: Medical center
  was selected to have a                               OIG reviewed an anonymous complainant’s
  decontamination program                              allegations of inappropriate patient care and poor
  but had not received the                             documentation by Surgical Service physicians.
  equipment.                                           Speciﬁcally the complainant alleged that
Impact: Improved preparedness                          surgeons provided poor care to four patients.
  for response to bioterrorism                         Despite ﬁnding that two patients did suffer
  and other public emergencies.                        complications from surgery as alleged, OIG did
                                                       not substantiate that the complications were due


                                                   45

Ofﬁce of Healthcare Inspections


to poor care. The review did not substantiate
the allegation of delay in treatment of recurring
lung cancer, delay in diagnosis of a new lung
cancer, or poor documentation. OIG concluded
that the patients received appropriate care and
that surgeons appropriately documented patient
information in the electronic medical record,
and therefore made no recommendations.
(Healthcare Inspection, Alleged Poor Care and
Mismanagement of Surgical Service, VAMC,
Hot Springs, SD, 04-00120-82, 2/11/05)

Issue: Allegations of negligent                         Washington VA Medical Center
medical care.                                                 Washington, DC

Conclusion: The patient received                    Issue: Anesthesia management
  timely and appropriate care.                        and patient care issues.
Impact: Substantiated                              Conclusion: Appropriate
  appropriate care.                                   actions were taken to correct
                                                      deﬁciencies noted in an earlier
OIG reviewed numerous allegations received            OHI inspection.
from the wife of a patient currently receiving
treatment atVAMCWashington. The complainant Impact: Improved anesthesia
wrote a letter to Senator Bob Graham, Ranking         services and patient safety.
Member of the Senate Committee on Veterans’
Affairs, requesting an independent review of The purpose of this inspection was to ensure
the allegations of negligent medical care of her that all recommendations made in a previous
spouse. OIG did not substantiate the VAMC OIG report had been completed. It also
nursing home care unit had not adequately reviewed orthopedic surgery waiting times, as
planned for the patient’s admission following it was alleged that there was a year’s wait due
discharge from Walter Reed Army Medical to lack of anesthesia provider coverage, and
Center, or that the VAMC was not medically found that managers were in full compliance
equipped to meet the patient’s needs. The review with 12 of the 13 recommendations in the
concluded the patient received appropriate care previous OIG report. During the site visit, the
while in the VAMC and the unit. Clinicians chief of staff provided an action plan that, when
performed timely and appropriate assessments implemented, would ensure full compliance
and obtained consultations when required. The with the remaining recommendation. Both
patient was assessed and properly transferred to the anesthesia service and surgery service had
different levels of care settings as his condition implemented processes and policies to ensure
warranted. (Healthcare Inspection, Quality safe patient care. Interviews with staff indicated
of Care Issues, DC VAMC, Washington, DC, a major improvement in morale in the operating
04-00367-76, 2/22/05)                              room. The review concluded that managers
                                                   had taken appropriate actions to correct the
                                                   deﬁciencies noted in our previous inspection.
                                                   While OIG found that orthopedic waiting


                                                46

                                                         Ofﬁce of Healthcare Inspections


times were excessive, the Chief of Orthopedic Abuse Issue, Dwight D. Eisenhower VAMC,
Surgery was actively working to reduce surgery Leavenworth, KS 04-03348-102, 3/10/05)
waiting times. The VISN and System directors
concurred with the results of this inspection and
the recommendation to decrease the orthopedic
surgery backlog.      (Healthcare Inspection,
Anesthesia Management and Patient Care
Issues, New Mexico VA HCS, Albuquerque, NM,
05-00720-108, 3/17/05)

Issue: Patient abuse.
Conclusion: The patient was not
  properly monitored.
Impact: Improved patient
                                                      Dwight D. Eisenhower Medical Center
  monitoring and documentation                                  Leavenworth, KS
  of care.
                                                  Issue: Alleged patient abuse.
OIG conducted an inspection to determine
the validity of a patient abuse allegation. A Conclusion: Patients received
community nursing home administrator alleged         prescribed medications and
a resident returned from a VAMC admission            nourishments as ordered.
with initials carved in his left leg. The review
concluded the carvings were made while he Impact: Did not substantiate
was admitted at the VAMC, but was unable to          patient abuse.
positively determine if they were or were not
self-inﬂicted. OIG recommended the facility:      OIG conducted an unannounced inspection to
                                                  determine the validity of allegations of patient
   •	 Develop a skin integrity program for abuse. Speciﬁcally, the following was alleged
      psychiatric patients who are mobility that:
      impaired.
                                                    •	 Evening nurses were combining 6:00
   •	 Document activities of daily living for all      p.m. and 9:00 p.m. medications and
      psychiatric patients.                            administering them to chemically restrain
   •	 Use this case to reinforce the importance        patients.
     of careful monitoring and documentation         •	 Medications from one patient were
     of care for psychiatric patients.                  being administered to another without a
                                                        physician’s order.
The review also recommended the nursing home
                                                    •	 Nursing assistants were stealing patients'
obtain blood samples for baseline testing because
                                                       nourishments.
of potential risks to the patient. The VISN
director concurred with the ﬁrst two ﬁndings
and recommendations, partially concurred with OIG reviewed relevant medical records,
the third, and provided acceptable improvement quality management documents, policies
plans. (Healthcare Inspection, Alleged Patient and procedures, nutrition records, bar code
                                                  administration records, and ofﬁcial personnel


                                               47

Ofﬁce of Healthcare Inspections


ﬁles. Inspectors inventoried medication carts
and the narcotic cart, and also interviewed
nurses, pharmacists, quality managers, and
administrative employees. The review did not
substantiate the allegations. Therefore, OIG
made no recommendations. The VISN and
VAMC director concurred with our ﬁndings.
(Healthcare Inspection, Alleged Patient Abuse,
Central Texas Veterans HCS, Temple, TX, 05-
01027-116, 3/25/05)




                                             48
OFFICE OF MANAGEMENT
AND ADMINISTRATION
Mission Statement                                 Division maintains the Master Case Index
                                                  (MCI) system, OIG’s primary information
    Promote OIG organizational effectiveness      system for case management and decision
    and efﬁciency by providing reliable and       making. The Data Analysis Section, located in
    timely management and administrative          Austin, TX, provides data processing support,
    support, and providing products and           such as computer matching and data extraction
    services that promote the overall mission     from VA databases.
    and goals of OIG. Strive to ensure that
    all allegations communicated to OIG are IV. Financial and Administrative Support
    effectively monitored and resolved in a – Responsible for OIG ﬁnancial operations,
    timely, efﬁcient, and impartial manner.       including budget formulation and execution, and
                                                  all other OIG administrative support services.
The Ofﬁce of Management and Administration
is responsible for a wide range of administrative V. Human Resources Management – Provides
and operational support functions. The Ofﬁce the full range of human resources management
includes ﬁve divisions.                           services, including classiﬁcation, stafﬁng,
                                                  employee relations, training, and incentive
I. Hotline – Determines action to be taken on awards program.
allegations received by the OIG Hotline. The
Division receives thousands of contacts annually Resources
from veterans, VA employees, and Congress.
The work includes controlling and referring The Ofﬁce of Management and Administration
many cases to the OIG Ofﬁces of Investigations, has 64 FTE allocated as indicated.
Audit, and Healthcare Inspections, or to
impartial VA components for review.

II. Operational Support – Performs follow-up on              Financial &      Human
                                                            Administration   Resources
implementation of OIG report recommendations;                   13%            13%
Freedom of Information Act/Privacy Act
(FOIA/PA) releases; strategic, operational,
and performance planning; electronic report         Operational                          Hotline
                                                     Support                              13%
distribution; and OIG reporting requirements           16%
and policy development.

III. Information Technology (IT) and Data
Analysis – Manages nationwide IT support,
systems development, and integration;                                   IT &
                                                                    Data Analysis
represents OIG on numerous intra- and inter-                            45%
agency IT organizations; and does strategic
IT planning for all OIG requirements. The
                                              49
                                              49

Ofﬁce of Management and Administration


I. HOTLINE DIVISION                                Overall Performance

Mission Statement                                   During the reporting period, the Hotline received
                                                    6,781 contacts. This resulted in opening 452
    Ensure that allegations of criminal activity, cases. OIG reviewed 138 (31 percent) of these
    waste, abuse, and mismanagement are and referred the remaining 314 cases to VA
    responded to in an efﬁcient and effective program ofﬁces for review.
    manner.
                                                    Hotline staff closed 507 cases during the
The Division operates a toll-free telephone reporting period, of which 182 (36 percent)
service, Monday through Friday, from 8:30 a.m. contained substantiated allegations. OIG wrote
to 4 p.m. Eastern time. Employees, veterans, 50 letters responding to inquiries received
the general public, Congress, the Government from members of the Senate and House of
Accountability Ofﬁce, and other Federal Representatives.
agencies report issues of criminal activity, waste,
and abuse through calls, letters, faxes, and e- VA managers imposed 20 administrative
mail messages. The Hotline Division carefully sanctions against employees and took 125
considers all complaints and allegations; OIG corrective actions to improve operations and
or other Departmental staff address mission- activities as the result of these reviews. The
related issues.                                     monetary impact resulting from these cases
                                                    totaled almost $571,000.
Resources
                                                   Veterans Health 

The Hotline Division has eight FTE. The
following chart shows the estimated percentage     Administration

of resources devoted to various program areas.
                                                   Quality of Patient Care

                                                   The responses to Hotline inquiries by VA
                                                   management ofﬁcials indicated that 42
                             VHA                   allegations regarding deﬁciencies in the quality
                             57%
                                                   of patient care provided by individual facilities
                                                   were found to have merit and required corrective
                                                   action. Examples follow.
                                                   • A review by VHA of dental clinics at three
                                                   medical centers, located in close proximity
                                                   to each other and linked together into one
                                                   administrative unit, found stafﬁng inefﬁciencies
       VBA
       36%
                                                   and discrepancies, which might have contributed
                               Other               to longer patient wait times at one facility. A
                                7%                 dental task force recommended individual
                                                   dental services be established at each facility
                                                   with appropriate stafﬁng adjustments, which
                                                   VISN management approved. The review


                                                50

                                             Ofﬁce of Management and Administration


further found lapses in security in storing and while on overtime. As a result of these ﬁndings,
recording usage of dental supplies. Security management implemented a policy change
enhancements were implemented immediately. to require a supervisor or lead employee be
                                                 present at all times when employees are working
• A VHA review revealed medical staff
                                                 overtime.
prescribed a medication to a veteran causing
his skin condition to worsen. Additionally, the Fiscal Controls
review found the attending physician did not
evaluate the veteran’s skin condition or make The responses to Hotline inquiries by
entries to his medical record. The physician has management ofﬁcials indicate that 5 allegations
been admonished.                                 of deﬁcient or improper ﬁscal controls at
                                                 individual VA facilities were found to have merit
Ethical Improprieties/Employee                   and required corrective action. An example
Misconduct                                       follows.
The responses to Hotline inquiries by              • AVISN review found a former medical center
management ofﬁcials indicated that 12              director authorized the Finance Department to
allegations of ethical improprieties/employee      bill insurance companies for work performed
misconduct at individual VA facilities were        by residents. Consequently, the Finance
found to have merit and required corrective        Department refunded those carriers more than
action. Examples of the issues follow.             $9,944.
• A VHA review determined that a VA social         Patient Safety
worker had a sexual relationship with one of
her patients. The social worker was placed in The responses to Hotline inquiries by
off-duty status and will have no further patient
                                              management ofﬁcials indicate that 5 allegations
contact. The human resources management       of patient safety deﬁciencies at individual VA
service initiated a proposal to remove her.   facilities were found to have merit and required
• A VHA administrative board of investigation corrective action. Examples follow.
determined a care line manager demonstrated • A VHA review determined a veteran
poor leadership, creating a hostile work received inadequate nursing care following
environment, low employee morale, and an a surgical procedure. However, the patient’s
unacceptable degree of emotional exhaustion overall recovery was not adversely affected.
among his employees. Management reassigned Management immediately initiated an extensive
the manager.                                  education program in the care of post-operative
                                              patients and counseled staff involved in this
Time and Attendance                           incident.
The responses to Hotline inquiries by         • A VHA review determined an emergency
                                              room physician and nurse failed to warn a
management ofﬁcials indicate that 12 allegations
of time and attendance abuse at individual VA patient in discharge instructions to discontinue
                                              a medication that may have caused her gastric
facilities were found to have merit and required
corrective action. An example follows.        irritation and bleeding. Management reminded
                                              the physician and nurse to alert patients
• A VHA review into a report of overtime
                                              appropriately in such instances. The review
abuse revealed that employees in one unit of
                                              noted a telephone triage nurse and the patient’s
a medical center were not properly supervised


                                               51

Ofﬁce of Management and Administration


primary care physician later advised the patient a community church. However, as the chaplain
to discontinue the medication.                   actually shares those duties on a rotating basis,
                                                 the review found they do not interfere with
Contract Administration                          his VA responsibilities and commitment. As a
                                                 result of our inquiry, national chaplain service
The responses to Hotline inquiries by reviewed VA policy language and made changes
management ofﬁcials indicate that 5 allegations to clarify the limits of outside pastoral activity.
involving violations of contract administration The new policy is awaiting approval by the
by employees at individual VA facilities were Acting Under Secretary for Health.
found to have merit and required corrective
action. An example follows.
                                                    Veterans Beneﬁts
• A VHA review determined prosthetics
employees at a medical center had not been          Administration
consistently obtaining competitive bids for
health care equipment. The Chief of Prosthetics     Receipt of VA Beneﬁts
and Sensory Aids Service developed strategies
to ensure employees follow all applicable           The responses to Hotline inquiries by
Government regulations in purchasing                management ofﬁcials indicate that 40 allegations
equipment. The review further determined            involving improprieties in the receipt of VA
that a contractor was not returning health          beneﬁts were found to have merit and required
care equipment found to be beyond repair to         corrective action. Examples follow.
the medical center. As a result, the Chief of
                                                    • A VBA review determined a widow receiving
Prosthetics implemented procedures to increase
                                                    VA beneﬁts failed to report she had remarried.
accountability for all equipment and to ensure
                                                    The widow will continue to receive an award
its proper handling.
                                                    on behalf of the veteran’s minor child but owes
Facilities and Services                             $15,876, with a cost savings to the Government
                                                    projected at $226,656.
The responses to Hotline inquiries by VA            • A VBA review determined a veteran
management ofﬁcials indicated that 13               receiving a pension failed to report his wife's
allegations regarding deﬁciencies with facilities   social security income. The veteran’s account
or the services provided by individual VA           has been assessed an overpayment of $20,340.
facilities were found to have merit and required
corrective action. Examples of the issues           Facilities and Services
follow.
• A VHA review determined a veteran’s               The responses to Hotline inquiries by VA
primary care provider had not properly coded        management ofﬁcials indicated that 21
the veteran’s prescriptions as related to his       allegations regarding deﬁciencies with facilities
service-connected condition. The veteran had        or the services provided by individual VA
been improperly billed for those medications.       facilities were found to have merit and required
Management ordered the provider to receive          corrective action. Examples follow.
needed training and gave the veteran a point of • As the result of a Hotline inquiry into an
contact for any future problems.                active-duty service member’s educational
                                                claim, which had not been paid for more than
• A national chaplain service review conﬁrmed
                                                3 months, a VARO immediately located the
a VA chaplain was performing pastoral duties at

                                                52

                                              Ofﬁce of Management and Administration


ﬁle and processed the payment. A check for             and performance planning; providing
$1,149 was deposited into the service member’s         electronic report distribution; and
account.                                               overseeing Inspector General reporting
                                                       requirements.
• AVBA review, conducted in conjunction with
state ofﬁcials, determined a state veterans affairs
employee, assigned to a VARO, had charged
                                                    Resources
veterans unauthorized fees for processing
their claims. State ofﬁcials terminated his This Division has 10 FTE assigned with the
employment.                                         following allocation.


VA Management 
                                                                    Report
                                                                                 Distribution
                                                         Legislative
                                                                                    27%
                                                          Reviews
Abuse of Authority                                          10%


The responses to Hotline inquiries by VA
                                                        Policy &
management ofﬁcials indicated that 12                   Planning
allegations regarding cyber security were found           17%                                   Follow Up
                                                                                                  23%
to have merit. An example follows:

• A review by the Deputy Assistant Secretary                           FOIA/PA
                                                                        23%
for Security and Law Enforcement determined
the chief of police of a medical center abused
his position of authority by accepting kickbacks
and bribes. He was also found to have misused       Overall Performance
Government resources. As a result of the
ﬁndings, the chief resigned, two ofﬁcers received   Follow-Up on OIG Reports
30-day suspensions, one ofﬁcer received a 3-
day suspension, two ofﬁcers were reprimanded,       Operational Support is responsible for obtaining
and two ofﬁcers were admonished.                    implementation actions on previously issued
                                                    audits, inspections, and reviews with over
                                                    $1.98 billion of actual or potential monetary
II. OPERATIONAL                                     beneﬁts as of March 31, 2005.
SUPPORT DIVISION                                    The Division maintains the centralized follow-
                                                    up system that provides oversight, monitoring,
Mission Statement                                   and tracking of all OIG recommendations
                                                    through both resolution and implementation.
   Promote OIG organizational effectiveness         Resolution and implementation actions are
   and efﬁciency by providing reliable and          monitored to ensure that disagreements between
   timely follow-up reporting and tracking          OIG and VA management are resolved promptly
   on OIG recommendations; responding               and that corrective actions are implemented
   to Freedom of Information Act / Privacy          by VA management ofﬁcials. VA’s Deputy
   Act requests; conducting policy review           Secretary, as the Department’s audit resolution
   and development; strategic, operational,


                                                53

Ofﬁce of Management and Administration


ofﬁcial, resolves any disagreements about received a written response within 20 workdays,
recommendations.                                 as required. There are no requests pending over
                                                 6 months.
After obtaining information that showed
management ofﬁcials had fully implemented Electronic Report Distribution
corrective actions, Operational Support closed
74 reports and 699 recommendations with a The President’s electronic Government
monetary beneﬁt of $3.3 billion during this initiatives, as described at http://www.
period. As of March 31, 2005, VA had 141 whitehouse.gov/omb/egov,                  aim     to   put
open OIG reports with 627 unimplemented          Government      at   citizens’   and    employees’
recommendations.                                 ﬁngertips, making it more responsive and cost-
                                                 effective. In keeping with this effort, OIG
Freedom of Information                           distributes reports through a link to the OIG Web
Act, Privacy Act, and Other                      page. Individuals on the distribution list receive
Disclosure Activities                            a short e-mail describing the report, with a link
                                                 that takes them directly to the report.
Operational Support processes all OIG FOIA and
PA requests from Congress, veterans, veterans This distribution method provides many
service organizations, VA employees, news advantages. It is fast and efﬁcient, avoiding
media, law ﬁrms, contractors, complainants, the the cost and delays involved in producing large
general public, and subjects of investigations. numbers of paper copies and the time problems
In addition, it processes ofﬁcial requests for of security screening of mail deliveries. It
information and documents from other Federal greatly reduces the need to print paper copies.
Departments and agencies, such as the Ofﬁce of This approach also places unrestricted OIG
Special Counsel and the Department of Justice. reports on our Web page as soon as they are
These requests require the review and possible issued.
redacting of OIG hotline, healthcare inspection,
criminal and administrative investigation, OIG began using this method to distribute
contract audit, and internal audit reports and our CAP review reports in October 2003
ﬁles. Operational Support also processes OIG and expanded to include other unrestricted
reports and documents to assist VA management reports in August 2004. During this reporting
in establishing evidence ﬁles used to support period a total of 29 CAP reports were released
administrative or disciplinary actions against electronically. In addition, 6 non-CAP reports
VA employees.                                    were released electronically or in hard copy.

During this reporting period, OIG processed 148      Review and Impact of Legislation
requests under the FOIA and PA and released          and Regulations
231 audit, investigative, and other OIG reports.
Information was totally denied in 5 requests and     Operational Support coordinated concurrences
partially withheld in 77 requests, because release   on 9 legislative, 49 regulatory, and 75
would constitute an unwarranted invasion of          administrative proposals from the Congress,
personal privacy, interfere with enforcement         OMB, and VA. OIG commented and made
proceedings, disclose the identity of conﬁdential    recommendations concerning the impact of the
sources, disclose internal Departmental matters,     legislation and regulations on economy and
or was speciﬁcally exempt from disclosure by         efﬁciency in the administration of programs
statute. During this period, all FOIA cases


                                                 54

                                             Ofﬁce of Management and Administration


and operations or the prevention and detection technology organizations and are responsible
of fraud and abuse.                            for strategic planning and policy development
                                               in support of all OIG information technology
                                               requirements. The Data Analysis Section
III. INFORMATION                               in Austin, TX, provides data gathering and
TECHNOLOGY AND                                 analysis support to employees of OIG, as well
DATA ANALYSIS                                  as VA and other Federal agencies, requesting
                                               information contained in VA automated systems.
DIVISION                                       Finally, a member of the staff serves as the OIG
                                               statistician.
Mission Statement
                                                   Resources
   Promote OIG organizational effectiveness
   and efﬁciency by ensuring the accessibility,    The Division has 28 FTE allocated in
   usability, reliability and security of          Washington, Bedford, Austin, Dallas, Atlanta,
   OIG information assets; developing,             Bay Pines, Los Angeles, and Chicago.
   maintaining, and enhancing the enterprise
   database application; facilitating reliable,    Overall Performance
   secure, responsive, and cost-effective
                                                   MASTER CASE INDEX (MCI)
   access to this database, VA databases,
   and electronic mail by all authorized OIG       During this reporting period, the ﬁrst phase of a
   employees; providing Internet document          web-enabled MCI application was completed.
   management and control; and providing           A new Oracle database server was installed
   statistical consultation and support to all     and conﬁgured. The Oracle 8 database was
   OIG components. Provide information             migrated to Oracle’s latest database version of
   technology desktop and network technical        10g. Support was provided to the ﬁeld ofﬁces
   support to all elements of OIG.                 regarding loading of the new Oracle toolset.
The Information Technology and Data Analysis       Enhancements to the MCI system included
Division provides information technology and       the modiﬁcation of Hotline and Investigative
statistical support services to all components     forms to allow for document uploading and
of OIG. It has responsibility for the continued    viewing. In support of OIG activities the MCI
development and operation of the management        development team responded to numerous
information system known as the Master Case        requests for ad hoc reports and modiﬁcations to
Index (MCI), as well as OIG’s Internet and         existing reports and forms.
Intranet resources. The Division interfaces with
VA information technology units nationwide         INTERNET AND ELECTRONIC
to establish and support local and wide area       FOIA
networks, guarantee uninterrupted access to
electronic mail, service personal computers,       The Division is responsible for processing
detect and defeat threats to information           and controlling electronic publication of OIG
assurance, and provide support in protecting       reports, including maintaining the OIG web
all electronic communications. OIG’s Chief         sites and posting OIG reports on the Internet.
Information Ofﬁcer and his staff represent OIG     Data ﬁles on the OIG web site were accessed
on numerous intra- and inter-agency information    almost 1.5 million times by more than 155,000


                                               55

Ofﬁce of Management and Administration


visitors. OIG reports, vacancy announcements,       of OIG and other governmental agencies needing
and other publications accounted for almost         information from VA computer ﬁles.
682,000 downloads from our web sites,
providing both timely access to OIG customers       Data Mining to Detect Potential
and cost avoidance in the reduced number of         Fraud in VA Computer Systems
reports printed and mailed. Reports constituted
over 80 percent of the most popular downloads      DAS staff has begun using Audit Control
from our web sites.                                Language (ACL) to assist our data mining
                                                   efforts. ACL offers analysis tools that will
In conjunction with the OIG electronic reports allow a more in-depth analysis of some ﬁles for
distribution initiative, we posted all CAP reports fraud detection.
issued this semiannual period along with audit,
                                                   CAP Reviews
health care inspection, and administrative
investigation reports, as well as investigative DAS also provided technical support and data
press releases and other OIG publications on to all CAP health care reviews focusing on
the OIG web sites.                                 the quality, efﬁciency, and effectiveness of
                                                    medical services provided to veterans. DAS
STATISTICAL SUPPORT AND IT
                                                    also provided support to all CAP reviews on
TRAINING
                                                    VA beneﬁts, which focused on the delivery
The OIG statistician is part of the technical       of monetary beneﬁts to veterans and their
support team under the direction of OIG’s Chief     dependents. A combined total of over 603 data
Information Ofﬁcer and provides assistance in       extracts and reports were produced in support
planning, designing, and sampling for relevant      of this activity. An additional 135 reports were
OIG projects. In addition, the statistician         produced for teams conducting the National
provides support in the implementation of           Resident Supervision Review of 12 facilities
appropriate methods to ensure that data             and the Fee Basis Review of 21 facilities.
collection, preparation, analysis, and reporting
                                                 VA WCP
are accurate and valid.
                                                    DAS provided assistance on this review by
For the reporting period, the OIG statistician      matching WCP participants to past VA payrolls
provided statistical consultation and support for   to show the participant’s age. OIG wanted
all CAP reviews, and data analysis concerning       to show the beneﬁts of termination of WCP
purchase card use at each facility. We also         payments for beneﬁciaries age 65 or older. By
developed and published several online surveys      allowing OPM retirement or Social Security
in support of OIG activities.                       annuities to take effect at that age, WCP beneﬁts
                                                    could be terminated at signiﬁcant savings to the
DATA ANALYSIS SECTION                               Government.

The Data Analysis Section (DAS) develops
proactive computer proﬁles that search VA
computer data for patterns of inconsistent or
irregular records with a high potential for fraud
and refers these leads to OIG auditors and
investigators for further review. DAS provides
technical assessments and support to all elements

                                                56

                                              Ofﬁce of Management and Administration


Assistance to Other
Organizations
                                                                                        Budget
We provided C&P master ﬁle information on             Administrative                     13%
three VA facilities to Management Quality              Operations
                                                          75%
Assurance Service (MQAS). DAS also provided
a VHA compliance ofﬁcer with information on
                                                                                        Travel
VA staff initiating VA payments and who cashed                                           12%
those payment checks.

Other Workload

During the reporting period, DAS completed
150 ad hoc requests for data requested by all Overall Performance
other OIG operational elements.
                                              Budget
IV. FINANCIAL AND                                  The staff assisted in the preparation of the
ADMINISTRATIVE                                     FY 2006 budget submission and materials
SUPPORT DIVISION                                   for associated hearings with VA, Ofﬁce of
                                                   Management and Budget, and Congressional
                                                   Committees.
Mission Statement
                                                   Travel
    Promote OIG organizational effectiveness
    and efﬁciency by providing reliable and By the nature of our work, OIG personnel
    timely ﬁnancial and administrative support travel almost continuously. As a result, OIG
    services.                                       processed 1,737 travel vouchers. Recruiting
                                                    efforts led to 11 new permanent change of
                                                    station authorities.
The Division provides support services for the
entire OIG. Services include budget formulation, Administrative Operations
presentation, and execution; travel processing;
procurement; space and facilities management; The administrative staff works closely with
and general administrative support.                 VA Central Ofﬁce administrative ofﬁces and
                                                    building management to coordinate various
Resources                                           administrative functions, ofﬁce renovation plans,
                                                    telephone installations, and the procurement
The Division has nine FTE currently assigned. of furniture and equipment. In addition,
The staff allocation for the three functional areas OIG processed 155 procurement actions (53
is as follows:                                      acquisition and 102 credit card transactions),
                                                    and each month reviewed and approved 40
                                                    statements on OIG’s cardholders under the
                                                    Government’s purchase card program.




                                                57

Ofﬁce of Management and Administration


V. HUMAN                                          Overall Performance
RESOURCES                                         Human Resources Management
MANAGEMENT                                 During this period, 19 new employees joined the
DIVISION                                   OIG workforce and 23 departed. The current
                                           on-board strength is at its highest level in OIG
Mission Statement                          history with 422 employees in authorized
                                           positions and 24 employees in positions that
                                           are reimbursed by the Department. The staff
  Promote OIG organizational effectiveness
                                           processed 144 recruitment and placement
  and efﬁciency by providing reliable and
                                           actions, processed 67 awards, and enrolled
  timely human resources management and
                                           26 employees in advanced leadership and
  related support services.
                                           management development classes.
The Division provides human resources
                                                  To help employees plan their careers, the
management services for the entire OIG. These
                                                  Division developed and published a model
services include internal and external stafﬁng,
                                                  that identiﬁes the core competencies required
classiﬁcation, pay administration, employee
                                                  for all OIG employees. The model lays out
relations, beneﬁts, performance and awards, and
                                                  the knowledges, skills, and abilities needed to
management advisory assistance. It also serves
                                                  progress up the career ladder for each of the
as liaison to the VA Central Ofﬁces of Human
                                                  eight competencies. Employees can now take
Resources and Payroll, as those ofﬁces process
                                                  charge of their careers by seeking training and
our actions into the VA integrated payroll and
                                                  developmental assignments related to each
personnel system.
                                                  competency.
Resources                                         The Division held an OIG New Employee
                                              Orientation Program in December 2004. Over
Eight FTE, committed to human resources 30 employees attended the 2-day program and
management and support, currently expend time learned about OIG organizational values, history,
across the following functional areas.


                                 Special
                                 Projects
                                   15%

    Stafﬁng/
  Classiﬁcation                    Employee
      65%                          Relations
                                   & Beneﬁts
                                     10%


                               Performance
                                & Awards
                                   10%                 VA OIG New Employee Orientation
                                                                City Museum
                                                               Washington, DC
                                                               December 2004



                                               58

                                               Ofﬁce of Management and Administration


strategic goals, and organizational structure from
the senior management staff. A former Vietnam
prisoner of war delivered an inspirational speech
on the value of public service to the preservation
of freedom in America.

OIG adopted a new performance management
system that is designed to strengthen the
organization’s culture of high performance. The
new system features ﬁve performance rating
levels whereas the previous system was limited
to a pass or fail rating. The Division trained
managers and employees on the new system
throughout the months of February and March.




                                                 59

Ofﬁce of Management and Administration




                                 Blank Page




                                     60
OTHER SIGNIFICANT OIG ACTIVITIES

President’s Council on                             National Acquisition Center
Integrity and Efﬁciency                            Industry Conference
• The OIG Financial Audits Division staff          • The Division Director and an audit manager
participated in the audit executive committee      from the Contract Review and Evaluation
workgroup on ﬁnancial statements.          The     Division made a presentation on preaward
workgroup facilitates communication of             reviews and voluntary disclosure and refund
ﬁnancial statement audit issues throughout the     offers to industry representatives.
Federal community.                             • An audit manager from the Contract Review
                                               and Evaluation Division participated with a VA
IT Security Committee                          Ofﬁce of General Counsel representative and a
• The Director of the Information Technology Defense Department TRICARE representative
Audit Division is the subcommittee chair of on a panel presenting the TRICARE Retail
PCIE’s Policy Review Committee, IT Security Pharmacy program’s access to Federal ceiling
Committee. The committee met to discuss the prices under Public Law 102-585.
impact of recent National Institute of Science • An audit manager from the Contract Review
and Technology publications on the audit and Evaluation Division and a VA Ofﬁce of
community.                                     General Counsel representative presented a
The Policy Review Committee is chartered           class on how to administer various provisions
with reviewing OMB and National Institute of       of Public Law 102-585.
Standards and Technology publications and to
coordinate a consolidated response from the IG     OIG Employee Advisory Council
community to the publishing organization.          • The OIG Employee Advisory Council met
                                                   with the IG, along with the Deputy IG and
OIG Management                                     Executive Assistant, during their Washington,
Presentations                                      DC, meeting.

IG Management Institute
• In February 2005, the IG was part of a
panel of IGs who spoke to the ﬁrst two-week
class in Applied Management Studies at the
Management Institute in Rosslyn, VA.

Ofﬁce of Acquisition and Materiel
Management’s Acquisition Forum
• Representatives from OIG’s Contract Review
and Evaluation Division and the Counselor to the
Inspector General made several presentations to    From left to right, attendees are:      Jon
VA contracting personnel. The presentations        Wooditch, Marnette Dhooghe, Celeste Weeks,
                                                   Leon Roberts, Henry Hoffman, Dana Moore,
covered various aspects of contracting with        Greg Bratten, Emjay Wenzler, Christy Bonilla,
afﬁliates for health care resources.               Ken Myers, Richard Grifﬁn, Vishala Sridhar,
                                                   Raymond Vasil, and Sean Smith.

                                               61
                                               61

Other Signiﬁcant OIG Activities


Leadership VA 2004 Program                          felons, who, by law, are prohibited from receiving
• The Deputy Inspector General made                 speciﬁed beneﬁts. Team members included
a presentation on the work of OIG to the            Bernard Murray, William Chirinos, John Jones,
Leadership VA class of 2004 in Williamsburg,        Brian Sewell, Jenny Pate, Sean Gomez, Sharon
VA. This program is VA’s premier leadership         Neal, Ray Yenchi, Francine Kimbrell, Madeline
development program.                                Cantu, Debbie Crawford, Scott Eastman, and
                                                    Parneet Chauhan.
Strategic Planning Retreat                          • An “Award for Excellence - Audit” was
• The Audit Project Manager made a                  presented to eight staff members in the Central
presentation at the Workers’ Compensation           Ofﬁce Audit Operations Division in recognition
Strategic Planning Retreat that discussed past      of outstanding audit work performed on the 2003
work and program ﬁndings over the last several      audit of the VA information security program,
years. The presentation highlighted continuing      which identiﬁed signiﬁcant information security
areas of concern to be addressed in developing a    vulnerabilities. Team members included Stephen
strategic action plan for program improvement.      Gaskell, Jerry Rainwaters, Barbara Armitage,
                                                    Fred Livingstone, Rick Purifoy, Kathy Gers,
Awards                                              Charles McCarron, and Sheila Murray.
                                                    • An “Award for Excellence - Audit” was
2004 Presidential Rank Awards
                                                    presented to 14 staff members in the Seattle
• President Bush awarded the rank of                and Chicago Audit Operations Divisions in
Meritorious Executive to Mr. Michael G.             recognition of the team's substantial contribution
Sullivan, former Deputy Inspector General,          that will help VA use contract sources more
and Mr. Jon A. Wooditch, Deputy Inspector           effectively, award more national supply
General, for their outstanding leadership and       contracts, and reduce medical, prosthetic, and
public service as career members of the Senior      operating supply costs by an estimated $1.34
Executive Service (SES). This honor is limited      billion. Team members included Jay Johnson,
to only ﬁve percent of the career SES corps in      Kent Wrathall, Gary Abe, Danny Bauwens,
the Federal Government.                             Kevin Day, Angie Fodor, Gary Humble, Claire
                                                    McDonald, Thomas Phillips, Ron Stucky, Myra
PCIE 2003 Awards Ceremony -                         Taylor, Melinda Toom, Orlando Velasquez, and
October 27, 2004                                    Sherry Ware.
• The “June Gibbs Brown Career Achievement
                                                    • An “Award for Excellence - Audit” was
Award” was presented to Michael G. Sullivan,
                                                    presented to 53 staff members from the Kansas
in recognition of Mr. Sullivan’s leadership
                                                    City, Dallas, Chicago, Atlanta, Bedford,
and executive excellence as Deputy Inspector
                                                    and Seattle Audit Operations Divisions,
General.
                                                    Washington Headquarters, and the Information
• An “Award for Excellence - Multiple               Technology and Data Analysis Division in
Disciplines” was presented to 13 staff              recognition of their diligent, collaborative
members in the Ofﬁce of Investigations and          efforts in conducting the follow-up of VHA’s
the Information Technology and Data Analysis        part-time physician time and attendance audit,
Division in recognition of their outstanding        resulting in improved quality medical care for
achievement in developing a highly efﬁcient         veterans. Team members included William
and effective means of processing data leading      Withrow, Joseph Janasz, Larry Reinkemeyer,
to the identiﬁcation and apprehension of fugitive   Robert Zabel, Kenneth Myers, Carla Reid,


                                                62

                                                          Other Signiﬁcant OIG Activities


Lynn Scheffner, James Garrison, Tim Halpin,       Special Thanks
Russ Lewis, Henry J. Mendala, Oscar Williams,
Marcia Schumacher, Greg Gibson, Dennis            McDermott House for Formerly
Sullivan, Terra Ansari, Melvin Reid, Carla        Homeless Veterans
Vines, Nicolas Torres, Clenes Duhon, Glen         • For the last several years, OIG employees
Gowans, Curtis Hill, Michael Jacobs, Debra        have given gift bags to 30 formerly homeless
Major, Nicholas Dahl, Jacqueline Stumbris,        veterans who live at McDermott House and are
Maureen Barry, Carl Looby, Steven Rosenthal,      in the VAMC Washington, DC, Compensated
Joseph Vivolo, George Boyer, Melissa Colyn,       Work Therapy program. This year wrapped gifts
Marcia Drawdy, Earl Key, George Patton, Al        included warm hats, gloves, socks, mufﬂers,
Tate, Walter Pack, Don Bunce, Mark Collins,       toiletry items, snacks and sweets, along with a
Ken Dennis, Mary Ann Fitzgerald, Cynnde           $100 gift certiﬁcate to the VA Canteen for each
Nelson, Bill Wells, Myra Taylor, Randy Alley,     veteran. OIG received a thank-you card signed
Gary Humble, Tom Phillips, Angie Stow, Ron        by the house manager, staff, and all the veterans
Stucky, Orlando Velasquez, Mary Lopez, and        at McDermott House reading, "All at IG 2004,
Gilberto Melendez.                                thanks from residents of McDermott House."
• An “Award for Excellence - Investigations”
was presented to two staff members from the
Ofﬁce of Investigations in recognition of their
outstanding achievement, thwarting a bribery
conspiracy directed at the VA vocational
rehabilitation services program by the owners
of a technical college. Team members were Jeff
Hughes and Gregg McLaughlin.
• An “Award for Excellence - Management”
was presented to ten staff members from the
Ofﬁces of Audit and Healthcare Inspections and
the Information Technology and Data Analysis
Division in recognition of the outstanding
performance of this team whose hard work
and diligent efforts signiﬁcantly contributed to
the improvement in VHA’s ability to manage OIG staff gifts for McDermott House veterans
nursing resources. Team members included
Julie Watrous, John Tryboski, Terra Ansari,
Carol Arthur, Daisy Arugay, Elizabeth Bullock, • OIG employees have participated in the U.S.
Marisa Casado, Marnette Dhooghe, Gilberto Marine Corps Reserve Toys for Tots program for
Melendez, and Victoria Pilate.                   the past 6 years. Most years, they collected more
                                                 than 100 toys. In December 2003, the total was
                                                 around 250. This year’s donation of more than
                                                 350 toys for needy children in the Washington
                                                 metropolitan area topped them all. Shirley
                                                 Landes, Chief, Freedom of Information Act
                                                 Section, and Adrianne Mitchell, a management
                                                 analyst, coordinated the toy drive, and Secretary
                                                 Anthony Principi was on hand when employees


                                               63

Other Signiﬁcant OIG Activities


presented the gifts to the Marines at the OIG’s      "2004 Vision Award" from the International 

holiday party.                                       Association of Forensic Nurses at its 12th 

                                                     annual scientiﬁc assembly in Chicago, IL. This
                                                     award recognizes the efforts of a non-nurse in
                                                     promoting forensic nursing.

                                                 Operation Clean-Up Award
                                                 • The Hampton, VA, Chief of Police wrote a
                                                 letter of commendation praising several OIG
                                                 special agents for their outstanding cooperation
                                                 and assistance, professionalism, and "ﬁne
                                                 support" in the arrests and indictments of 47
                                                 suspects charged with drug distribution and
                                                 ﬁrearm violations. The commendation was
                                                 extended to Special Agent in Charge Bruce
   LCpl Adefunke T. Adeyeye, Cpl Agella R.       Sackman and Special Agents Jeff Stachowiak,
  Mitchell, Inspector General Grifﬁn, Toys for   Pat McCormack, Chris Wagner, Jim O'Neill,
 Tots chair Shirley Landes, co-chair Adrianne    Sean Smith, Mark Lazarowitz, Tim Bond,
       Mitchell, and Secretary Principi.         Sean Gomez, Paul Lazzaro, and Kevin Russell.
Recognition Awards                               Special thanks were extended to Agent
                                                 Stachowiak "for his outstanding assistance in
• Special Agent Brian Celatka was presented planning and organizing this operation."
a “2004 Award of Excellence in Law
Enforcement” by U.S. Attorney James Vines of
the Middle District of Tennessee for conducting
investigations and assisting in presenting and
prosecuting those cases. During the awards
ceremony, U.S. Attorney Vines commented on
Brian’s attention to detail and said the manner
in which he conducts investigations and
presents criminal cases is worthy of the highest
recognition.
• Special Agent Tim Bond was awarded a
certiﬁcate of appreciation by the U.S. Attorney,
Eastern District of Pennsylvania, for his
outstanding efforts in the successful prosecution
of a VA contractor. In a joint investigation with
the Small Business Administration, Tim proved
that the contractor and two employees conspired
to defraud various lending companies, ﬁnancial
institutions, Federal agencies, and municipalities
of over $10 million in an insurance bond
scheme.
• Bruce Sackman, Special Agent in Charge
of the Northeast Field Ofﬁce, received the

                                                 64

                                       APPENDIX A


                       DEPARTMENT OF VETERANS AFFAIRS
                         OFFICE OF INSPECTOR GENERAL
                             REVIEWS BY OIG STAFF

 Report                                                      Funds Recommended
Number/                                                         for Better Use Questioned
Issue Date                   Report Title                     OIG       Management   Costs


COMBINED ASSESSMENT PROGRAM REVIEWS

04-01944-7    Combined Assessment Program Review of            $8,821       $8,821
10/22/04      the VA Central California Healthcare System,
              Fresno, CA
04-02528-10   Combined Assessment Program Review of the       $16,528      $16,528
10/29/04      VA Regional Ofﬁce, Fort Harrison, MT
04-02247-12   Combined Assessment Program Review of the      $707,438     $707,438
11/3/04       Louis Stokes VA Medical Center, Cleveland,
              OH
04-01878-34   Combined Assessment Program Review of the      $224,350     $224,350
11/26/04      VA North Texas Health Care System, Dallas,
              TX
04-01562-35   Combined Assessment Program Review             $572,969     $572,969
11/26/04      of the Canandaigua VA Medical Center,
              Canandaigua, NY
03-02837-37   Combined Assessment Program Review of the      $179,300     $179,300
11/26/04      VA Regional Ofﬁce, Togus, ME
04-01463-39   Combined Assessment Program Review of the      $184,827     $184,827
12/1/04       VA Regional Ofﬁce, Louisville, KY
04-01822-45   Combined Assessment Program Review of the      $676,602     $676,602
12/7/04       VA Medical Center, Dayton, OH
04-02277-48   Combined Assessment Program Review of the      $919,413     $919,413
12/13/04      Hunter Holmes McGuire VA Medical Center,
              Richmond, VA
04-03028-49   Combined Assessment Program Review of the
12/13/04      Carl Vinson VA Medical Center, Dublin, GA
04-01740-53   Combined Assessment Program Review of the       $48,000      $48,000
12/27/04      VA Northern Indiana Healthcare System, Fort
              Wayne and Marion, IN

                                                65
  Report                                                      Funds Recommended
 Number/                                                         for Better Use   Questioned
Issue Date                  Report Title                       OIG     Management   Costs

04-01805-55    Combined Assessment Program Review of          $586,360     $586,360
12/27/04       the VA Eastern Colorado Health Care System,
               Denver, CO
04-02315-57    Combined Assessment Program Review of the       $92,650      $92,650
12/28/04       VA Regional Ofﬁce, Reno, NV
04-03071-62    Combined Assessment Program Review of the       $74,245      $74,245
1/6/05         VA Medical Center, Fargo, ND
04-02499-63    Combined Assessment Program Review of the       $35,500      $35,500    $29,300
1/6/05         Edward Hines VA Hospital Hines, IL
04-02842-64    Combined Assessment Program Review of the      $424,613     $424,613
1/7/05         VA Regional Ofﬁce, Hartford, CT
04-00603-65    Combined Assessment Program Review of the      $695,540     $695,540
1/10/05        VA Regional Ofﬁce, Indianapolis, IN
04-02527-67    Combined Assessment Program Review of           $65,148      $65,148
1/14/05        the VA Montana Health Care System, Fort
               Harrison, MT
04-02398-70    Combined Assessment Program Review of            $6,050       $6,050
1/18/05        the VA Nebraska Western Iowa Health Care
               System, Omaha, NE
04-02293-73    Combined Assessment Program Review of the       $59,443      $59,443
1/28/05        West Texas VA Health Care System,
               Big Spring, TX
04-03271-77    Combined Assessment Program Review of the       $19,512      $19,512
2/4/05         VA Regional Ofﬁce, Fargo, ND
05-00048-84    Combined Assessment Program Review of         $1,150,200   $1,150,200
2/14/05        the Ralph H. Johnson VA Medical Center,
               Charleston, SC
04-02974-90    Combined Assessment Program Review of the      $297,174     $297,174
2/25/05        VA Medical Center, Martinsburg, WV
04-03331-91    Combined Assessment Program Review of the     $1,503,199   $1,503,199
2/25/05        VA Regional Ofﬁce, Little Rock, AR
04-02815-88    Combined Assessment Program Review of the      $149,556     $149,556
3/3/05         VA Long Beach Healthcare System,
               Long Beach, CA
04-03200-96    Combined Assessment Program Review of the       $32,280      $32,280
3/3/05         VA Regional Ofﬁce, Sioux Falls, SD
04-03359-105   Combined Assessment Program Review of the      $938,542     $938,542
3/16/05        VA Palo Alto Health Care System, Palo Alto,
               CA


                                                66

  Report                                                      Funds Recommended
 Number/                                                         for Better Use   Questioned

Issue Date                   Report Title                      OIG     Management   Costs 


04-02592-107   Combined Assessment Program Review of the      $291,802     $291,802
3/16/05        VA Medical Center, White River Junction, VT
04-01130-109   Combined Assessment Program Review of the      $501,421     $501,421
3/23/05        VA Medical Center, Philadelphia, PA
04-00731-110   Combined Assessment Program Review of the     $2,428,392   $2,428,392
3/24/05        VA Regional Ofﬁce, Providence, RI
05-00194-106   Combined Assessment Program Review of the      $184,273     $184,273
3/25/05        VA Regional Ofﬁce, Pittsburgh, PA
05-00222-111   Combined Assessment Program Review of the     $2,230,328   $2,230,328
3/25/05        South Texas Veterans Health Care System,
               San Antonio, TX
04-02331-112   Combined Assessment Program Review of          $143,420     $143,420
3/25/05        the VA Eastern Kansas Health Care System,
               Leavenworth, KS
04-03408-113   Combined Assessment Program Review of the      $638,656     $638,656
3/25/05        VA Medical Center, Minneapolis, MN
04-01852-115   Combined Assessment Program Review of the     $1,465,000   $1,465,000
3/28/05        Richard L. Roudebush VA Medical Center,
               Indianapolis, IN

COMBINED ASSESSMENT PROGRAM SUMMARY REPORTS

04-03311-58	   Summary Report of Combined Assessment
12/29/04	      Program Reviews at Veterans Beneﬁts
               Administration Regional Ofﬁces October 2003
               Through September 2004
04-03310-94	   Summary Report of Combined Assessment
3/7/05	        Program Reviews at Veterans Health
               Administration Medical Facilities October
               2003 through September 2004

JOINT REVIEW

04-00260-100 Summary of the Beneﬁts Review of the
3/7/05       VA Regional Ofﬁce, in San Juan, Puerto Rico

INTERNAL AUDITS

04-00986-14     Report of the Audit of the Department of
11/15/04        Veterans Affairs Consolidated Financial
                Statements for Fiscal Years 2004 and 2003



                                                  67

  Report                                                       Funds Recommended
 Number/                                                          for Better Use   Questioned
Issue Date                  Report Title                        OIG     Management   Costs

04-00986-25   Management Letter, Audit of VA’s Fiscal
11/23/04      Years 2004 and 2003 Consolidated Financial
              Statements Financial Management System
              Application Follow-Up Review
04-00986-26   Management Letter, Audit of VA’s Fiscal
11/23/04      Years 2004 and 2003 Consolidated Financial
              Statements Personnel and Accounting
              Integrated Data Application Follow-Up Review
04-00986-27   Management Letter, Audit of VA’s Fiscal
11/23/04      Years 2004 and 2003 Consolidated Financial
              Statements Loan Guaranty System Application
              Follow-Up Review
04-00986-28   Management Letter, Audit of VA’s Fiscal
11/23/04      Years 2004 and 2003 Consolidated Financial
              Statements Integrated Funds Distribution,
              Control Point Activity, Accounting and
              Procurement Application Follow-Up Review
04-00986-29   Management Letter, Audit of VA’s Fiscal
11/23/04      Years 2004 and 2003 Consolidated
              Financial Statements Automated Engineering
              Management System and Medical Equipment
              Reporting System Application Review
04-00986-30   Management Letter, Audit of VA’s Fiscal
11/23/04      Years 2004 and 2003 Consolidated Financial
              Statements Real Servicing Application Review
04-00986-31   Management Letter, Audit of VA’s Fiscal
11/23/04      Years 2004 and 2003 Consolidated Financial
              Statements General Computer Controls Review
              at the Philadelphia Information Technology
              Center
04-00986-32   Management Letter, Audit of VA’s Fiscal
11/23/04      Years 2004 and 2003 Consolidated Financial
              Statements General Computer Controls Review
              at the Philadelphia Insurance Center
04-01972-41   Audit of Department of Veterans Affairs Fiscal
11/29/04      Year 2003 Special Disabilities Capacity Report
04-00986-50   Management Letter, Audit of VA’s Fiscal
12/17/04      Years 2004 and 2003 Consolidated Financial
              Statements General Computer Controls Review
              at the Hines Information Technology Center




                                                68

  Report                                                         Funds Recommended
 Number/                                                            for Better Use   Questioned
Issue Date                   Report Title                         OIG     Management   Costs

04-00986-51    Management Letter, Audit of VA’s Fiscal
12/17/04       Years 2004 and 2003 Consolidated Financial
               Statements General Computer Controls Review
               at the Austin Automation Center
04-01265-52    Report of the Audit of the Department of
12/20/04       Veterans Affairs’ Franchise Fund Consolidated
               Financial Statements for Fiscal Years 2004 and
               2003
04-00986-59    Management Letter, Audit of the Department
1/3/05         of Veterans Affairs Consolidated Financial
               Statements for the Year Ended September 30,
               2004
04-03100-66    Audit of Department of Veterans Affairs
1/11/05        Procurement of Desktop Computers with
               Modems
02-02181-79    Audit of Veterans Health Administration           $957,164      $957,164
2/8/05         Major Construction Contract Award and
               Administration Process
04-00772-122   Audit of the Department of Veterans Affairs
3/31/05        Information Security Program


OTHER OFFICE OF AUDIT REVIEWS

04-01971-4     Evaluation of Department of Veterans
10/15/04       Affairs Policies and Procedures Addressing
               the Location of New Ofﬁces and Other
               Facilities in Rural Areas
04-02145-11    Review of Environment of Care and Part-
10/29/04       Time Physician Time and Attendance at the
               Louis Stokes VA Medical Center, Cleveland,
               OH
05-00070-18    Promptness of Department of Veterans
11/12/04       Affairs’ Payments to the District of
               Columbia Water and Sewer Authority for
               Fiscal Year 2004
03-00940-38    Evaluation of Selected Medical Care
12/1/04        Collections Fund First Party Billings and
               Collections
04-01271-74    Evaluation of Veterans Beneﬁts                   $6,750,000   $6,750,000
2/1/05         Administration Vocational Rehabilitation
               and Employment (VR&E) Contracts



                                                  69
  Report                                                                        Funds Recommended
 Number/                                                                           for Better Use   Questioned

Issue Date                          Report Title                                 OIG     Management   Costs 


05-01318-85         Evaluation of VHA Sole-Source Contracts
2/16/05             with Medical Schools and Other Afﬁliated
                    Institutions
05-01199-92         Attestation of the Department of Veterans
2/23/05             Affairs Detailed Accounting Submission
05-00949-89         Workers’ Compensation Program (WCP)                    $487,832,913       $487,832,913
2/24/05             Operating Changes
04-02344-97         Evaluation of VA Medical Center, Use of
3/4/05              On-Station Fee Basis Appointments
02-00986-101        Evaluation of VA Compliance with Federal                 $12,880,320        $12,880,320
3/9/05              Energy Management Policies
05-00055-103        Management Letter, External Penetration
3/9/05              Testing of Veterans Affairs Medical Center,
                    Washington, DC
04-00904-124        Review of VA Implementation of the Zegato                  $7,379,699        $7,379,699
3/31/05             Electronic Travel Service


CONTRACT PREAWARD REVIEWS*

04-02699-2          Review of Proposal Submitted by Mayo                     $2,323,376
10/8/04             Clinic of Scottsdale for Ophthalmology
                    Outpatient and Surgical Services for the Carl
                    T. Hayden VA Medical Center, Phoenix, AZ
04-01590-3          Review of Proposal for Contract Extension
10/13/04            Submitted by Automed Technologies, Inc.,
                    Under Contract V797P-3481k
04-01862-5          Review of Federal Supply Schedule Proposal               $3,000,257
10/13/04            Submitted by Steris Corporation Under
                    Solicitation Number 797-FSS-0025-R3
04-02967-8          Review of Proposal Submitted by Indiana                     $505,488
10/18/04            University Under Solicitation Number
                    583-44-04 for Otolaryngology Surgeon
                    Services at Richard L. Roudebush VA
                    Medical Center,
04-03237-9          Review of Federal Supply Schedule Proposal               $4,149,810
10/21/04            Submitted by Fujisawa Healthcare, Inc.,
                    Under Solicitation Number M5-Q50A-03


 *   Management estimates are not applicable to contract reviews. Cost avoidances resulting from these reviews are determined
     when the OIG receives the contracting ofﬁcer’s decision on the recommendations.



                                                             70

  Report                                                       Funds Recommended
 Number/                                                          for Better Use   Questioned
Issue Date                 Report Title                         OIG     Management   Costs

04-01285-13   Review of Tyco Healthcare Group LP D/B/A      $27,078,813
11/2/04       Kendall Healthcare Products Company’s
              Proposal for Medical Supplies Under
              Solicitation Number 797-FSS-99-0025-R3

04-02556-16   Review of Federal Supply Schedule Proposal
11/3/04       Submitted by Dade Behring Inc., Under
              Solicitation Number RFP-797-FSS-03-0001
04-03302-20   Review of Proposal Submitted by University
11/10/04      of Illinois - Chicago, Under Solicitation
              Number RFP 69D-275-04 for Anesthesia
              Services, at Jesse Brown VA Medical Center,
04-01302-17   Review of Federal Supply Schedule Proposal     $3,610,091
11/12/04      Submitted by Draeger Medical, Inc., Under
              Solicitation Number 797-FSS-99-0025-R3
04-02969-21   Review of Proposal Submitted by
11/15/04      Biotronics, Inc., Under Solicitation Number
              RFP 244-04-00070 for Perfusionist Services,
              at VA Pittsburgh Healthcare System
04-01801-23   Review of Proposal Submitted by Indiana         $467,457
11/15/04      University Under Solicitation Number
              583-49-03 for Orthopedic Surgeon Services
              at Richard L. Roudebush VA Medical Center
05-00088-36   Review of Proposal Submitted by the            $1,020,497
11/22/04      University Physicians, Inc., Under
              Solicitation Number 678-021-04 for
              Cardiothoracic Surgery Services at Southern
              Arizona VA Health Care System
04-02618-33   Review of Federal Supply Schedule Proposal
11/23/04      Submitted by Takeda Pharmaceuticals
              America, Inc., Under Solicitation Number
              M5-Q50A-03
05-00044-40   Review of Proposal Submitted by New             $455,972
11/29/04      York University, School of Medicine,
              Under Solicitation Number 10N3-242-04,
              for Emergency Medicine Services at the
              Department of Veterans Affairs, New York
              Harbor Healthcare System
04-02443-43   Review of Federal Supply Schedule Proposal       $227,386
12/2/04       Submitted by Aventis Pasteur, Inc., Under
              Solicitation Number M5-Q50A-03




                                               71

  Report                                                        Funds Recommended
 Number/                                                           for Better Use   Questioned
Issue Date                 Report Title                          OIG     Management   Costs
05-00417-46   Review of Proposal Submitted by Vanderbilt        $238,393
12/6/04       University, School of Medicine, Under
              Solicitation Number 626-05-11, for
              Radiology Services at the Department of
              Veterans Affairs Medical Center, Nashville,
              TN

04-01589-54   Review of Federal Supply Schedule                $5,093,352
12/22/04      Proposal Submitted by UCB Pharma, Inc.,
              Under Solicitation Number M5-Q50A-03
04-03209-56   Review of Proposal Submitted by University        $954,938
12/22/04      of Pennsylvania, Under Solicitation Number
              642-17-04, for On-Site Radiology Physician
              Services at the Department of Veterans
              Affairs Medical Center, Philadelphia, PA
04-03426-60   Review of Proposal Submitted by New               $529,356
12/30/04      York University, School of Medicine, Under
              Solicitation Number 10N3-231-04, for
              Vascular Surgeon Services at the Department
              of Veterans Affairs, New York Harbor
              Healthcare System
05-00650-61   Review of Proposal Submitted by New                $80,558
1/3/05        York University, School of Medicine, Under
              Solicitation Number 10N3-121-04, for Chief
              of Anesthesia Services at the Department
              of Veterans Affairs, New York Harbor
              Healthcare System
04-02325-68   Review of Federal Supply Schedule              $959,133,684
1/11/05       Proposal Submitted by Merck & Co., Inc.,
              Under Solicitation Number M5-Q50A-03
05-00510-69   Review of Proposal Submitted by University
1/12/05       Physicians Group for Professional Radiology
              Services for the South Texas Veterans Health
              Care System
04-02968-71   Review of Proposal Submitted by the               $794,535
1/14/05       Medical College of Wisconsin, Under
              Solicitation Number RFP 69D-324-04 for
              Perfusionist Services, at the Clement J.
              Zablocki VA Medical Center
04-03211-72   Review of Proposal Submitted by Baylor           $1,957,185
1/27/05       College of Medicine, Under Solicitation
              Number RFQ 580-27-04, for Angiographer/
              Neuroradiologist Services at Michael E.
              Debakey VA Medical Center



                                               72

  Report                                                      Funds Recommended

 Number/                                                         for Better Use   Questioned
Issue Date                  Report Title                       OIG     Management   Costs


04-02198-81    Supplemental Review of Federal Supply
2/18/05        Schedule Proposal Submitted by E. Fougera
               & Company, Division of Altana, Inc. Under
               Solicitation Number M5-Q50A-03
04-03301-87    Review of Proposal Submitted by Indiana        $687,157
2/23/05        University Under Solicitation Number
               583-44-04 for General Surgeon Services at
               Richard L. Roudebush VA Medical Center
05-00546-99    Review of Proposal Submitted by the
3/8/05         University of Pennsylvania Health System
               Under Solicitation Number 642-38-04 for
               Emergency Cardiac Surgery Services for
               the Department of Veterans Affairs Medical
               Center, Philadelphia, PA
04-02716-104   Review of Federal Supply Schedule              $791,515
3/23/05        Proposal Submitted by Astrazeneca LP
               Under Solicitation Number M5-Q50A-03
04-02557-117   Review of Cardinal Health 200 Inc.’s           $659,093
3/25/05        5-Year Extension Request of Federal Supply
               Schedule Contract V797P-3492k
04-02700-118   Review of Federal Supply Schedule Proposal       $1,987
3/28/05        Submitted by Johnson & Johnson Healthcare
               Systems, Inc. on Behalf of McNeil
               Consumer & Specialty Pharmaceuticals
               Under Solicitation Number M5-Q50A-03

CONTRACT POSTAWARD REVIEWS


01-01156-6     Settlement Agreement Pharmaceutical                                  $521,447
10/14/04       Manufacturer
05-00312-22    Supplemental Report on the Veriﬁcation                                $26,389
11/4/04        of UCB Pharma, Inc.’s Self-Audit Under
               Federal Supply Schedule Contract Number
               V797P-5404x
00-02780-24    Bill of Collection on a Voluntary Disclosure                          $22,184
11/12/04
04-00817-44    Review of Claim Submitted by Rotech                                 $1,374,527
12/3/04        Healthcare, Inc., Under Contract Number
               V554P(NASC) 02-00
04-02326-75    Veriﬁcation of Merck & Co. Self-Audit                                $306,102
2/2/05         Under Federal Supply Schedule Contract
               Number V797P-5236x

                                                 73
  Report                                                        Funds Recommended
 Number/                                                           for Better Use   Questioned
Issue Date                   Report Title                        OIG     Management   Costs


04-02750-83    Review of Federal Supply Schedule              $12,007,560
2/10/05        Proposal Submitted by Roche Diagnostics
               Corporation Under Solicitation Number
               RFP-797-FSS-03-0001

02-00800-98    Post-Award Review of Department of
3/3/05         Veterans Affairs Denver Distribution Center
               Contract V791P-0260 Awarded to Starkey
               Laboratories, Inc.
05-00700-114   Veriﬁcation of Genzyme Corporation’s                                    $84,822
3/23/05        Self-Audit Under Federal Supply Schedule
               Contract Number V797P-5702x

HEALTHCARE INSPECTIONS

04-00036-42    Healthcare Inspection, Alleged Delay
11/30/04       in Diagnosis and Treatment Michael E.
               DeBakey VAMC Houston, TX
04-01150-47    Healthcare Inspection, Contract Nursing
12/9/04        Home Issues James H. Quillen VA Medical
               Center, Mountain Home, TN
05-00290-78    Healthcare Inspection, Emergency
2/8/05         Decontamination Preparedness VA Salt Lake
               City Health Care System, Salt Lake City, UT
04-00120-82    Healthcare Inspections, Alleged Poor Care
2/11/05        and Mismanagement of Surgical Service,
               VA Medical Center, Hot Springs, SD
04-00770-86    Healthcare Inspection, Alleged Quality of
2/18/05        Care Issues, Michael E. DeBakey
               VA Medical Center, Houston, TX
04-00367-76    Healthcare Inspection, Quality of Care
2/22/05        Issues, DC Veterans Affairs Medical Center,
               Washington, DC
04-02051-95    Healthcare Inspection, Patient Care and
3/3/05         Mismanagement Issues VA Medical Center,
               West Palm Beach, FL
04-03348-102   Healthcare Inspection, Alleged Patient Abuse
3/10/05        Issue Dwight D. Eisenhower VA Medical
               Center, Leavenworth, KS




                                                 74

  Report       
                                                  Funds Recommended
 Number/ 
                                                           for Better Use   Questioned
Issue Date                   Report Title                          OIG     Management   Costs

05-00720-108   Healthcare Inspection, Anesthesia
3/17/05        Management and Patient Care Issues, New
               Mexico VA Healthcare System, Albuquerque,
               NM
05-01027-116   Healthcare Inspection, Alleged Patient Abuse
3/25/05        Central Texas Veterans Health Care System,
               Temple, TX


ADMINISTRATIVE INVESTIGATIONS
03-03104-1     Administrative Investigation, Misuse of
10/8/04        Time by a Physician, VA Medical Center,
               Minneapolis, MN
03-03058-15    Administrative Investigation, Preferential
11/5/04        Treatment in Hiring, VA Medical Center,
               Atlanta, GA
04-00257-19    Administrative Investigation, Inappropriate
11/12/04       Absences and Purchase Card Use, Memorial
               Service Network 1 Philadelphia, PA
04-00004-80    Administrative Investigation, Physician Time
2/8/05         and Attendance Issue, VA New York Harbor
               Healthcare System, New York, NY
04-02656-93    Administrative Investigation, Improper
2/28/05        Alternative Work Agreement and Tuition
               Reimbursements VISN 1 Bedford, MA

TOTAL          125 Reports                                    $1,559,120,108   $533,351,648   $2,364,771




                                                  75
Blank Page




    76
                                         APPENDIX B

      STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR
The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management
decisions and implementation of OIG recommendations. It states a Federal agency shall complete
ﬁnal action on each recommendation in an OIG report within 12 months after the report is ﬁnalized.
If the agency fails to complete ﬁnal action within this period, the OIG will identify the matter in its
semiannual report to Congress until the ﬁnal action is completed. This appendix summarizes the
status of OIG unimplemented reports and recommendations.
OIG requires that management ofﬁcials provide documentation showing the completion of corrective
actions on OIG recommendations. In turn, OIG reviews status reports submitted by management
ofﬁcials to assess both the adequacy and timeliness of agreed-upon implementation actions. When
a status report adequately documents corrective actions, OIG closes the recommendation. If the
actions do not implement the recommendation, we continue to monitor progress.
The following chart lists the total number of unimplemented OIG reports and recommendations by
organization. It also provides the total number of unimplemented reports and recommendations
issued over 1 year ago (March 31, 2004, and earlier).

             Unimplemented OIG Reports and Recommendations

   VA                                                                      Issued 3/31/04
                               Total
  Ofﬁce                                                                      and Earlier

                   Reports             Recommendations           Reports             Recommendations

   VHA               48                     345                     8                       38
  A&MM               80                     183                     0                        0
    OM                 4                     27                     0                        0
   VBA                 7                     25                     1                        2
  OI&T                 2                     24                     0                        0
  OHRA                 3                     20                     0                        0
  OPPP                 1                       3                    0                        0
 Totals             145                     627                    9                        40

* There are 141 total unimplemented reports. We have listed 145 reports because 2 reports have 

actions for two or more ofﬁces.

Acquisition and Materiel Management (A&MM)

Ofﬁce of Management (OM)

Ofﬁce of Information and Technology (OI&T)

Ofﬁce of Human Resources and Administration (OHRA)


                                                   77

Ofﬁce of Policy, Planning, and Preparedness (OPPP)
OIG is particularly concerned with one report on VBA operations (issued in July 2000) and three
reports on VHA operations (issued in March, October, and December 2002) with recommendations
that still remain open. The following information provides a summary of reports over 1 year old
with open recommendations.

Veterans Beneﬁts Administration
Unimplemented Recommendations and Status
Report: Audit of the C&P Program’s Internal Controls at VARO St. Petersburg, FL,
99-00169-97, 7/18/00
Recommendations: The Under Secretary for Beneﬁts should:
1. 	    Establish a positive control Beneﬁts Delivery Network (BDN) system edit keyed to an
        employee identiﬁcation number that ensures employee claims are adjudicated only at the
        assigned regional ofﬁce of jurisdiction and prevents employees from adjudicating matters
        involving fellow employees and veterans service ofﬁcers at their home ofﬁce.
2. 	    Establish a BDN system ﬁeld for third-person authorization and a control to prevent release
        of payments greater than $15,000 without the third-person authorization.
Status: As of March 31, 2005, 2 of 26 recommendations remain unimplemented pending VBA
actions.
1. 	 The Veterans Services Network (VETSNET) (the BDN replacement system) Award
        system, as designed, prohibits employees from adjudicating fellow employees’ records at
        their home stations. This is an internal security feature in place for all awards processed
        in VETSNET. Internal alpha testing has conﬁrmed that employee claims are properly
        processed by a station other than their home station. Beta testing continues at one VARO.
        More rigorous testing is planned to conﬁrm proper system restrictions are in place. The
        planned completion date for this testing is December 2005.
2. 	    VETSNET programming is complete and beta testing has conﬁrmed that an automatic
        third-person authorization to control the release of large payments (greater than $25,000)
        is in place As an interim control, VBA instituted a C&P large-payment review process
        in 2001. This process continues to be reviewed by C&P Service site visits and is also
        validated through the OIG CAP review process. VBA has requested the OIG review and
        validate that VBA has completed systemic controls for third-person authorizations. The
        OIG is currently validating whether the controls are in place.
                                            **********

Veterans Health Administration
Unimplemented Recommendations and Status
Report: Review of Security and Inventory Controls Over Selected Biological, Chemical, and
Radioactive Agents Owned by or Controlled at VA Facilities, 02-00266-76, 3/14/02
Recommendations: The Under Secretary for Health, in conjunction with senior policy, research,
and operations managers, need to:

                                               78

1.      	 edeﬁne and strengthen security and access requirements and procedures for safeguarding
        R
        high-risk agents and materials used in VA facilities, such as the agents on the Centers for
        Disease Control and Prevention Select Agents List, other biological agents, toxic chemi-
        cals, and certain pharmaceuticals that might be targeted for use by terrorists.
2. 	    Improve personnel access controls and reduce vulnerabilities to theft of selected agents
        by implementing measures such as the consistent use of photo identiﬁcation badges with
        expiration dates, installation of electronically controlled entry points to and from sensitive
        areas, and use of key-card systems, video surveillance, and/or biometric systems.
3. 	    Review documents related to VA leased-space to others for research use (e.g., to an afﬁli-
        ated university) to ensure that VA’s agreements deﬁne security responsibilities and limita-
        tions.
4. 	    Clarify VA’s accountability and responsibilities for actions of non-VA persons supervising
        VA or non-VA research in VA facilities or in VA space leased to other institutions.
5. 	    Strengthen controls for authorizing and procuring high-risk materials and agents including
        biological agents, and ensure that inventory, transfer, and validated destruction policies and
        procedures account for biological agents and chemicals at all times. Additionally, proce-
        dures should outline appropriate requirements for the use of witnesses to verify transfer
        and destruction processes.
6. 	    Require managers to transfer, dispose of, or establish delimiting dates on select agents no
        longer in use and stored in research and clinical laboratories.
7. 	    Reevaluate the extent of compliance with radiation safety and handling/delivery proce-
        dures, particularly vendor deliveries after regular working hours and on weekends. In
        addition, facility managers should require contractors and vendors to provide evidence that
        background and legal histories on their employees are checked before they are allowed to
        access sensitive VA areas.
8. 	    Strengthen human resource management controls and procedures to consistently verify or
        update non-citizens’ legal residence or employment status while working in VA facilities
        or on VA matters, including students and contractors.
9. 	    Reevaluate the adequacy of security clearance level requirements for employees who could
        have access to or work with highly sensitive agents and materials.
10. 	   Take action on non-citizen employees without valid legal status and notify appropriate
        legal authorities.
11. 	   Take action on any noncitizens with access to VHA research and clinical laboratories if
        they are considered “restricted persons” according to the USA PATRIOT Act.
12. 	   Ensure clearance and checkout procedures extend to employees without compensation and
        contract employees.
13. 	   Issue guidance to revise local disaster plans to include provisions for responding to terrorist
        activities.
14. 	   Direct managers at all facilities to perform vulnerability assessments of their physical
        research and clinical laboratories and consistently implement security measures.


                                                 79

15. 	   Provide researchers and other appropriate personnel necessary training on security issues,
        including security of high-risk and sensitive agents, and procedures to forward requests
        for research articles through their managers and the facility Freedom of Information Act
        ofﬁcer.
Status: In March 2002, the VA Deputy Secretary requested the VA staff to issue a joint report by
September 30, 2002, certifying that all the OIG recommendations had been completed. However,
as of March 31, 2005, 15 of 16 recommendations remain unimplemented. Most of the report’s
recommendations were made to the Under Secretary for Health; however, several recommendations
required joint efforts on the part of VHA and the Ofﬁce of Security and Law Enforcement. During
the prior semiannual period, the Ofﬁce of Security and Law Enforcement completed their actions
by revising two security publications. Also, VHA issued handbooks for control of hazardous
agents in VA research laboratories, and for pathology and laboratory medicine biosecurity and
biosafety.
In September 2004, the Under Secretary for Health committed to the VA Deputy Secretary that
VHA will complete certiﬁcation of guidance by December 31, 2004. However, this action has
been delayed. On March 25, 2005, VHA sent the VISN directors detailed research and clinical
checklists so facilities can reassess the criteria and implement the requirements in the issued
publications. The VISN consolidated certiﬁcation reports from the facilities is to be completed
by May 1, 2005. The purpose of the certiﬁcation requirement is to document compliance with the
directives and provide assurance that the intent of the OIG recommendations to address all the
security and control vulnerabilities presented in the report have been addressed and corrected at
each facility.
VHA is also developing a Web-based educational program that outlines security training requirements
that will be available through the Intranet. VHA has also drafted procedures requiring requests for
research articles be sent for review to the facility Freedom of Information Act ofﬁcer.
                                            **********
Report: Healthcare Inspection, Patient Care Issues, VA Hudson Valley Health Care System,
Franklin Delano Roosevelt Campus, Montrose, NY, 02-02374-08, 10/18/02
Recommendations:
The VISN Director should ensure that the VA Hudson Valley Health Care System Director brings
the Franklin Delano Roosevelt campus Residential Care Program into compliance with VHA
policy by ensuring that all VA-sponsored homes meet all State and local requirements.
Status: As of March 31, 2005, there are 31 veterans residing in 4 unlicensed community residential
care homes, as compared to 182 veterans in 28 unlicensed homes on October 1, 2002. The VA
Hudson Valley Health Care System continues facilitating the licensure process of the homes by
working closely with the VA Central Ofﬁce program ofﬁce (VHA Chief Consultant for Geriatrics
and Extended Care); the New York State Department of Health and Ofﬁce of Child and Family
Services; and the VA sponsored homes. The homes are inspected regularly and provisions are
in place for immediately relocating the veterans from a home if a home fails to meet inspection
requirements. The veterans will be relocated should a home fail to demonstrate a good faith effort
in the licensure process. The Health Care System anticipates that all homes will be licensed by the
end of July 2005.
                                            **********

                                               80
Report: Healthcare Inspection, Evaluation of the VHA’s Contract Community Nursing Home
(CNH) Program, 02-00972-44, 12/31/02
Recommendations: The Under Secretary for Health needs to ensure that:
1. 	   VHA medical facility managers devote the necessary resources to adequately administer
       the CNH program.
2. 	   VHA medical facility managers emphasize the need for CNH review teams to access and
       critically analyze external reports of incidents of patient abuse, neglect, and exploitation,
       and to increase their efforts to collaborate with state ombudsman ofﬁcials.
3. 	   Coordinate efforts with the Under Secretary for Beneﬁts to determine how VHA CNH
       managers and VBA ﬁduciary and ﬁeld examination employees can most effectively
       complement each other and share information such as medical record competency notes,
       on-line survey certiﬁcation and reporting data, and VBA reports of adverse conditions, to
       protect the ﬁnancial interests of veterans receiving health care and VA-derived beneﬁts.
Status: As of March 31, 2005, 3 of 11 recommendations remain unimplemented pending actions
by the VHA Chief Consultant for Geriatrics and Extended Care. The revised VHA handbook on
CNH oversight was published in June 2004. VHA needs to ﬁnalize new performance indicators;
upgrade the CNH website from the prototype to a ﬁnalized site; and ﬁnalize the implementation
plan/coordinated efforts on how VHA, CNH, and VBA ﬁduciary and ﬁeld examination employees
can most effectively complement each other and share information. Completion of all the actions
is expected by July 2005.
                                             **********
Report: Audit of VHA’s Part-Time Physician Time and Attendance, 02-01339-85, 4/23/03
Recommendations:
1. 	 To improve physician timekeeping, we recommend that the Under Secretary for Health:
     a. Determine what reforms are needed to ensure VA physician timekeeping practices are
        effective in an academic medicine environment and VA physicians are paid only for time
        and service actually provided.
      b. Recommend statutory or regulatory changes needed to implement the reforms and publish
         appropriate policy and guidance.
      c. Ensure desk audits are conducted of timekeeping functions.
      d. Provide continuing timekeeping education to supervisors, physicians, and timekeepers.
      e. Evaluate appropriate technological solutions that will facilitate physician timekeeping.
      f. Develop comprehensive guidance for VAMCs to use when conducting desk audits.
      g. Establish appropriate training modules, making best use of technological solutions, for
         training VHA managers, VA physicians, and timekeepers in timekeeping requirements,
         responsibilities, and procedures.
2.	   To better align physician stafﬁng with patient care workload, we recommend that the Under
      Secretary for Health:


                                                 81

     a. Publish policy and guidance that incorporates the use of workload analysis to determine
        the number of physicians needed to provide timely, cost effective, and quality service to
        veterans seeking care from VA.
     b. Require VAMCs to review their stafﬁng structures (such as part-time, full-time, intermittent,
        or fee basis) and determine if these appointments are appropriate to the needs of the medical
        center.
     c. Evaluate alternative methods to acquire physician services and publish national guidance
        to assist VISN and VAMC directors in determining the best strategies for their regional,
        academic, and patient care circumstances.
     d. Publish guidance describing how VISN and VAMC managers should determine, monitor,
        and communicate the allocation of physician time among patient care, administrative
        duties, academic training, and medical research.
Status: As of March 31, 2005, 11 of 17 recommendations remain unimplemented pending actions
by a number of VHA staff ofﬁces. Revised electronic time and attendance (ETA) software remains
on schedule for release in late April/early May 2005. Final edits to VHA handbook 5011 are being
made as a result of the hours bank pilot and alpha and beta testing of the revised ETA system. Once
the ETA system is distributed nationally, facilities will have 30 days to implement. VHA intends to
have all the related directive and handbooks issued in mid-May 2005. The revisions made clarify
terminology and do not change the processes that were reviewed by the OIG previously. There are
two web-based courses in development covering software and entry of time and attendance; and
policy and requirements. Both will be available with the launch of the revised ETA system.
The Physician Productivity and Stafﬁng Committee have been in active discussions with the
OIG staff regarding the physician productivity standards in primary and specialty care. Both the
primary care panel size model and the relative value unit-based specialty productivity model use
direct patient care FTE as a fundamental measurement of physician workforce. This is consistent
with external benchmarks.
Primary Care Update. VHA has issued three directives and created a real-time primary care
data reporting system for patient care in primary care that includes support stafﬁng and practice
characteristics. VHA also established two national performance monitors regarding implementation
of the primary care productivity and stafﬁng model, and is also reﬁning the implementation of the
business rules and databases for the primary care stafﬁng model.
Specialty Care Update. Below is a summary of the projects initiated in FY 2005:
   • 	Inpatient workload capture pilot studies: This project will evaluate the quality, cost
      effectiveness and return on investment of coder abstraction versus physician data collection
      of inpatient professional services. Capturing this professional inpatient workload, for which
      there is no current standardized process, is essential for productivity analysis for inpatient-
      based medical specialties. The projected timeframe, following approval, funding, and coder
      recruitment is 12 months.
  • 	Specialty physician database: In February 2005, a detailed listing of all paid physician staff
     and the associated labor mapping distribution of their time was provided to the ﬁeld. These
     data by facility provides for the ﬁrst time a breakdown of all paid physician staff time spent

                                                82

     in clinical care, research, education and administration as well as listing the current specialty.
     Validation of this database by all VA facilities is now being done. The ﬁnal step to complete
     a national VHA specialty physician database will be to merge this database with the contract
     and fee physician database, currently under development. The projected completion of this
     merged database is June 2005.
  • 	Specialty care productivity models and analyses: This project will assess productivity and
     develop models for 16 specialties during FY 2005. These specialties include: 10 surgical
     specialties, 5 outpatient-based medical specialties, and radiology. For each of these specialties
     a collection and inventory of signiﬁcant productivity modiﬁers is in development. Surveys
     in each specialty areas have been submitted to the ﬁeld for completion. These surveys will
     gather information on important factors that may impact productivity including information
     on practice setting, teaching mission, patient complexity, and capital infrastructure. It is
     anticipated that the models and measurement for these 16 specialties will be completed in
     July 2005.
Database and Directives. As the above referenced projects are initiated, modiﬁcations and/or
establishment of databases and directives are required. A group has been speciﬁcally charged
with ascertaining that required business practices, databases and ﬁeld guidance are considered and
effectively communicated. Speciﬁcally, development and modiﬁcations are being considered for
directives that will improve the quality of physician productivity related data: Ambulatory Care
Data Capture, DSS Labor Mapping, Person Class File Taxonomy, and VHA Enhanced Sharing
Agreement Physician Database. Also databases have been developed or are in the process of being
developed in several key areas of information.
                                              **********
Report: Healthcare Inspection, Evaluation of VHA Homemaker and Home Health Aide Program,
02-00124-48, 12/18/03
Recommendations: We recommend that the Under Secretary for Health issue a policy to replace
expired VHA Directive 96-031 and provide additional guidance requiring that:
1. 	    Patients receive thorough initial interdisciplinary assessments prior to placement in the
        program.
2. 	    Patients receiving Homemaker and Home Health Aide services meet clinical eligibility
        requirements.
Status: As of March 31, 2005, 2 of 4 recommendations remain unimplemented pending actions
by the VHA Chief Consultant for Geriatrics and Extended Care. The information technology
package containing the geriatrics and referral form was released to the ﬁeld in February 2005.
In addition, guidance has been provided to the ﬁeld via three teleconferences. However, the
VHA program ofﬁce has not provided a planned completion date to issue the Home Health Care
Program Administration handbook that was ﬁrst drafted in January 2004. The program ofﬁce also
stated reporting on the performance measures are expected to commence in the 3rd quarter 2005,
however, we are concerned that ﬁeld guidance on the performance measures has not been issued.
                                              **********




                                                 83

Report: Administrative Investigation, Contract and Employee Retreat Expenditure Issues, VHA
Financial Assistance Ofﬁce, 03-01120-86, 2/18/2004
Recommendation: The VHA Chief Financial Ofﬁcer should ensure a bill of collection for $823
is issued to the former Director of the Financial Assistance Ofﬁce to recoup the appropriated funds
he allowed to be spent on a “sunset” cruise.
Status: In October 2004, the former Director requested relief from ﬁnancial liability for the
Ofﬁce of Comptroller General. Based on this request, in December 2004, VA General Counsel
received correspondence from the Assistant General Counsel, U.S. Government Accountability
Ofﬁce (GAO). GAO requested a number of documents and asked several questions regarding the
individuals responsibility, including his role in obligating, approving, or certifying agency funds.
The VA Ofﬁce of General Counsel has responded to the GAO. VHA is unable to take any further
action regarding this recommendation other than await a ﬁnal decision from GAO. There are no
administrative appeal rights after GAO renders a decision.
                                             **********

Report: Healthcare Inspection, Survey of Efforts to Safeguard VA Potable and Waste Water
Systems, 03-01743-114, 3/18/04
Recommendation: The Under Secretary for Health, in conjunction with VISN directors, needs to
standardize water system security assessments and requirements using guidelines recommended
by the Environmental Protection Agency (EPA) to ensure all VA medical facilities are considering
and applying similar safety measures.
Status: The VHA Environmental Engineering Ofﬁce will evaluate the drinking water security
measures in place at VHA facilities to determine if there are existing security measures that
might have applicability VHA-wide. VHA will also continue to interact with EPA for possible
application of other water security measures within VHA. If there are existing water security
measures that can be implemented, VHA will issue appropriate implementation directions. The
planned completion date is December 2005. This effort will be limited to facilities producing their
own water from on-site sources such as wells and facilities storing signiﬁcant quantities of water
provided by municipal sources.
                                             **********
Report: Administrative Investigation, Use of Government Funds, Travel, Personnel, Impartiality,
and Management Issues, VHA Ofﬁce of Research and Development (ORD), 03-03053-115,
3/22/04
Recommendations: The Under Secretary for Health should ensure that the Deputy Under
Secretary for Health:
1. 	   Coordinates with the pharmaceutical companies to properly dispose of the excess funds in
       accordance with the agreements between VHA and the pharmaceutical companies and in
       accordance with appropriate Federal regulations.
2. 	   Transfers remaining funds from ongoing studies from the Friends Research Institute, Inc
       (FRI), the organization that maintained the pharmaceutical companies’ funds and admin-
       istered them for ORD, to an appropriate VA-afﬁliated nonproﬁt research corporation or to
       the General Post Fund.


                                                84

3. 	    Issues bills of collection to the former ORD chief, and all other current and former VA
        employees responsible for approving the use of FRI-administered funds since January
        2002 for their own or others’ personal beneﬁt.
4. 	    Reviews the travel vouchers of those staff who routinely traveled with the former ORD
        chief to determine if similar irregularities exist in their claims.
Status: As of March 31, 2005, 4 of 23 recommendations remain unimplemented pending VHA
actions.
1. 	    The proper placement of the excess funds is now more than 98 percent complete. A review
        of the remaining two accounts showed they were old (approximately 15 years) and had
        little documentation as to the purpose of the account. VHA has identiﬁed the two account
        sponsors and will request the funds be used to support future research activities. The two
        remaining accounts with $489,423, represents less than 2 percent of the identiﬁed funds.
2. 	    The transfer of remaining funds is now more than 97 percent complete. Only one account
        remains open with $747,108 that represents less than 3 percent of the identiﬁed FRI funds.
        The accounts will retain a small balance until June 30, 2005, to cover any committed costs
        incurred during the closeout and movement of funding. Once the commitments have been
        met, the remaining balance will be sent to the proper depository.
3. 	    VHA has completed it review and is developing a plan with consultation from the Ofﬁce of
        General Counsel. The planned completion date is June 2005.
4. 	    VHA has completed its review and notiﬁed the appropriate individuals regarding the
        irregularities found. Each has been requested to respond within 30 days as to whether they
        have additional information.




                                               85

Blank Page




   86
                                    APPENDIX C


          INSPECTOR GENERAL ACT REPORTING REQUIREMENTS


The table below cross-references the speciﬁc pages in this semiannual report to the reporting 

requirements where they are prescribed by the Inspector General Act of 1978 (Public Law 95
-
452), as amended by the Inspector General Act Amendments of 1988 (Public Law 100-504), and 

the Omnibus Consolidated Appropriations Act of 1997 (Public Law 104-208). 


   IG Act            Reporting Requirement                                           Page
References
Section 4 (a) (2)    Review of legislation and regulations                                54
Section 5 (a) (1)    Signiﬁcant problems, abuses, and deﬁciencies                        1-60
Section 5 (a) (2)    Recommendations with respect to signiﬁcant                          1-60
                     problems, abuses, and deﬁciencies
Section 5 (a) (3)    Prior signiﬁcant recommendations on which                             77
                     corrective action has not been completed                         (App. B)
Section 5 (a) (4)    Matters referred to prosecutive authorities and                        i
                     resulting prosecutions and convictions
Section 5 (a) (5)    Summary of instances where information was                            88
                     refused                                                          (App. C)
Section 5 (a) (6)    List of audit reports by subject matter, showing dollar value      65-75
                     of questioned costs and recommendations that funds be            (App. A)
                     put to better use
Section 5 (a) (7)    Summary of each particularly signiﬁcant report                     i-vi
Section 5 (a) (8)    Statistical tables showing number of reports and                      89
                     dollar value of questioned costs for unresolved,                 (Table 1)
                     issued, and resolved reports
Section 5 (a) (9)    Statistical tables showing number of reports and dollar value of     90
                     recommendations that funds be put to better use for unresolved, (Table 2)
                     issued, and resolved reports
Section 5 (a) (10)   Summary of each audit report issued before this reporting period 78-85
                     for which no management decision was made by end of               (App. C)
                     reporting period
Section 5 (a) (11)   Signiﬁcant revised management decisions                              88
                                                                                      (App. C)
Section 5 (a) (12)   Signiﬁcant management decisions with which                           88
                     the Inspector General is in disagreement                         (App. C)
Section 5 (a) (13)   Information described under section 5(b) of the Federal Financial 88
                     Management Improvement Act of 1996 (Public Law 104-208)          (App. C)




                                             87

INSPECTOR GENERAL ACT REPORTING REQUIREMENTS (CONT’D)
Prior Signiﬁcant Recommendations Without Corrective Action and
Signiﬁcant Management Decisions

The IG Act requires identiﬁcation of: (i) signiﬁcant revised management decisions, and (ii)
signiﬁcant management decisions with which the OIG is in disagreement. During this 6-month
period, there were no reportable instances under the Act.

Obtaining Required Information or Assistance

The IG Act requires the OIG to report instances where access to records or assistance requested
was unreasonably refused, thus hindering the ability to conduct audits or investigations. During
this 6-month period, there were no reportable instances under the Act.

Federal Financial Management Improvement Act of 1996 (Public Law
104-208)

The IG Act requires the OIG to report instances and reasons when VA has not met the intermediate
target dates established in the VA remediation plan to bring VA’s ﬁnancial management system
into substantial compliance with the requirements of Public Law 104-208. VA began operational
testing of a new integrated ﬁnancial management and logistics system (CoreFLS) on October 6,
2003, at three VA facilities.VA planned to expand operational testing to several other facilities
during the ﬁscal year. However, due to deployment and information technology security issues,
further implementation of the system was halted. VA is currently evaluating how it will proceed
with the system development effort. At the time it was halted, the project was under the VA
Chief Financial Ofﬁcer. Subsequently, the project has been transferred to the VAChief Information
Ofﬁcer.

Reports Issued Before this Reporting Period Without a Management
Decision Made by the End of the Reporting Period

The IG Act requires a summary of audit reports issued before this reporting period for which no
management decision was made by the end of the reporting period. There were no OIG reports
unresolved for over 6 months.

Statistical Tables 1 and 2 Showing Number of Unresolved Reports

As required by the IG Act, Tables 1 and 2 provide statistical summaries of unresolved and resolved
reports for this reporting period. Speciﬁcally, they provide summaries of the number of OIG
reports with potential monetary beneﬁts that were unresolved at the beginning of the period, the
number of reports issued and resolved during the period with potential monetary beneﬁts, and
the number of reports with potential monetary beneﬁts that remained unresolved at the end of the
period.




                                               88

Table 1: Resolution Status Of Reports With Questioned Costs

                                                                                  Dollar Value
                     RESOLUTION STATUS                              Number
                                                                                  (In Millions)
 No management decision by 9/30/04*                                      0              $0

 Issued during reporting period                                          7            $2.4

   Total inventory this period                                           7            $2.4

 Management decisions during the reporting period.

 Disallowed costs (agreed to by management)                              7            $2.4

 Allowed costs (not agreed to by management)                             0              $0

   Total Management Decisions This Reporting Period                      7            $2.4

   Total Carried Over To Next Period                                     0              $0


Questioned Costs

For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG recommends
VA pursue collection, including Government property, services or beneﬁts provided to ineligible
recipients; recommended collections of money inadvertently or erroneously paid out; and
recommended collections or offsets for overcharges or ineligible costs claimed.

For contract review reports, it is contractor costs OIG recommends be disallowed by the contracting
ofﬁcer or other management ofﬁcial. Costs normally result from a ﬁnding that expenditures were
not made in accordance with applicable laws, regulations, contracts, or other agreements; or a
ﬁnding that the expenditure of funds for the intended purpose was unnecessary or unreasonable.

Disallowed Costs

Disallowed Costs are costs that contracting ofﬁcers or management ofﬁcials have determined
should not be charged to the Government and which will be pursued for recovery; or on which
management has agreed that VA should bill for property, services, beneﬁts provided, monies
erroneously paid out, overcharges, etc. Disallowed costs do not necessarily represent the actual
amount of money that will be recovered by the Government due to unsuccessful collection actions,
appeal decisions, or other similar actions.

Allowed Costs

Allowed Costs are amounts on which contracting ofﬁcers or management ofﬁcials have determined
that VA will not pursue recovery of funds.


                                               89

Table 2: Resolution Status Of Reports With Recommended Funds To
Be Put To Better Use By Management

                                                                                   Dollar Value
                      RESOLUTION STATUS                              Number
                                                                                   (In Millions)
 No management decision by 9/30/04*                                      50            $633.8

 Issued during reporting period                                          52          $1,559.1

   Total inventory this period                                         112           $2,192.9

 Management decisions during the reporting period.

 Agreed to by management                                                50             $732.0

 Not agreed to by management                                              8            $294.3

   Total Management Decisions This Reporting Period                     58           $1,026.3

   Total Carried Over To Next Period                                    54           $1,166.6

* Figures revised from 9/30/04 semiannual report.

Deﬁnitions:
Recommended Better Use of Funds

For audit reports, it represents a quantiﬁcation of funds that could be used more efﬁciently if
management took actions to complete recommendations pertaining to deobligation of funds, costs
not incurred by implementing recommended improvements, and other savings identiﬁed in audit
reports.

For contract review reports, it is the sum of the questioned and unsupported costs identiﬁed in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless
additional evidence supporting the costs is provided. Questioned costs normally result from
ﬁndings such as a failure to comply with regulations or contract requirements, mathematical
errors, duplication of costs, proposal of excessive rates, or differences in accounting methodology.
Unsupported costs result from a ﬁnding that inadequate documentation exists to enable the auditor
to make a determination concerning allowability of costs proposed.

Dollar Value of Recommendations Agreed to by Management

Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds
that will be used more efﬁciently based on management’s agreement to implement actions, or
the amount contracting ofﬁcers disallowed in negotiations, including the amount associated with
contracts that were not awarded as a result of audits.

                                                90

Dollar Value of Recommendations Not Agreed to by Management

Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned
and/or unsupported costs that contracting ofﬁcers decided to allow.




                                            91

Blank Page




 92
                                                  APPENDIX D



                   OIG OPERATIONS PHONE LIST
Investigations

Headquarters Investigations Washington, DC ....................................................(202) 565-7702


Northeast Field Ofﬁce (51NY) New York, NY ......................................................(212) 951-6850


        Boston Resident Agency (51BN) Bedford, MA ............................................... (781) 687-3138


        Newark Resident Agency (51NJ) Newark, NJ ................................................ (973) 297-3338


        Pittsburgh Resident Agency (51PB) Pittsburgh, PA ............................................(412) 784-3788


        Washington Resident Agency (51WA) Washington, DC ......................................(202) 530-9191


Southeast Field Ofﬁce (51SP) Bay Pines, FL .................................................... (727) 319-1215


        Atlanta Resident Agency (51AT) Atlanta, GA ....................................................(404) 929-5950


        Columbia Resident Agency (51CS) Columbia, SC ..............................................(803) 695-6707


        Nashville Resident Agency (51NV) Nashville, TN ...............................................(615) 695-6373


        West Palm Beach Resident Agency (51WP) West Palm Beach, FL ........................(561) 422-7720


Central Field Ofﬁce (51CH) Chicago, IL............................................................ (708) 202-2676


        Denver Resident Agency (51DV) Denver, CO ................................................ (303) 331-7673


        Cleveland Resident Agency (51CL) Cleveland, OH ............................................(216) 522-7606


        Kansas City Resident Agency (51KC) Kansas City, KS .......................................(913) 551-1439


South Central Field Ofﬁce (51DA) Dallas, TX ..................................................... (214) 253-3360


        Houston Resident Agency (51HU) Houston, TX.................................................(713) 794-3652


        New Orleans Resident Agency (51NO) New Orleans, LA ....................................(504) 619-4342


Western Field Ofﬁce (51LA) Los Angeles, CA ................................................... (310) 268-4269


        Phoenix Resident Agency (51PX) Phoenix, AZ ..................................................(602) 627-3252


        San Diego Resident Agency (51SD) San Diego, CA ...........................................(619) 400-5326


        San Francisco Resident Agency (51SF) Oakland, CA .........................................(510) 637-6360


        Seattle Resident Agency (51SE) Seattle, WA ...................................................(206) 220-6654


                 ................................................................................................................ext 31


                                                               93

Healthcare Inspections


Central Ofﬁce Operations Washington, DC..........................................................(202) 565-8305


Healthcare Regional Ofﬁce Washington (54DC) Washington, DC ..................... (202) 565-8452


        Healthcare Regional Ofﬁce Atlanta (54AT) Atlanta, GA .................................. (404) 929-5961


        Healthcare Regional Ofﬁce Bedford (54BN) Bedford, MA ................................ (781) 687-2134


        Healthcare Regional Ofﬁce Chicago (54CH) Chicago, IL ................................. (708) 202-2672


        Healthcare Regional Ofﬁce Dallas (54DA) Dallas, TX ..................................... (214) 253-3330


        Healthcare Regional Ofﬁce Los Angeles (54LA) Los Angeles, CA...................... (310) 268-3005


Audit


Central Ofﬁce Operations Washington, DC..........................................................(202) 565-4625


Central Ofﬁce Operations Division (52CO) Washington, DC .................................(202) 565-4434


Contract Review and Evaluation Division (52C) Washington, DC .........................(202) 565-4818


Financial Audit Division (52CF) Washington, DC ..................................................(202) 565-7913


        Information Technology Division (52IT) Washington, DC ............................... (202) 565-5826


        Veterans Health and Beneﬁts Division (52VH) Washington, DC ....................... (202) 565-8447


        Atlanta Audit Operations Division (52AT) Atlanta, GA .................................... (404) 929-5921


        Bedford Audit Operations Division (52BN) Bedford, MA ................................. (781) 687-3120


        Chicago Audit Operations Division (52CH) Chicago, IL ................................... (708) 202-2667


        Dallas Audit Operations Division (52DA) Dallas, TX ....................................... (214) 253-3300


        Austin Residence (52AU) Austin, TX ........................................................... (512) 326-6216


        Kansas City Audit Operations Division (52KC) Kansas City, MO ....................... (816) 426-7100


        Los Angeles Audit Operations Division (52LA) Los Angeles, CA ....................... (310) 268-4335


        Seattle Audit Operations Division (52SE) Seattle, WA ................................... (206) 220-6654





                                                        94

                    APPENDIX E

                     GLOSSARY
ATF       Bureau of Alcohol, Tobacco, Firearms, and Explosives
C&P       Compensation and Pension
CAP       Combined Assessment Program
CBOC      Community-Based Outpatient Clinic
CFS       Consolidated Financial Statements
CMOP      Consolidated Mail Out Pharmacy
DAS       Data Analysis Section
DEA       Drug Enforcement Administration
DIC       Dependency and Indemnity Compensation
DOL       Department of Labor
EPA       Environmental Protection Agency
FBI       Federal Bureau of Investigation
FFMIA     Federal Financial Management Improvement Act
FISMA     Federal Information Security Management Act of 2002
FOIA/PA   Freedom of Information Act/Privacy Act
FSS       Federal Supply Schedule
FTE       Full-time Equivalent
FY        Fiscal Year
GSA       General Services Administration
HCS       Health Care System
HEC       Health Eligibility Center
HHS       Department of Health and Human Services
HUD       Department of Housing and Urban Development
IG        Inspector General
IRS       Internal Revenue Service
IT        Information Technology
MCCF      Medical Care Collection Fund
MCI       Master Case Index
NCA       National Cemetery Administration
NCIC      National Crime Information Center
OHI       Ofﬁce of Healthcare Inspections
OIG       Ofﬁce of Inspector General
OMB       Ofﬁce of Management and Budget
ONDCP     Ofﬁce of National Drug Control Policy
OPM       Ofﬁce of Personnel Management
PCIE      President’s Council on Integrity and Efﬁciency
QM        Quality Management
SSA       Social Security Administration
USMS      U.S. Marshals Service
VA        Department of Veterans Affairs
VAMC      VA Medical Center
VARO      VA Regional Ofﬁce
VBA       Veterans Beneﬁts Administration
VHA       Veterans Health Administration
VISN      Veterans Integrated Service Network
VR&E      Vocational Rehabilitation and Employment
WCP       Workers’ Compensation Program

                             95
Copies of this report are available to the public. Written requests should be sent to:

        Ofﬁce of the Inspector General (53B)

        Department of Veterans Affairs        

        810 Vermont Avenue, NW

        Washington, DC 20420


The report is also available on our website:

        http://www.va.gov/oig/53/semiann/reports.htm
For further information regarding VA OIG, you may call 202 565-8620.




Cover photos of the Vietnam Veterans Memorial
Washington, DC and
the Forth Worth POW/MIA Memorial
Fort Worth, TX, by
Joseph M. Vallowe, Esq.
VA OIG, Washington, DC

Cover photos of the Vietnam War courtesy
Marine Corps Division of Public Affairs,
Department of Defense




                                                96

Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:           (800) 488-8244
                        (800) 488-VAIG
To FAX:                 (202) 565-7936

To Send
Correspondence:         Department of Veterans Affairs
                        Inspector General Hotline (53E)
                        P.O. Box 50410
                        Washington, DC 20091-0410

Internet Homepage:      http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:         vaoighotline@mail.va.gov




                     Department of Veterans Affairs
                       Ofﬁce of Inspector General
                     Semiannual Report to Congress

                     October 1, 2004 - March 31, 2005
